<html>
<title> - DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT AND INDEPENDENT AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
 DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT AND 
        INDEPENDENT AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                      THURSDAY, FEBRUARY 26, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Christopher S. Bond (chairman) 
presiding.

    Present: Senators Bond, Mikulski and Johnson.

                   EXECUTIVE OFFICE OF THE PRESIDENT

                Office of Science and Technology Policy

STATEMENT OF JOHN H. MARBURGER, III, DIRECTOR

                      NATIONAL SCIENCE FOUNDATION

STATEMENT OF ARDEN L. BEMENT, JR., ACTING DIRECTOR
ACCOMPANIED BY:
        WARREN M. WASHINGTON, CHAIR, NATIONAL SCIENCE BOARD
        MARY E. CLUTTER, ASSISTANT DIRECTOR, BIOLOGICAL SCIENCES
        CHRISTINE C. BOESZ, INSPECTOR GENERAL


                statement of senator barbara a. mikulski


    Senator Mikulski [presiding]. In the spirit of 
bipartisanship, which is a characteristic of this subcommittee, 
I will start the hearing while we await the arrival of Senator 
Bond. Senator Bond is at the Banking Committee hearing to 
introduce the nominee for the Secretary of HUD and will be 
joining us shortly. We expect Senator Bond shortly, but if not, 
we will go ahead with our witness testimony. We do expect a 
vote between 11:00 and 11:30.
    I want to welcome Dr. Marburger, Dr. Bement, and Dr. 
Washington to today's hearing. This is a very important 
hearing. We are tremendously interested in the issues to be 
presented by our panel; from the National Science Foundation, 
as well as the Chairman of the National Science Board, and, of 
course, the president's science advisor.
    In terms of the National Science Foundation, it is my 
belief that the NSF is absolutely critical to our economy. The 
future technologies and future jobs depend upon National 
Science Foundation research. I believe that America needs to be 
safer, stronger, and smarter, and if we want safer, stronger, 
and smarter, there is no other agency than the National Science 
Foundation who can make such a tremendous contribution to our 
country.
    NSF must lead the way in developing new technology, new 
thinking, new ideas, and new science to strengthen both our 
national security and our economic security. This is not just 
my view. Carly Fiorini, the Chair of Hewlett Packard, said, 
``We must focus on developing the next generation industries 
and the next generation talent and fields like biotech, 
nanotech, digital media distribution, around issues like IT 
security, mobility, manageability, that is going to create 
long-term growth here at home, while raising our living 
standards in the process. These will be the new ideas, for the 
new products, for the new jobs that won't be on a fast track to 
Mexico or a slow boat to China.''
    Twenty years ago, President Reagan created the President's 
Commission on Industrial Competitiveness. We were then facing 
other kinds of challenges to our economy. The Commission 
offered three recommendations on how to make sure America 
continued to lead the way in terms of economic competitors. 
First, promote research and development of new ideas and new 
technologies, improve education and training, and lower budget 
deficits. That triad, for the future of this country, is as 
relevant today as it was when the Commission made its report.
    Following this simple formula, 35 million new jobs were 
created from the late 1980's until the late 1990's, the longest 
period of economic expansion in history. During the 1990's, I 
wrote my own vision of how we could cooperate with the 
Commission's recommendation. I proposed an idea that we should 
use both basic and other applied research. I talked about 
strategic application of our research, not that we pick winners 
or losers, not that we have a European industrial policy, but 
that we organize our thinking in the way NIH does, like you do 
not have a national institute of microbiology, you have a 
national institute of heart, or the national institutes of 
viruses and allergies, and so on.
    I am so proud that we win the Nobel Prizes, but I want to 
make sure we win the markets at home. That is why we believe we 
must focus our efforts on, first of all, basic science, in 
developing the new talent in the fields of basic science, and 
then also to promote cutting-edge technologies, like nanotech 
and biotech and info-tech. But in order to find that next 
generation of talent, we have to strengthen our educational 
system, K through 12, undergraduate, graduate, and post-
doctoral.
    We need to strengthen the role of our community colleges. 
We were so pleased the President talked about it in the State 
of the Union. It is the training ground for a high-tech 
workforce, but unfortunately, the budget that has been sent to 
this committee falls short in these very noble goals.
    The proposed National Science Foundation budget is 
extremely disappointing. It is only 3 percent above last year. 
This is not satisfactory to this subcommittee, who, again, 
working on a bipartisan basis, said that we wanted to double 
the National Science Foundation's budget the way Congress has 
been working towards doubling the National Institutes of 
Health's budget.
    The increase barely accounts for inflation. I believe that 
it's not a National Science Foundation budget. I believe it's 
an OMB budget. In the omnibus bill last year, Senator Bond and 
I gave NSF a 4 percent increase over fiscal year 2003. We, 
again, will continue to work to double the National Science 
Foundation's budget. In order to meet that goal, we will need 
to have almost a 30 percent increase over the next few years.
    A year ago, the President signed the NSF reauthorization 
act. It authorized the doubling of the NSF budget over 5 years. 
Under the authorization, we should be funding NSF at $7.3 
billion, but the 2005 budget provides only $5.7 billion. If 
ever there was a call, because of the crisis that our Nation 
could face in the need for talent and the need for the basic 
ideas that are being developed, I believe that we need to treat 
this as a crisis.
    Every major report on long-term economic growth cites the 
need for increases in scientific research and a smarter 
workforce. Strategic research is the foundation of future 
economic growth. The jobs of tomorrow will come from the 
research of today, but not with a 3 percent increase.
    Nanotechnology is a good example. It could be the next 
breakthrough. We are already seeing it in carbon nanotubes and 
nanocircuits. Nanotech offers the ability to rejuvenate our 
manufacturing sector and create new high-paying quality jobs. I 
want to know, of course, in our conversation, where we stand 
with nanotech.
    Let us move on, though, to education. I was so troubled to 
see that the education component was cut by 18 percent, 
compared to last year. This is the time we should be increasing 
our commitment to education, not cutting it, and not 
rearranging programs between NSF and other agencies. Graduate 
enrollment in science and engineering is down 50 percent over 
the past 10 years. Well, where is this new talent going to come 
from? Fifty percent of all graduate students are foreign 
nationals. That is not being prickly about them. It is being 
alarmed about ourselves.
    Two years ago, again, working with my colleague, Senator 
Bond, at the suggestion of Dr. Colwell we increased the 
stipends for graduate research to $30,000. We understand that 
has made a tremendous difference. Many often, those foreign 
nationals come with huge subsidies from their own country to 
learn in America, but America needs to learn that it has to do 
the same thing for our own kids right here.
    While we are making progress with graduate students, we are 
losing ground with undergraduates. The biggest cut seems to 
come in the tech talent program, which Senator Bond and I 
created 2 years ago to get more undergraduate students in math, 
science, and engineering programs. We need a strong, steady, 
consistent level of support. We also need to support our K 
through 12 students and other informal education programs that 
get kids involved.
    I also want to talk about the community colleges. Yes, we 
need to focus on wonderful academic centers of excellence. Two, 
Maryland and Hopkins, are in my own State, but we also have to 
focus on the community college. I believe NSF can do more to 
help our community colleges educate and train the high-tech 
workers we need.
    While we are working on the PhD students, and we should, 
there is this whole other group of people who can go into the 
tech fields, forensic tech, biotech, lab tech that we can focus 
on. In my own home State, Capital College, in Prince George's 
County, trains technicians who work at Goddard, operating 
satellite and communication systems. This marvelous school is a 
commuter school. It is a day-hop school. But I will tell you, 
for a lot of the young men and women in my own community who 
cannot or would not want to go to Maryland or one of the other 
schools, this is the gateway to opportunity, and boy, does 
Goddard need them.
    There are many other things that we can talk about in 
informal science and in workforce readiness, but I believe that 
you know kind of the issues we are talking about. The other 
issue is to make sure that just as we want no child left 
behind, we need to make sure that the historically black 
colleges are, again, really strengthened and supported, 
because, again, this offers a cornucopia of talent for our 
country if we then get behind them.
    So I know that this is what we want to talk about with the 
National Science Foundation. To the Board, Dr. Washington, I 
look forward to hearing your comments to know what the Science 
Board's vision is for the National Science Foundation, what you 
think about the world in which we find ourselves, and the world 
we want to live in. We have great respect for you, sir, and 
look forward to hearing from you.
    Dr. Marburger, we are also very pleased to always hear from 
the President's science advisor on what are the 
administration's priorities. And we know that there have been 
some very troubling accusations about the administration 
engaging in junk science, and we would like to hear your views 
on that today and give you the opportunity to talk about how we 
are going to keep sound science as part of every agency.


                           PREPARED STATEMENT


    Having said that, again, I want to welcome you on behalf of 
myself and Senator Bond. Know that we view this hearing as a 
very cordial and collegial dialogue. America is counting on us 
to not play politics with science and not play politics with 
the future of our competitiveness in the world. Senator 
Johnson.
    [The statement follows:]

           Prepared Statement of Senator Barbara A. Mikulski

    Welcome Dr. Marburger, Dr. Bement and Dr. Washington.
    The National Science Foundation is critical to our economy. Future 
technologies and future jobs depend upon NSF research. I believe in an 
America that is safer, stronger and smarter. NSF must lead the way in 
developing new technologies to strengthen our national security and our 
economic security.
    This is not just my view. In a recent Wall Street Journal article, 
Carly Fiorina, the Chairman of Hewlett-Packard, said: ``We must focus 
on developing next generation industries and next generation talent--in 
fields like biotechnology, nanotechnology and digital media 
distribution; around issues like IT security, mobility and 
manageability that will create long term growth here at home while 
raising our living standards in the process.''

                                  JOBS

    Almost 20 years ago, President Ronald Reagan created the 
President's Commission on Industrial Competitiveness. This Commission 
offered three recommendations on how to improve America's economic 
competitiveness: (1) promote research and development of new 
technologies; (2) improve education and training; and (3) lower budget 
deficits.
    Following this simple formula, 35 million new jobs were created 
from the late 1980's through the late 1990's--the longest period of 
economic expansion in history.

                               PRIORITIES

    In the early 1990's, I offered my own vision of what government's 
role in research should be. I proposed the radical idea that we should 
support both basic and applied research. I believed we needed to start 
focusing on the strategic application of our research. We win the Nobel 
Prizes and they win market share.
    That's why I believe we must focus our effort on promoting cutting 
edge technologies like nanotechnology, information technology and 
biotechnology.
    We have to strengthen our educational system--all the way from K-
12, undergraduate, graduate and post-doctoral. We need to strengthen 
the role of our community colleges, which have become the training 
ground for the high tech workforce.
    Unfortunately, the budget that has been sent to this Committee 
falls short in many of these areas.

                             BUDGET SUMMARY

    The proposed NSF budget for 2005 is just 3 percent above last year. 
The research budget--the very core of NSF's budget--is increased by 
just 3 percent over last year. This barely accounts for inflation.
    A year ago, I was disappointed with the NSF budget. I am still 
disappointed. This is not an NSF budget. It's an OMB budget.
    In the Omnibus, Senator Bond and I gave NSF a 7 percent increase 
over last year. Senator Bond and I are committed to doubling NSF's 
budget. It's bi-partisan and bi-cameral. But we cannot do it alone. In 
order to meet that goal, we will need a 20 percent increase this year.
    Just over a year ago, the President signed the NSF Authorization 
Act. It authorized the doubling of NSF's budget over 5 years. Under the 
NSF Authorization, NSF should be funded at $7.3 billion for fiscal year 
2005. But the fiscal year 2005 budget provides only $5.7 billion for 
NSF--$1.7 billion less than was promised in the authorization.
    We need to do more than just keep up with inflation.
    Senator Bond and I have led a bi-partisan effort to double NSF 
research but we can't do it alone.

                                RESEARCH

    Every major report on long-term U.S. economic competitiveness has 
cited the need for a major increase in scientific research. Basic 
research (physics, chemistry, etc.) and strategic research (nano, bio 
and info) are the foundations of future economic growth. The jobs of 
tomorrow will come from the research of today. But not with 3 percent 
increases.
    More funding for basic and applied scientific research means more 
jobs for our economy. Our competitors are not waiting. We cannot afford 
to lose our advantage in science and technology.

                             NANOTECHNOLOGY

    Nanotechnology could be the next industrial revolution. We are 
already seeing breakthroughs in carbon nano-tubes and nano-circuits. 
The potential to transform our economy is almost limitless.
    Nanotechnology offers us the ability to rejuvenate our 
manufacturing sector and create new high paying, high quality jobs. I 
want to know where we stand with Nano and where we are going. What 
industries and sectors are we focusing on and what goals are we 
setting?

                               EDUCATION

    The education budget is cut by 18 percent compared to last year. 
This is the time we should be increasing our commitment to education, 
not cutting it. Our economy needs more scientists, engineers and 
researchers. Graduate enrollment in science and engineering is down 50 
percent over the past 10 years. Fifty percent of all graduate students 
are foreign nationals.

Stipends
    Two years ago, I led the effort to increase graduate stipends. At 
that time, stipends were $18,500. Now, thanks to Senator Bond and I, 
stipends are $30,000. Since we began raising the stipends, NSF has seen 
a significant increase in graduate fellowship applications.
    While we are making progress with graduate students, we seem to be 
losing ground with undergraduates. The budget proposes to cut 
undergraduate education. The biggest cut is in the Tech Talent program. 
Senator Bond and I created this program 2 years ago to get more 
undergraduate students interested in math, science and engineering.
    This cut is the wrong approach.
    We need a strong, steady and consistent level of support for 
education starting with K-12, undergraduate, graduate, post-graduate.

Community Colleges
    This is where our community colleges can play a role. NSF can't 
just focus on the Johns Hopkins and the Marylands. It must also focus 
on the Anne Arundel Community Colleges of this country. NSF can do more 
to help our community colleges educate and train the high-tech workers 
we need. Whether part time or full time, community colleges are the 
main source of higher education for large segments of our society.
    Technicians of all kinds are in high demand and our community 
colleges are the training ground for these technicians. For example, in 
Maryland, Capitol College in Prince George's County trains technicians 
who work at Goddard operating satellites and communications systems. 
They offer a variety of programs to meet Goddard's needs and the needs 
of local contractors who work with Goddard.
    Our community colleges are not only training grounds for technical 
skills, they are also stepping stones for higher education and lifetime 
learning.

Informal Science (Science Museums)
    Senator Bond and I have been major supporters of NSF's informal 
science program. We increased this program from $50 million to $62 
million because of its value to education. Supporting our science 
museums and science centers have been very successful as a teaching 
tool for kids.
    There is no reason to cut this program as the budget proposes.
    This program has been a great vehicle for translating and teaching 
the lessons from Hubble, Mars and the other successful science programs 
that we have seen. NASA has had 8 billion hits to its website since 
January 2--all because of Mars and Hubble.
    Informal science brings these magnificent discoveries directly to 
kids and gets them excited about science. It also brings parents and 
children together. Parents and children can go to the science centers 
and science museums and learn together.

                          WORKFORCE READINESS

    We do not have a jobs shortage in this country. We have a skills 
shortage. Almost every job today requires a working knowledge with 
technology. We have heard from numerous CEOs about the lack of 
technical skills in our workforce.
    Math and science test scores show that U.S. 8th grade students 
finish behind students in Singapore, Japan, South Korea and five other 
countries.
    The Labor Department estimated that 60 percent of the new jobs 
being created in our economy today will require technological literacy. 
Yet, only 22 percent of the young people entering the job market now 
actually possess those skills.
    Women and minorities are the fastest growing part of our workforce, 
but represent a tiny fraction of our science and technology workforce.
    We need more support for our Historically Black Colleges and 
Universities. The HBCU THRUST program and the Louis Stokes Alliance are 
a critical part of this effort and need more support, not less.
    We have annual discussions about visas for foreign students and 
workers to fill high tech jobs in the United States. I welcome foreign 
students and workers to the United States. But there should be 
sufficient U.S. workers filling these jobs.
    NSF needs to be the leader in creating more science and engineering 
students and more science and engineering workers.

             OFFICE OF SCIENCE AND TECHNOLOGY POLICY (OSTP)

    We look to the Office of Science and Technology Policy to set 
national policy guidance across scientific disciplines. I want to know 
about the White House policy on balancing the competing needs of the 
various scientific disciplines--the life sciences versus the physical 
sciences.
    We have doubled funding for NIH--what about funding for NSF? Is 
there a long term vision? What is the plan to integrate science policy 
with economic policy? How do we stack up compared to our international 
competitors?
National Science Board
    And finally, I'd like to know from Dr. Washington what the Science 
Board's vision is for NSF's future. Where do we go from here and how do 
we get there?
    I hope OMB will someday get the message. NSF has broad bi-partisan 
support to double its funding. It's critical to our future, to our 
economy and to our security. Without a significant increase in NSF 
funding, we will continue to win the Nobel prizes while our competitors 
win market share.
    This is about jobs and our economy and our Nation's future. It's 
about economic security and national security.

                    STATEMENT OF SENATOR TIM JOHNSON

    Senator Johnson. Thank you, Senator Mikulski. I share your 
very able observations that you have shared here today, and I 
am very appreciative of your leadership and Senator Bond's 
leadership on this committee. I will be very brief, but I do 
have a few thoughts that I would like to share on the record.
    I strongly support efforts to increase funding for the 
National Science Foundation, and I commend the Chairman and the 
ranking member for their extraordinary leadership and 
dedication to double NSF's annual budget. NSF is critical to 
support scientific exploration and science education, and to 
preserve our Nation's status as an economic and technological 
force in the world.
    The EPSCoR program, for example, is critical to enhance the 
capacity of small States to contribute to our technological 
achievements and innovation. I am enthusiastic that the NSF has 
selected Dr. Sherry Farwell to lead the Foundation's EPSCoR 
program.
    Dr. Farwell has been a great asset in his current position 
at the South Dakota School of Mines and Technology. And while 
we are sad to see him leave South Dakota, we acknowledge that 
our loss is our Nation's gain. I will continue to be a strong 
supporter of EPSCoR, and I am confident that Dr. Farwell will 
serve the NSF with distinction in the coming years.
    Secondly, the NSF has recently announced that it will 
conduct meetings in March with scientists from around the 
Nation to evaluate the merits of establishing a national 
underground science program. Such a program has far-reaching 
opportunities to unlock many existing mysteries about the 
origins of the universe. Successful deep experiments at the 
Homestake Mine in South Dakota, for example, have already 
contributed to the award of a 2002 Nobel Prize for physics to 
Dr. Ray Davis of the University of Pennsylvania.
    I congratulate the NSF for the deliberate and thoughtful 
science approach to consider developing such a program. There 
appears to be strong support within the science community that 
such a program will contribute significant opportunities to 
advance numerous disciplines in science. I support the NSF's 
efforts to thoroughly peer-review the science as well as 
various proposals to establish the most beneficial research 
facilities. As the NSF and the science community review the 
merits of the science and specific proposals, I hope that you 
will keep us informed of your findings and intentions.
    Thirdly, lastly, I want to raise for Dr. Marburger my 
concern that we develop a more coordinated Federal policy 
towards remote sensing technologies. Last May, a malfunction 
aboard the LANDSAT-7 satellite resulted in significant 
degradation of the image data that the satellite may collect. 
The LANDSAT program has collected and distributed a 32-year 
continuous record of the land surfaces of the world. This data, 
which is collected and distributed by the U.S. Geological 
Survey, is a significant resource for applications by various 
entities throughout the Federal Government, including the 
USAID, the Department of Agriculture, the Department of 
Defense, Homeland Security, and Environmental Applications.
    In fact, the program has become so successful that a 
significant portion of the program's budget is recovered 
through outside data sales, but currently, there appears to be 
no real plan in place to replace this critical hardware. It is 
critical that we take all necessary actions to restore the full 
capabilities of the program and recapture the markets for this 
valuable data.
    The current difficulties we are experiencing, however, are 
exasperated by what appears to be a lack of clear remote 
sensing mission. Over the last 32 years the responsibilities 
over the program have been shifted between several agencies, 
and this has led to some confusion and lack of consistent 
leadership. I believe that we need to establish a clearly 
defined remote sensing mission. The U.S. Geological Survey is, 
I believe, uniquely positioned to work with all the various 
Federal and private entities which utilize this data, and that 
we should provide the USGS the task and responsibility of 
coordinating and implementing that process. I hope that the 
Office of Science and Technology Policy will support this 
important goal.
    So Mr. Chairman, Madam ranking member, thank you for your 
leadership. I also thank the distinguished panelists for their 
leadership on the critical areas of science. And I look forward 
to working with Senator Bond as he chairs this committee and we 
commence on what no doubt will be a difficult fiscal year, but 
one where science should continue to play a very leading role. 
Thank you, again.

            OPENING STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond [presiding]. Thank you very much, Senator 
Johnson, and I think you were the master of understatement when 
you said it is going to be a difficult fiscal year. I just came 
with mixed emotions from a hearing where I did something that 
causes me qualms. I recommended my very good friend, Alfonso 
Jackson, to be Secretary of HUD. Given the fiscal problems he 
faces, I hate to do that to a friend and a good man.
    We are here today to talk about the National Science 
Foundation, the Science Board, and the Office of Science and 
Technology Policy. I welcome Dr. Marburger, Dr. Bement, and Dr. 
Washington. Thank you very much for joining us today. I know 
that Dr. Bement has recently come into the temporary position. 
I am interested in hearing your first impressions of the 
Foundation, and in understanding how you are going to handle 
your responsibilities as both acting director of NSF and as 
director of NIST. It sounds like more than a 40-hour-a-week 
job.
    As many of you know, Senator Mikulski and I have been, and 
we will continue to be extremely strong supporters of the NSF 
and a robust budget for the NSF. As a result, this is an 
important hearing, because it gives us an opportunity to talk 
about the critical role that NSF plays in the economic, 
scientific, and intellectual growth of the Nation.
    Science and technology is our future, make no mistake about 
it. When we talk about jobs, we will not be talking about the 
manufacturing of T-shirts and sneakers. We will be talking 
about the development of cutting-edge technologies that should 
speed the flow of information, which will improve the quality 
of crops and food to feed the world, and which will make the 
quality of life for people everywhere better.
    This vision of the world is what NSF is all about, the 
strategic Federal investment in scientific research, 
particularly the funding and support of NSF has directly led to 
innovative developments in scientific knowledge and 
dramatically increased the economic growth of this Nation. 
Unfortunately, while Federal support in life sciences continues 
to receive significant increases, the combined share of the 
funding for the physical sciences and engineering has not kept 
pace. I am alarmed by this disparity, because the decline in 
funding for physical sciences has put our Nation's capabilities 
for leading the world in scientific innovation at risk, and 
equally important, at risk of falling behind other advanced 
nations.
    Most experts believe that investment in the physical 
sciences and engineering not only benefits specific industries, 
but all major research areas. A scientist working on basic 
research in all disciplines makes new discoveries and better 
understands the world around us. Their research can cross 
disciplines and have decisive impacts on many scientific areas, 
including biomedical research.
    In the words of Harold Varmus, the former director of the 
National Institutes of Health, ``Scientists can wage an 
effective war on disease only if we harness the energies of 
many disciplines, not just biology and medicine.'' To put it 
plainly, supporting NSF supports NIH, and I believe that 
funding for NSF should keep pace with funding for NIH. But 
unfortunately, this is not happening.
    Senator Mikulski and I have led an effort in Congress to 
double NSF's budget. We were pleased with the PCAST, when it 
recommended to the President, ``Beginning with the FY04 budget 
and carrying through the next four fiscal years, funding for 
physical sciences and engineering across all relevant agencies 
be adjusted upward to bring them collectively to parity with 
the life sciences''. I am sorry that the memo did not get to 
OMB.
    I was very disappointed that the budget request only 
provided NSF with $5.75 billion for 2005, an increase of only 
$167 million, or 3 percent over the 2004 level. I am not great 
at math, but I believe about a 14.7 percent increase is what is 
needed to get you to doubling of the budget in 5 years. This is 
even less of an increase as proposed in last year's budget.
    OMB's budget request for NSF is especially disappointing, 
given the scientific, economic, and educational importance of 
its programs. However, with major funding shortfalls throughout 
the VA-HUD accounts, it is going to be a major and perhaps 
impossible challenge to find any additional funds for NSF for 
2005.
    I remain committed to NSF, but this year's budget is the 
most difficult we have seen in years. I want to work with the 
administration, but we need to find ways to increase the NSF 
budget as we move forward, if not this year, at least next 
year. Maybe, Dr. Marburger, you can hand-carry the PCAST 
recommendation to OMB.
    It is a tight budget year. Tough choices will have to be 
made. I acknowledge Dr. Bement's testimony, stating that in a 
year of tight budgets, it was necessary to set priorities and 
make informed, but tough choices. I could not agree more with 
that statement. But looking at the priorities made in the NSF's 
budget, I must disagree with the choices made even within the 
budget.
    The most troubling choices in the budget request are cuts 
to programs that support smaller or under-represented research 
institutions. OMB proposes only $84 million for EPSCoR, a 
program cut by 11 percent from the 2004 level. It is key to the 
continued growth of science research in underserved States. 
Minority programs at NSF are another example. The Lewis-Stokes 
Alliance for Minority Participation is flat-funded, and the 
HBCU Undergraduate's Program, historically black colleges and 
universities, is cut by $4 million, or 16 percent.
    Further, the administration cuts $4 million from the CREST 
program, supporting centers for research at minority 
institutions. These cuts are unacceptable. Our lack of new 
scientists and engineers is becoming a national crisis, and we 
are not attracting young students, especially minorities, into 
these disciplines. In the past, we relied on foreign students 
to stay in the United States and fill the gap created by 
retiring engineers and scientists. This is no longer the case. 
We need to grow new engineers and scientists, and these 
minority NSF programs represent a tremendous opportunity to 
develop these new engineers and scientists.
    Informal Science education takes a cut in this budget 
request of $12 million, or 20 percent. Very troubling. The 
program has been highly successful. And the programs receiving 
funding have received national recognition, including an Emmy, 
for their efforts to reach the public and engage them in 
science. I have seen firsthand the value of informal science 
education at the St. Louis Science Center, where children of 
all ages are able to receive hands-on experience in scientific 
activities.
    The cut to the Tech Talent or ``STEP'' program, also 
disappoints me. At a time where the number of U.S. 
undergraduates in engineering and math is declining, a 40 
percent reduction in this program is puzzling.
    I also have a strong interest in nanotechnology. The fiscal 
year 2005 request provides an increase of $52 million over the 
2004 level. There is a tremendous amount of excitement about 
nanotechnology, because of its far-reaching benefits, from 
computers, to manufacturing processes, to agriculture, to 
medicine. As NSF is the lead agency in Federal nanotechnology 
research, I am encouraged to see the request reflect the 
importance of this emerging research field.
    Despite the promises of nanotechnology, there is a growing 
``public anxiety and nascent opposition'' to nanotechnology, 
according to a recent Washington Post report. I agree with the 
view that nanotechnology is the foundation for the next 
industrial revolution. I am troubled with the Post's view that, 
``[i]f nano supporters play their cards wrong by belittling 
public fears, the industry could find itself mired in a costly 
public relations debacle, even worse than the one that turned 
genetically engineered crops into Frankenfood''.
    I think it is critical that the Federal Government and the 
research community act together in educating the public about 
science. We cannot afford public fears to go unaddressed. This 
pseudoscience, this hysteria fawned by groups with their own 
agendas, is unacceptable.
    As everybody knows, I am a big supporter of plant 
biotechnology, because it is generating exciting possibilities 
for improving human health and nutrition. Impressive research 
is being done with plant genomics, which can eventually be a 
very powerful tool for addressing hunger in many developing 
countries, such as those in Africa and Southeast Asia.
    The 2005 budget request provides $89 million for the NSF 
plant genome program. This keeps the funding level with the 
amount appropriated in fiscal year 2004. I am pleased that at 
least one of my priorities is not cut. Nevertheless, the level 
of funding is not enough to meet the goals of the National 
Science and Technology Council's report, which recommends the 
Federal Government invest $1.3 billion over the next 5 years on 
plant genome research.
    In addition to my concerns about funding, I have a couple 
of policy and programmatic areas of concern. I am interested in 
the National Science Board's operations, now that the Board has 
had a year to operate with its own budget to meet its statutory 
responsibilities. With its own budget and authority to hire its 
own staff, I want to know how the Board is making its statutory 
responsibility to provide the Congress and President with 
independent science policy advice and oversight.

                           PREPARED STATEMENT

    Lastly, there are some points about the National Academy of 
Sciences' report on large facility projects. The Foundation's 
process for prioritizing its large facility projects has been a 
concern to me. As a matter of fact, I have wondered whether 
there is a process. At my request, along with Senator Mikulski 
and the chair and ranking member of the Senate authorizing 
committee, we asked the NAS to set forth criteria to rank and 
prioritize large research facilities supported by NSF. The 
Academy presented their recommendations to the NSF last month. 
I support the recommendations and expect NSF to implement them 
as soon as possible and to present the Committee with a revised 
MREFC request based on these criteria. NSF must have a 
priority-setting process that is credible, fair, rational, and 
transparent. Until we get that, it is going to be difficult for 
me to support any new MREFC proposals.
    I look forward to hearing the testimony of all the 
witnesses today, and I thank you for giving me the time to 
express some of my views and concerns.
    [The statement follows:]

           Prepared Statement of Senator Christopher S. Bond

    The subcommittee will come to order. This morning, the VA-HUD and 
Independent Agencies Subcommittee will conduct its budget hearing on 
the fiscal year 2005 budgets for the National Science Foundation, the 
National Science Board, and the Office of Science and Technology 
Policy. I welcome back Dr. John Marburger from OSTP, and Dr. Warren 
Washington from the National Science Board to our subcommittee. I also 
want to welcome Dr. Arden Bement, the acting director of NSF to today's 
hearing. I know that you have recently come into this temporary 
position, and I am interested in hearing your first impressions about 
the Foundation. I am especially interested in understanding how you are 
handling your responsibilities as both acting director of NSF and as 
director of NIST.
    As many of you know, I have been and will continue to be a strong 
supporter of NSF and a robust budget for NSF. As a result, this is a 
very important hearing because it gives me the opportunity to talk 
about the critical role NSF plays in the economic, scientific and 
intellectual growth of this Nation. Science and technology is the 
future. When we talk about jobs, we will not be talking about the 
manufacturing of t-shirts and sneakers; we will be talking about the 
development of cutting edge technologies that will speed the flow of 
information, which will improve the quality of crops and food to feed 
the world, and which will make the quality of life for people 
everywhere better. This vision of the world is what NSF is all about. 
The strategic Federal investment in scientific research, and 
particularly the funding support at NSF, has directly led to innovative 
developments in scientific knowledge and dramatically increased the 
economic growth of this Nation.
    Unfortunately, while Federal support in life sciences continues to 
receive significant increases, the combined share of the funding for 
the physical sciences and engineering has not kept pace. I am alarmed 
by this disparity because the decline in funding for the physical 
sciences has put our Nation's capabilities for leading the world in 
scientific innovation at risk and, equally important, at risk of 
falling behind other industrial nations. Most experts believe that 
investment in the physical sciences and engineering not only benefits 
specific industries, but all major research areas. As scientists 
working on basic research in all disciplines make new discoveries and 
better understand the world around us, their research can cross 
disciplines and have decisive impacts on many scientific areas, 
including biomedical research. In the words of Dr. Harold Varmus, the 
former Director of the National Institutes of Health, ``scientists can 
wage an effective war on disease only if we . . . harness the energies 
of many disciplines, not just biology and medicine.'' To put it 
plainly, supporting NSF supports NIH. And I believe that funding for 
NSF needs to begin to keep pace with the funding for NIH. 
Unfortunately, this is not happening.
    My good friend and colleague Senator Mikulski and I have led an 
effort in Congress to double NSF's budget. We were pleased when PCAST 
recommended to the President, ``beginning with the fiscal year 2004 
budget and carrying through the next four fiscal years, funding for 
physical sciences and engineering across all relevant agencies be 
adjusted upward to bring them collectively to parity with the life 
sciences.''
    With this in mind, I was disappointed that the budget request only 
provided NSF with $5.75 billion for fiscal year 2005--an increase of 
only $167 million or 3 percent increase over the fiscal year 2004 
enacted level. This proposed increase is even less than the increase 
proposed in last year's budget request.
    OMB's budget request for NSF is disappointing given the scientific, 
economic, and educational importance of its programs. However, with 
major funding shortfalls throughout the VA-HUD account, it is going to 
be a major and perhaps an impossible challenge to find additional funds 
for NSF for fiscal year 2005. I am committed to NSF, but this year's 
budget is the most difficult I have seen in years. I want to work with 
the Administration, but we need to find ways to increase NSF's budget 
as we move forward, if not this year, next year.
    This is a very tight budget year and tough choices will have to be 
made. I acknowledge Dr. Bement's testimony where you state, ``in a year 
of very tight budgets, it was necessary to set priorities and make 
informed, but tough choices.'' I could not agree with that statement 
any more. However, looking at the priorities made in NSF's budget, I 
strongly disagree with some of the choices.
    The most troubling choices in the budget request are the cuts to 
programs that support smaller or underrepresented research 
institutions. For example, the Administration proposes only $84 million 
for the EPSCoR program--a cut by 11 percent from the fiscal year 2004 
level of $95 million. This program is key to the continued growth of 
science research in underserved States.
    Minority programs at NSF are another example. The Louis Stokes 
Alliances for Minority Participation program is flat funded in the 
request, and the HBCU Undergraduates Program is cut by $4 million, or 
16 percent. Further, the Administration cuts $4 million from the 
``CREST'' program that supports centers for research at minority 
institutions. These cuts are unacceptable to me. Our lack of new 
scientists and engineers is becoming a national crisis, and we are not 
attracting young students, especially minorities, into these 
disciplines. In the past, we relied on foreign students to stay in the 
United States and fill the gap created by retiring engineers and 
scientists. This is no longer the case. We need to grow new engineers 
and scientists and these minority NSF programs represent a tremendous 
opportunity to develop these new engineers and scientists.
    Informal Science education receives a cut of $12 million, or 20 
percent. Again, very troubling. This program has been highly successful 
and the programs receiving funding have received national recognition, 
including an Emmy, for their efforts to reach the public and engage 
them in science. I have seen first hand the value of Informal Science 
Education funding at the St. Louis Science Center where children of all 
ages are able to receive hands-on experience in scientific activities.
    The cut to the tech talent or ``STEP'' program also disappoints me. 
At a time where the number of U.S. undergraduates in engineering and 
mathematics is declining, a 40 percent reduction in this program is 
puzzling.
    I also have a strong interest in nanotechnology. The fiscal year 
2005 request provides an increase of $52 million over the fiscal year 
2004 level for this important program. There is a tremendous amount of 
excitement about nanotechnology because of its far-reaching benefits 
from computers to manufacturing processes to agriculture to medicine. 
As NSF is the lead agency in the Federal nanotechnology research 
effort, I am encouraged to see the request reflect the importance of 
this emerging research field.
    Despite the promises of nanotechnology, there is growing ``public 
anxiety and nascent opposition'' to nanotechnology, according to a 
recent Washington Post article. I agree with the view that nano is the 
foundation for the next industrial revolution. However, I am troubled 
with the Post's view that ``if nano's supporters play their cards wrong 
. . . by belittling public fears . . . the industry could find itself 
mired in a costly public relations debacle even worse than the one that 
turned genetically engineered crops into Frankenfood.'' It is critical 
that the Federal Government and the research community act together in 
educating the public about the science. We cannot afford public fears 
to go unaddressed.
    As everyone knows, I am a big supporter of plant biotechnology 
because it has generated exciting possibilities for improving human 
health and nutrition. The impressive research being done with plant 
genomics can eventually be a very powerful tool of addressing hunger in 
many developing countries such as those in Africa and Southeast Asia. 
The fiscal year 2005 budget request provides $89 million for the NSF 
plant genome program. This keeps the funding level with the amount 
appropriated in fiscal year 2004. I am pleased that at least on of my 
priorities is not cut. Nevertheless, level funding is not enough to 
meet the funding goals of the National Science and Technology Council's 
report, which recommends the Federal Government to invest $1.3 billion 
over the next 5 years on plant genome research.
    In addition to my concerns about funding, I have a couple of policy 
and programmatic areas of concern. First, I am interested in the 
National Science Board's operations now that the Board has had a year 
to operate with its own budget to meet its statutory responsibilities. 
With its own budget and authority to hire its own staff, I would like 
to know how the Board is meeting its statutory responsibility to 
provide the Congress and the President with independent science policy 
advice and oversight.
    Lastly, I would like to raise a few points about the recent 
National Academy of Sciences report on Large Facility Projects. The 
Foundation's process for prioritizing its large facility projects has 
been a concern to me. At my request, along with Senator Mikulski and 
the Chairs and Ranking Members of the Senate authorizing committees, we 
asked the National Academy of Sciences to develop a set of criteria to 
rank and prioritize large research facilities supported by NSF. The 
Academy presented their recommendations to the NSF last month. I 
support the Academy's recommendations and expect NSF to implement them 
as soon as possible and to present the Committee with a revised MREFC 
request based on the Academy's criteria. NSF must have a priority-
setting process that is credible, fair, rational, and transparent. 
Until then, it will be difficult for me to support any new MREFC 
proposals.
    I look forward to hearing the testimony of all the witnesses today 
and I will now turn to my colleague and ranking member, Senator 
Mikulski, for her statement.

    Senator Bond. We will start first with Dr. Marburger. 
Welcome, Doctor.

                  STATEMENT OF JOHN H. MARBURGER, III

    Dr. Marburger. Thank you very much, Chairman Bond. It is a 
pleasure to be here. Ranking Member Mikulski. I welcome the 
opportunity to present important highlights from the 
President's fiscal year 2005 Federal research and development 
budget, including the request for NSF, which we are all looking 
forward to hearing more detail about from its new acting 
director, Dr. Bement.
    I very much appreciate the productive relationship with 
this committee and look forward to its continuation. Your 
continued support of the Nation's research enterprise is 
critical to maintaining U.S. leadership in science and 
technology, and I certainly agree with the very positive 
comments about the importance of science and technology to our 
Nation's economic well-being and competitiveness.
    This budget, the President's budget, focuses on winning the 
war on terrorism, securing our homeland, and sustaining the 
economic recovery now under way. But it also focuses, as you 
have noted, Mr. Chairman, on controlling and reducing the 
deficit, while implementing pro-growth policies.
    When national and homeland security needs are excluded from 
this budget, all other discretionary spending growth amounts to 
less than a one-half percent increase. This necessarily 
restricts funding available to R&D programs. The overall 
picture for fiscal year 2004 R&D investment, however, is 
positive, in my opinion, and reflects the administration's 
conviction that science and technology is basic to our three 
primary goals.
    With this budget, total R&D investment during this 
administration's first term will be increased 44 percent, to a 
record $132 billion in 2005. The non-security portion of R&D 
growth from fiscal 2004, from last year to this year, is 2.5 
percent. The non-defense R&D share of total discretionary 
outlays is 5.7 percent, which is the third highest level in 25 
years.
    This budget reflects input from numerous expert sources, 
including the President's Council of Advisors on Science and 
Technology, which you mentioned, and from the science agencies, 
through an extensive interagency process, with which this 
committee is fully familiar.
    In my oral testimony, I am simply going to touch on 
highlights. There is more detail in my written testimony, and 
I, of course, will be prepared to answer questions about any 
aspect of it. But let me draw attention to some priorities that 
cut across all agencies, particularly education and workforce 
development, not confined solely to the National Science 
Foundation. A cluster of programs fostering innovation has 
received priority, including manufacturing R&D, networking, and 
information technology, and, of course, the National 
Nanotechnology Initiative.
    Physical sciences and engineering enhancement, which you 
mentioned in your opening remarks, Mr. Chairman, which includes 
many programs at the National Science Foundation and NASA, does 
receive some priority emphasis in this budget, and finally, a 
better understanding of the global environment and climate 
change. These are all designated as priorities in a memorandum 
from the Office of Management and Budget and my office, earlier 
in 2004, and I believe those priorities are reflected in this 
admittedly difficult budget year.
    This committee also appropriates the budget for OSTP, my 
office.
    Senator Bond. That is why you are here.
    Dr. Marburger. I am grateful for that. It is a very 
important reason. There are bigger fish. The National Science 
Foundation obviously plays a very important role, and the other 
agencies for which you appropriate, but I am pleased to have 
the responsibility in the White House for prioritizing and 
recommending Federal R&D programs, and for coordinating 
interagency research initiatives.
    The 2005 request for OSTP is $7.081 million, which is a 1.4 
percent increase from the previous year's, or current year's, 
enacted level. We have modest increases for the usual things--
personnel, rental payments to GSA, and our supplies, materials, 
and equipment needs. The request also contains a decrease of 
$48,000 in communications due to a realignment of 
telecommunications infrastructure costs to the Office of 
Administration.
    We do operate as efficiently as we can. We also are 
participating in the President's management agenda, and we are 
confident that we can fulfill our obligations to Congress and 
the administration to provide high-quality science advice and 
coordination within this requested budget.
    So let me hit some agency highlights. I will be brief about 
the National Science Foundation budget, because you will hear 
more about it from other panelists. This budget does provide 
$5.75 billion for NSF, which is a 3 percent increase over the 
2004 enacted level, considerably more, I might add, than the 
less one-half percent increase for the entire non-security 
discretionary budget. Since 2001, with the assistance of this 
committee, which we gratefully acknowledge, the National 
Science Foundation budget has increased by 30 percent during 
this administration.
    The budget provides over a billion dollars for NSF awards 
that emphasize the mathematical and physical sciences. These 
programs have increased 31 percent in this administration.
    NSF participates strongly in the administration's cross-
agency priority programs that I mentioned earlier in info, 
nano, and biotechnology, climate science, and education. The 
budget provides $761 million for NSF's role in the National 
Information Technology R&D Initiative, and $210 million for 
climate change science, $305 million for NSF's lead role in the 
National Nanotechnology Initiative, which is a 20 percent 
increase in that initiative from this current year level.
    Science and math education is strongly supported in this 
budget, with funds for 5,500 graduate research fellowships and 
traineeships, an increase of 1,800 in this administration. 
Annual stipends in these programs have increased to a projected 
$30,000, compared with $18,000 in the 2001 budget. We are quite 
grateful for your support and leadership in these issues.
    Science infrastructure funding, which is an investment in 
the future, is provided to initiate construction in several 
important projects within the major research equipment area.
    Let me just say a few words about other important agencies. 
The National Aeronautics and Space Administration. I recently 
testified before the House Science Committee on the President's 
vision for a sustainable, affordable program of human and 
robotic exploration of the solar system, and will be glad to 
answer further questions about it here, if you have them.
    The budget requests $16 billion for NASA, $16.2 billion in 
2005, and $87 billion over 5 years, going forward, which is an 
increase of a billion over the fiscal year 2004 5-year plan for 
NASA. NASA will reallocate $11 billion within this 5-year 
amount toward new exploration activity.
    The budget does also include continued growth in space 
science, which is a very important mission for NASA, with a 
request for $4.1 billion in fiscal year 2005, an increase of 
$1.5 billion over the 4 years of this administration, a 50 
percent increase in space science.
    This budget supports the next generation of space 
observatories that will be used to better understand the 
origin, structure, and evolution of the universe. I might add 
that the National Science Foundation contributes significantly 
to that mission as well, and I am pleased with the cooperation 
between NSF and NASA, particularly on planning for deep space 
observations.
    Within the Environmental Protection Agency, this budget 
provides nearly three-quarters of a billion dollars for EPA 
science and technology. We believe EPA is enhancing its overall 
scientific program to ensure that its efforts to safeguard 
human health and the environment are based on the best 
scientific and technical information.
    In my written testimony, I described an important 
memorandum of understanding that was recently executed between 
EPA and the Department of Energy, which sets a very positive 
pattern of interagency cooperation for the future. It is a move 
that I am very pleased to see.
    Within the Department of Veterans Affairs, the fiscal year 
2005 budget provides approximately three-quarters of a billion 
dollars, $770 million, for science and technology at the VA. 
After taking into consideration the significant funding the 
Department receives from other government agencies and private 
entities to support VA-conducted research, the total VA R&D 
program resources are at $1.7 billion. It is a significant 
amount of research for that agency.
    The VA will soon begin to use increased funding from 
private companies for the indirect administration costs of 
conducting research in VA facilities. The 2005 budget also 
reflects a restructuring of total resources in the research 
business line, as first shown in the current year budget.

                           PREPARED STATEMENT

    I mentioned earlier a set of cross-agency priorities that 
are described in detail in my written testimony. I will not 
mention them further here. I would be very glad to answer 
questions about them, but I do want to end by saying that this 
administration is taking pains to ensure that funds 
appropriated for science are wisely expended. There is a 
description of the President's management agenda, as applied to 
science, in my written testimony.
    I will be glad to answer questions about it. Thank you, Mr. 
Chairman.
    Senator Bond. Thank you very much, Dr. Marburger.
    [The statement follows:]

              Prepared Statement of John H. Marburger, III

    Mr. Chairman and members of the Subcommittee, I welcome the 
opportunity to present important highlights of the President's fiscal 
year 2005 Federal research and development budget, including the 
request for the Office of Science and Technology Policy (OSTP).
    I have appreciated my close and productive relationship with this 
Subcommittee and look forward to working with you again this year as 
you make important choices to optimize the Federal R&D investment. Your 
continued support of our country's research enterprise is yet another 
reason why the U.S. Government leads the world in science, engineering, 
technology, and productivity.
    No Federal budget is ever ``business as usual''--the stakes are 
simply too high. Yet, as we look together at the fiscal year 2005 
budget, we should pause to consider the truly unique global forces 
shaping today's budgetary priorities. In his State of the Union 
address, the President reminded us that ``our greatest responsibility 
is the active defense of the American people.'' This includes winning 
the war on terrorism, and securing our homeland. The President's budget 
focuses on these important goals and reinforces another critical 
priority, the economic recovery now underway. The Administration is 
also determined, without compromising the above priorities, to control 
and reduce the deficit, as we continue to implement pro-growth 
policies. The President has proposed a fiscally responsible budget that 
meets the Nation's expanding national and homeland security needs while 
limiting all other discretionary spending growth to less than 0.5 
percent. This necessarily leads to smaller increases, and even 
decreases, for some categories, including some R&D programs. 
Nevertheless, the overall picture for fiscal year 2005 R&D investment 
is quite positive, reflecting the Administration's strong support for 
science and technology.
    With the President's fiscal year 2005 budget, total R&D investment 
during this Administration's first term will be increased 44 percent, 
to a record $132 billion in 2005 as compared to $91 billion in fiscal 
year 2001. That equates to increases of nearly 10 percent each year. 
Significantly outpacing the fiscal year 2005 overall ``non-security'' 
discretionary spending growth of 0.5 percent, the non-security R&D 
growth rate is 2.5 percent. Science and technology drive economic 
growth. They help improve our health care, enhance our quality of life, 
and play an important role in securing the homeland and winning the war 
on terrorism. These increases reflect the Administration's appreciation 
of the importance of a strong national R&D enterprise for our current 
and future prosperity. The President's budget, as in years past, also 
continues to emphasize improved management and performance, to maintain 
excellence and sustain our national leadership in science and 
technology.
    In my prepared statement I will review the broad goals of the 
President's budget, provide detail on OSTP's budget, and give an 
overview of the request for Federal research priorities that cut across 
multiple agencies and research disciplines.

              THE PRESIDENT'S FISCAL YEAR 2005 R&D BUDGET

    The President's fiscal year 2005 budget request commits 13.5 
percent of total discretionary outlays to R&D, the highest level in 37 
years. Not since 1968, during the Apollo program, have we seen an 
investment in research and development of this magnitude. Of this 
amount, the budget commits 5.7 percent of total discretionary outlays 
to non-defense R&D, the third highest level in 25 years.
    Clearly demonstrating the President's commitment to priority 
investments for the future, Federal R&D spending in the fiscal year 
2005 Budget is the greatest share of GDP in over 10 years. In fact, the 
last time Federal R&D has been over 1 percent of GDP was in 1993. And 
even more noteworthy, fiscal year 2005 non-defense R&D is the highest 
percentage of GDP since 1982.
    Not all programs can or should receive equal priority, and this 
budget reflects choices consistent with recommendations from numerous 
expert sources. The priority programs in the Federal R&D budget build 
upon exciting areas of scientific discovery from hydrogen energy and 
nanotechnology to the basic processes of living organisms, the 
fundamental properties of matter, and a new vision of sustained space 
exploration. In particular, this budget responds to recommendations by 
the President's Council of Advisors on Science and Technology (PCAST) 
and others about needs in physical science and engineering.
    The budget also reflects an extensive process of consultation among 
the Federal agencies, OMB, and OSTP, to thoroughly evaluate the agency 
programs and priorities, interagency collaborations, and directions for 
the future. The National Science and Technology Council (NSTC) 
continues to provide a valuable mechanism to facilitate this 
interagency coordination. This process of collaborative review resulted 
in guidance to agencies issued by OSTP and OMB last June, concerning 
their program planning, evaluation, and budget preparation, and 
culminating in the budget you see before you today.
    An important component of this budget is an increase in funding for 
education and workforce development, which are essential components of 
all Federal R&D activities and continue to be high priorities for the 
Administration. As President Bush has stated, ``America's growing 
economy is also a changing economy. As technology transforms the way 
almost every job is done, America becomes more productive, and workers 
need new skills.''
    As in previous years, this R&D budget highlights the importance of 
collaborations among multiple Federal agencies working together on 
broad themes. I will describe three high-priority R&D initiatives for 
fiscal year 2005: (1) a cluster of programs fostering innovation, which 
includes manufacturing R&D, networking and information technology, and 
the National Nanotechnology Initiative; (2) physical sciences and 
engineering enhancement, which includes many programs at the National 
Science Foundation and NASA; and (3) a better understanding of the 
global environment and climate change.

Office of Science and Technology Policy (OSTP)
    The Office of Science and Technology Policy, which I lead, has 
primary responsibility in the White House for prioritizing and 
recommending Federal R&D, as well as for coordinating interagency 
research initiatives. The fiscal year 2005 request for OSTP is 
$7,081,000, which is a 1.4 percent increase from the fiscal year 2004 
enacted level. Some of the changes for this fiscal year include 
increases for personnel, rental payments to GSA, and supplies, 
materials, and equipment. The budget request also contains a decrease 
of $48,000 in communications due to a realignment in telecommunications 
infrastructure costs to the Office of Administration.
    The estimate for fiscal year 2005 reflects OSTP's commitment to 
operate more efficiently and cost-effectively without compromising the 
essential element of a top-caliber science and technology agency--high 
quality personnel. OSTP continues to freeze or reduce funding in many 
object classes, such as travel and printing, to meet operating 
priorities. OSTP will continue to provide high quality support to the 
President and information to Congress, as well as to fulfill 
significant national and homeland security and emergency preparedness 
responsibilities.

                        AGENCY BUDGET HIGHLIGHTS

National Science Foundation (NSF)
    The 2005 Budget provides $5.75 billion for NSF, a 3 percent 
increase over the 2004 enacted level. Since 2001, the NSF budget has 
increased by 30 percent.
    The budget provides over $1 billion for NSF awards that emphasize 
the mathematical and physical sciences, including mathematics, physics, 
chemistry, and astronomy. These programs have increased by 31 percent 
since 2001.
    NSF participates strongly in this Administration's cross agency 
priority programs in information- and nano-technology, climate science, 
and education. This budget provides $761 million for NSF's role in the 
National Information Technology R&D initiative, focusing on long-term 
computer science research and applications; $210 million for climate 
change science; and $305 million for NSF's lead role in the National 
Nanotechnology Initiative, a 20 percent increase from the 2004 level.
    Science and math education is strongly supported in this budget, 
with funds for 5,500 graduate research fellowships and traineeships, an 
increase of 1,800 since 2001. Annual stipends in these programs have 
increased to a projected $30,000, compared with $18,000 in 2001.
    The redirection of the Math and Science Partnerships (MSP) in the 
Department of Education reflects a desire to focus the program on 
integrating research-proven practices into classroom settings. The 
Budget requests $349 million total for the joint MSP program in 2005, a 
$61 million increase over the 2004 level. This increase in the MSP 
program is a key component of the President's Jobs for the 21st Century 
Initiative. This initiative will better prepare high school students to 
enter higher education or the workforce since 80 percent of the 
fastest-growing jobs in the United States require higher education and 
many require math and science skills. Eighty million dollars of the 
overall program remains in NSF to continue ongoing commitments.
    Science infrastructure funding, an investment in the future, is 
provided to initiate construction for the National Ecological 
Observation Network (NEON), the Scientific Ocean Drilling Vessel, and a 
set of experiments in fundamental physics called ``Rare Symmetry 
Violating Processes'' (RSVP).

National Aeronautics and Space Administration (NASA)
    The President has committed the United States to a sustainable, 
affordable program of human and robotic exploration of the solar 
system. This vision supports advanced technology development with 
multiple uses that will accelerate advances in robotics, autonomous and 
fault tolerant systems, human-machine interface, materials, life 
support systems, and spur novel applications of nanotechnology and 
micro-devices. All of these advances, while pushing the frontiers of 
space, are likely to spur new industries and applications that will 
improve life on Earth.
    To support this and other NASA missions, the Budget requests $16.2 
billion in fiscal year 2005 and $87 billion over 5 years, an increase 
of $1 billion over the fiscal year 2004 5-year plan. NASA will 
reallocate $11 billion within this 5-year amount toward new exploration 
activities. Robotic trailblazers to the Moon will begin in 2008, 
followed by a human return to the Moon no later than 2020. The pace of 
exploration will be driven by available resources, technology 
readiness, and our ongoing experience.
    The 2005 Budget supports a variety of key research and technology 
initiatives to enable the space exploration vision. These initiatives 
include refocusing U.S. research on the International Space Station to 
emphasize understanding and countering the impact of long-duration 
space flight on human physiology. In addition, the agency will pursue 
optical communications for increased data rates throughout the solar 
system, space nuclear power to enable high-power science instruments, 
advanced in-space propulsion technologies, and systems that enable 
robots and humans to work together in space.
    The Budget continues the growth in space science with a request for 
$4.1 billion in fiscal year 2005, an increase of $1.5 billion, or over 
50 percent, since 2001. This budget supports the next generation of 
space observatories that will be used to better understand the origin, 
structure, and evolution of the universe.
    Although exploration will become NASA's primary focus, the agency 
will not forsake its important work in improving the Nation's aviation 
system, in education, in earth science, and in fundamental physical 
science.

Environmental Protection Agency (EPA)
    The fiscal year 2005 budget provides nearly three-quarters of a 
billion dollars for EPA science and technology. The EPA is enhancing 
its overall scientific program to ensure that its efforts to safeguard 
human health and the environment are based on the best scientific and 
technical information.
    One example of this enhancement was announced February 18 by 
Administrator Leavitt when he signed a Memorandum of Understanding with 
Energy Secretary Abraham. The purpose of the MOU is to expand the 
research collaboration of both agencies in the conduct of basic and 
applied research related to: (1) environmental protection, environment 
and energy technology, sustainable energy use, ecological monitoring, 
material flows, and environmental and facilities clean-up; (2) high-
performance computing and modeling; and (3) emerging scientific 
opportunities in genomics, nanotechnology, remote sensing, 
bioinformatics, land restoration, material sciences, molecular 
profiling, and information technology, as well as other areas providing 
promising opportunities for future joint efforts by EPA's and DOE's 
research communities.
    Two particular areas of note in the EPA request are homeland 
security research and water quality monitoring. EPA's homeland security 
research program will result in more efficient and effective threat 
detection and response for water systems. Additionally, EPA will 
develop practices and procedures that provide elected officials, 
decision makers, the public, and first responders with rapid risk 
assessment protocols for chemical and biological threats. On water 
quality, EPA will address the integration of different scales and types 
of monitoring to target effective water quality management actions and 
document effectiveness of water quality management programs.

Department of Veterans Affairs (VA)
    The Fiscal Year 2005 Budget provides approximately three-quarters 
of a billion dollars ($770 million) for science and technology at the 
VA, a 9 percent increase since fiscal year 2001. After taking into 
consideration the significant funding the Department receives from 
other government agencies and private entities to support VA-conducted 
research. Total VA R&D program resources are $1.7 billion.
    The proposed budget provides for clinical, epidemiological, and 
behavioral studies across a broad spectrum of medical research 
disciplines. Some of the Department's top research priorities include 
improving the translation of research results into patient care, 
special populations (those afflicted with spinal cord injury, visual 
and hearing impairments, and serious mental illness), geriatrics, 
diseases of the brain (e.g. Alzheimer's and Parkinson's), treatment of 
chronic progressive multiple sclerosis, and chronic disease management.
    VA will soon begin to use increased funding from private companies 
for the indirect administration costs of conducting research in VA 
facilities. The 2005 Budget also reflects a restructuring of total 
resources in the Research Business Line as first shown in the 2004 
Budget.

                          PRIORITY INITIATIVES

    The 2005 budget highlights high-priority interagency initiatives 
described briefly below. These initiatives are coordinated through the 
National Science and Technology Council (NSTC) for which my office has 
responsibility for day-to-day operations. The Council prepares research 
and development strategies that cross agency boundaries to form a 
consolidated and coordinated investment package.
    Innovation.--The Fiscal Year 2005 Budget calls for research and 
development investments to promote technological innovation in high-
priority areas including manufacturing technology; information 
technology, and nanotechnology; the creation of incentives for 
increased private sector R&D funding; and stronger intellectual 
property protections. These investments will stimulate innovation and 
enhance U.S. competitiveness.
  --Manufacturing Technology.--The President's Budget requests 
        increased funding for a number of programs that strengthen 
        manufacturing innovation, including those within the National 
        Science Foundation's Design, Manufacture and Industrial 
        Innovation Division--up 27 percent since 2001 to $66 million--
        and the Manufacturing Engineering Laboratory at the National 
        Institute of Standards and Technology (NIST)--up 50 percent 
        since 2001 to $30 million. The Fiscal Year 2005 Budget sustains 
        funding for the Manufacturing Extension Partnership at the 
        Department of Commerce at the 2004 level and proposes to 
        implement reforms to improve the efficiency and effectiveness 
        of the program.
  --Networking and Information Technology.--Since 2001, funding for 
        Networking and Information Technology R&D (NITRD) has increased 
        by 14 percent to over $2 billion, and the R&D funded by this 
        effort has laid the foundation for many of the technological 
        innovations that have driven the computer sector forward. The 
        President's Fiscal Year 2005 Budget sustains this significant 
        investment. One half of the NITRD budget is controlled by this 
        Subcommittee and you have increased the funding of that part of 
        the program by 26 percent since fiscal year 2001.
  --Nanotechnology.--The President's Budget includes $1 billion in 
        funding to increase understanding, and develop applications 
        based upon, the unique properties of matter at the nanoscale--
        that is, at the level of clusters of atoms and molecules. 
        Funding for nanotechnology R&D has more than doubled since 
        2001. Nearly 35 percent of the President's request for funding 
        of the National Nanotechnology Initiative is within this 
        Subcommittee's purview. I want to thank this Subcommittee for 
        its recognition of the importance of the nanotechnology R&D 
        under your jurisdiction, which has increased by 67 percent 
        since fiscal year 2001.
    Physical Sciences and Engineering.--Research in the physical 
sciences and engineering is an essential component of space 
exploration, nanotechnology, networking and information technologies, 
biomedical applications, and defense technologies. Physical science 
research leads to a better understanding of nature and, indeed, our 
universe. Research in this area also complements a number of critical 
investments in other areas such as those being made in the life 
sciences. The 2005 Budget strengthens our Nation's commitment to the 
physical sciences and engineering, devoting significant resources to 
this priority area. The policy priority regarding the physical sciences 
responds to input and recommendations from PCAST.
    Key activities in the physical sciences may be seen in selected 
programs in NSF, NASA's Space Science Enterprise, DOE's Office of 
Science, and the National Institute of Standards and Technology and 
National Oceanic and Atmospheric Administration in the Department of 
Commerce. Using these activities as a barometer of the health of 
physical science funding, the 2005 Budget requests $11.4 billion, $2.6 
billion more than the fiscal year 2001 funding level. That's a 29 
percent increase under this Administration. Within this total, Space 
Science grows 56 percent, from $2.6 billion to $4.1 billion over the 
last 4 years. And within NSF, the Mathematical and Physical Sciences, 
Geosciences, Computer and Information Science and Engineering, and 
Engineering Directorates rise 31 percent, from $2.3 billion to over $3 
billion.
    Climate Change and Global Observations.--For fiscal year 2005, the 
Administration is proposing to maintain funding at approximately $2 
billion for the Climate Change Science Program to increase our 
understanding of the causes, effects, and relative impacts of climate 
change phenomena. Nearly three-quarters of this climate change research 
money is allocated to NASA, NSF, and EPA, which are all agencies within 
this Subcommittee's jurisdiction. The Administration considers the 
development of an integrated, comprehensive, coordinated, and sustained 
global Earth observation system to be of high importance for numerous 
activities such as improved weather forecasts, improved land and 
ecosystem management, and improved forecasts of natural disasters such 
as landslides, floods, and drought; which all have high impact on 
national economic security and public health. Accurate and sustained 
global observations are critical for understanding our climate and how 
climate changes on various time scales. Environmental observations are 
also a critical component in an effective national response strategy 
for natural and terrorist incident management.
    The Administration's 2005 Budget has accelerated by $56.5 million 
the research on aerosols, oceans, and carbon cycle to contribute to 
filling knowledge gaps identified in the U.S. Climate Change Science 
Program Strategic Plan, which last week received high marks after a 6-
month review from an independent committee convened by the National 
Research Council. Global observations of vertical distributions of 
size, composition, physical and optical properties of aerosols will 
help determine whether and by how much the overall effect of aerosols 
enhances heating or cooling of the atmosphere. With new observations 
from satellite, ships and land stations, the uncertainty about the role 
of aerosols in climate science is expected to be halved in 10 years.
    Knowledge of regional sources and sinks of the global carbon cycle, 
essential for long term predictions of climate, require innovative new 
observations. Measurements of vertical profile of carbon dioxide in 
North America will be enhanced from land-based towers and aircraft. 
Additionally, the vast expanse of the world ocean is highly under 
sampled. The Administration will accelerate deployment of moored and 
free-drifting buoys to measure ocean temperature, salinity and other 
variables to observe the unsteady characteristics of ocean circulation. 
These measurements and the Administration's other observational assets 
contribute to the global Earth observation system.

                  MANAGING THE FEDERAL RESEARCH BUDGET

    Research and development are critically important for keeping our 
Nation economically competitive, and will help solve the challenges we 
face in health, defense, energy, and the environment. Recognizing this, 
the Administration is investing in R&D at a rate of growth 
significantly greater than most other domestic discretionary spending. 
We all share the responsibility for ensuring the American people that 
these funds are invested wisely. Therefore, consistent with the 
Government Performance and Results Act, every Federal R&D dollar must 
be evaluated according to the appropriate investment criteria.
    As directed by the President's Management Agenda, the R&D 
Investment Criteria were first applied in 2001 to selected R&D programs 
at DOE. Through the lessons learned from that DOE pilot program, the 
criteria were subsequently broadened in scope to cover other types of 
R&D programs at DOE and other agencies. To accommodate the wide range 
of R&D activities, a new framework was developed for the criteria to 
address three fundamental aspects of R&D:
  --Relevance.--Programs must be able to articulate why they are 
        important, relevant, and appropriate for Federal investment;
  --Quality.--Programs must justify how funds will be allocated to 
        ensure quality; and
  --Performance.--Programs must be able to monitor and document how 
        well the investments are performing.
    In addition, R&D projects and programs relevant to industry are 
expected to meet criteria to determine the appropriateness of the 
public investment, enable comparisons of proposed and demonstrated 
benefits, and provide meaningful decision points for completing or 
transitioning the activity to the private sector.
    OSTP and OMB are continuing to assess the strengths and weaknesses 
of R&D programs across the Federal Government in order to identify and 
apply good R&D management practices throughout the government.

                               CONCLUSION

    Mr. Chairman and members of the Subcommittee, I believe this is a 
good budget for science and technology. It is based on well-defined, 
well-planned, collaboratively-selected priorities. In a difficult 
budget year, this Administration remains committed to strong, sound 
research and development as the foundation for national security and 
economic growth and jobs. I would be pleased to respond to questions.

    Senator Bond. I hope that next year if you are working on a 
budget that you can take your opening statement to OMB. You are 
preaching to a choir up here. We need to have some funds.
    Dr. Bement.

                   STATEMENT OF ARDEN L. BEMENT, JR.

    Dr. Bement. Thank you, Chairman Bond, Senator Mikulski, 
members of the Committee. I am pleased to appear before you 
today, my fourth working day since becoming Acting Director of 
NSF. I want to provide for you a quick overview of the NSF 
budget request for fiscal year 2005 and then find out what 
issues are of great concern to the Committee, which you have 
already provided.
    As you undoubtedly know, NSF works hard to open new 
frontiers in research and education. And we have our eye on the 
biggest prize, namely, economic and social prosperity, and very 
importantly, security benefitting all citizens.
    The most powerful mechanism for keeping our Nation 
prosperous and secure is keeping it at the forefront of 
learning and discovery. That is NSF's business, to advance 
fundamental research in science and engineering, to educate and 
train scientists and engineers, and to provide the tools to 
accomplish both of these.
    First, the big picture. This year, NSF is requesting $5.745 
billion. That is an increase of $167 million, or 3 percent more 
than last year. In spite of the significant challenges facing 
our Nation in security, defense, and the economy, NSF is, 
relatively speaking, doing well. An increase of 3 percent is a 
wise investment that will keep us on the right path. NSF is 
grateful for the leadership and the vision of this committee in 
that effort.
    Having said that, in a year of very tight budgets, it was 
necessary to set the priorities and make informed, but tough, 
choices; never an easy job, and particularly difficult when 
opportunities to make productive investments are as plentiful 
as they are today in research and education.
    The largest dollar increase is in the Research and Related 
Activities account, $201 million, or 5 percent above the fiscal 
year 2004 level. The largest decrease in the budget will be in 
the Education and Human Resources Directorate, with the major 
share of the decrease due to the consolidation of the Math and 
Science Partnership at the Department of Education.
    Nevertheless, NSF is increasing its investments in people, 
science and engineering students and researchers, as well as 
public understanding and diversity participation in science and 
engineering throughout all the directorates.
    I will begin with the investment of Organizational 
Excellence. This investment will streamline and update NSF 
operations and management by allowing us to address mounting 
proposal pressure, add new skills to the workforce, and improve 
the quality and responsiveness for our customers. In fiscal 
year 2005, an increased investment of $76 million in this area 
will ensure continued productive investments and continually 
improved performance in the future.
    Today's science and engineering challenges are also more 
complex. Increasingly, they involve multi-investigative 
research, as well as strong emphasis on interdisciplinary 
research. Increasing award size and duration across-the-board 
therefore remains one of NSF's top long-term priorities. NSF 
will make additional progress in fiscal year 2005 with an 
increase in the average annual award. That brings the total 
increase from $90,000 to $142,000 since 1998, an increase of 58 
percent.
    Attracting the Nation's best talent into science and 
engineering fields will be facilitated by increasing the level 
of graduate stipends from a base of $15,000 in 1999, to $30,000 
today. In fiscal year 2005, the number of fellows will increase 
from 5,000 to 5,500 for NSF's flagship graduate education 
programs.
    NSF's five focused priority areas are slated to receive 
more than $537 million in 2005. As the lead agency in the 
administration's national nanotechnology initiative, support 
for Nanoscale Science and Engineering will increase by 20 
percent, to $305 million. Support for Biocomplexity in the 
Environment and the Mathematical Sciences will continue at 2004 
levels.
    The Human and Social Dynamics priority area will receive 
$23 million to investigate the impacts of change on our lives 
and the stability of our institutions, with special emphasis on 
the way people make decisions and take risks. The budget 
includes $20 million to start NSF's Workforce for the Twenty-
First Century priority area, critical, because it focuses on 
U.S. citizens and broadening participation.
    Researchers need access to cutting-edge tools to tackle 
today's complex and radically different research. The fiscal 
year 2005 investment in tools is $1.5 billion, an increase of 
$104 million. It continues an accelerated program to revitalize 
and upgrade the Nation's aging research infrastructure through 
investments in cutting-edge tools of every kind. Nearly $400 
million of the fiscal year 2005 investment in tools supports 
the expansion of state-of-the-art cyber infrastructure.

                           PREPARED STATEMENT

    Mr. Chairman, although I have been at NSF only a matter of 
days, as a former member of the National Science Board, I am 
very familiar with the agency, its history, and its goals. I 
recognize the need to identify clear priorities in a time of 
tight budgets, and, therefore, to make tough choices. NSF's 
fiscal year 2005 investments will have long-term benefits for 
the entire science and engineering community, and contribute to 
security and prosperity for our Nation.
    Mr. Chairman, I would be happy to respond to any questions.
    [The statement follows:]

               Prepared Statement of Arden L. Bement, Jr.

    Chairman Bond, Senator Mikulski, and Members of the Committee, I am 
pleased to appear before you today. For more than 50 years, the 
National Science Foundation (NSF) has been a strong steward of 
America's science and engineering enterprise. Although NSF represents 
roughly 3 percent of the total Federal budget for research and 
development, it accounts for one-fifth of all Federal support for basic 
academic research and 40 percent of support for basic research at 
academic institutions, outside of the life sciences. Despite its small 
size, NSF has an extraordinary impact on scientific and engineering 
knowledge and capacity.
    During NSF's five decades of leadership, groundbreaking advances in 
knowledge have helped reshape society and enabled the United States to 
become the most productive Nation in history. The returns on NSF's 
strategic investments in science, engineering, and mathematics research 
and education have been enormous. Much of the sustained economic 
prosperity America has enjoyed over the past decade is the result of 
technological innovation--innovation made possible, in large part, by 
NSF support for fundamental research and education.
    In our 21st century world, knowledge is the currency of everyday 
life, and the National Science Foundation is in the knowledge business. 
NSF's investments are aimed at the frontiers of science and 
engineering, where advances in fundamental knowledge drive innovation, 
progress, and productivity.
    The surest way to keep our Nation prosperous and secure is to keep 
it at the forefront of learning and discovery. That is NSF's business--
to educate and train scientists and engineers, advance fundamental 
research and engineering, and provide the tools to accomplish both. The 
NSF fiscal year 2005 budget request aims to do that, and I am pleased 
to present it to you today.
    Let me begin with the big picture. This year the National Science 
Foundation is requesting $5.745 billion. That's an increase of $167 
million, or 3 percent more than in the fiscal year 2004 enacted level.
    In light of the significant challenges that face the Nation--in 
security, defense, and the economy--NSF has, relatively speaking, fared 
well. An increase of 3 percent, at a time when many agencies are 
looking at budget cuts, is certainly a vote of confidence in the 
National Science Foundation's stewardship of these very important 
components of the Nation's goals.
    Nonetheless, in a year of very tight budgets, NSF has had to set 
priorities and make informed choices in a sea of opportunity and 
constraint. That is never an easy job, but it is particularly difficult 
when opportunities to make productive investments are as plentiful as 
they are today in research and education.
    The NSF Fiscal Year 2005 Budget Request addresses these 
opportunities and challenges through an integrated portfolio of 
investments in People, Ideas, Tools, and Organizational Excellence. The 
NSF budget identifies what we see as NSF's most pressing needs during 
the coming year:
  --Strengthen NSF management to maximize effectiveness and 
        performance.--The Fiscal Year 2005 Request assigns highest 
        priority to strengthening management of the investment process 
        and operations. The budget request includes an increase of over 
        $20 million to strengthen the NSF workforce and additional 
        investments of over $50 million to enhance information 
        technology infrastructure, promote leading-edge approaches to 
        eGovernment, and ensure adequate safety and security for all of 
        NSF's information technology and physical resources. It's a 
        sizable increase, especially in a constrained environment, but 
        it's really the minimum needed to keep pace with a growing 
        workload and expanding responsibilities.
  --Improve the productivity of researchers and expand opportunities 
        for students.--Boosting the overall productivity of the 
        Nation's science and engineering enterprise requires increasing 
        average award size and duration. The recent survey of NSF-
        funded principal investigators provides convincing evidence 
        that an increase in award size will allow researchers to draw 
        more students into the research process, and increasing award 
        duration will foster a more stable and productive environment 
        for learning and discovery. The level proposed for fiscal year 
        2005 represents a 58 percent increase over the past 7 years in 
        average annual award size.
  --Strengthen the Nation's performance with world-class instruments 
        and facilities.--In an era of fast-paced discovery and 
        technological change, researchers need access to cutting-edge 
        tools to pursue increasingly complex avenues of research. NSF 
        investments not only provide these tools, but also develop and 
        creatively design the tools critical to 21st Century research 
        and education. Consistent with the recent recommendations of 
        the National Science Board, investment in infrastructure of all 
        types (Tools) rises to $1.47 billion, representing 26 percent 
        of the Fiscal Year 2005 Budget Request.
    Targeted investments under each of NSF's four strategic goals will 
promote these objectives and advance the progress of science and 
engineering.
nsf strategic goals: people, ideas, tools and organizational excellence
    The National Science Foundation supports discovery, learning and 
innovation at the frontiers of science and engineering, where risks and 
rewards are high, and where benefits to society are most promising. NSF 
encourages increased and effective collaboration across disciplines and 
promotes partnerships among academe, industry and government to ensure 
that new knowledge moves rapidly and smoothly throughout the public and 
private sectors.
    NSF's investment strategy establishes a clear path of progress for 
achieving four complementary strategic goals: People, Ideas, Tools and 
Organizational Excellence. ``People, Ideas and Tools'' is simple 
shorthand for a sophisticated system that integrates education, 
research, and cutting-edge infrastructure to create world-class 
discovery, learning and innovation in science and engineering. 
Organizational Excellence (OE)--a new NSF strategic goal on a par with 
the other three--integrates what NSF accomplishes through People, Ideas 
and Tools with business practices that ensure efficient operations, 
productive investments and real returns to the American people.
    People.--The rapid transformations that new knowledge and 
technology continuously trigger in our contemporary world make 
investments in people and learning a continuing focus for NSF. In our 
knowledge-based economy and society, we need not only scientists and 
engineers, but also a national workforce with strong skills in science, 
engineering and mathematics. Yet many of today's students leave 
secondary school without these skills. Fewer young Americans choose to 
pursue careers in science and engineering at the university level. Of 
those that do, fewer than half graduate with science or engineering 
degrees. The Fiscal Year 2005 Request provides $1.065 billion for 
programs that will address these challenges.
    To capture the young talent so vital for the next generation of 
discovery, we will increase the number of fellowships from 5,000 to 
5,500 for NSF's flagship graduate education programs: the Integrative 
Graduate Education and Research Traineeships (IGERT), Graduate Research 
Fellowships (GRF), and Graduate Teaching Fellows in K-12 Education (GK-
12).
    Ideas.--New knowledge is the lifeblood of the science and 
engineering enterprise. Investments in Ideas are aimed at the frontiers 
of science and engineering. They build the intellectual capital and 
fundamental knowledge that drive technological innovation, spur 
economic growth and increase national security. They also seek answers 
to the most fundamental questions about the origin and nature of the 
universe, the planet and humankind. Investments totaling $2.85 billion 
in fiscal year 2005 will support the best new ideas generated by the 
science and engineering community.
    Increasing grant size and duration is a fundamental, long-term 
investment priority for NSF. Larger research grants of longer duration 
will boost the overall productivity of researchers by freeing them to 
take more risks and focus on more complex research goals with longer 
time horizons. More flexible timetables will also provide researchers 
with opportunities to provide expanded education and research 
experiences to students. Investments in fiscal year 2005 bring NSF 
average annual research grant award size to approximately $142,000, an 
increase of $3,000 over fiscal year 2004--a 58 percent increase since 
1998. Average annual award duration will continue at approximately 3.0 
years.
    Tools.--The fiscal year 2005 request for Tools totals $1.47 
billion, an increase of $104 million over the Fiscal Year 2004 
Estimate. The increase continues an accelerated program to revitalize 
and upgrade the Nation's aging infrastructure through broadly 
distributed investments in instruments and tools. Progress in research 
and education frequently depends upon the development and use of tools 
that expand experimental and observational limits. Researchers need 
access to cutting-edge tools to tackle today's complex and radically 
different avenues of research, and students who are not trained in 
their use are at a disadvantage in today's technology-intensive 
workplace.
    Organizational Excellence (OE).--With activities that involve over 
200,000 scientists, engineers, educators and students and with over 
40,000 proposals to process each year, NSF relies on efficient 
operations and state-of-the-art business practices to provide quality 
services and responsible monitoring and stewardship of the agency's 
investments. NSF's Request includes $363.05 million to support 
Organizational Excellence (OE). This represents an increase in the 
share of the total NSF budget for OE from 5 percent in fiscal year 2004 
to 6 percent in fiscal year 2005.
    A number of considerations have elevated the Organizational 
Excellence portfolio in NSF's Fiscal Year 2005 Request. For 20 years 
NSF staffing has remained level as the total budget and workload 
increased significantly, and the work has become more complex. 
Proposals increasingly involve large, multidisciplinary and 
interdisciplinary projects and require sophisticated monitoring and 
evaluation. NSF is also committed to maintaining its traditional high 
standards for stewardship, innovation and customer service. Key 
priorities for fiscal year 2005 include award monitoring and oversight, 
human capital management and IT system improvements necessary for 
leadership in eGovernment, security upgrades and world-class customer 
service.
    It is central to NSF's mission to provide effective stewardship of 
public funds, to realize maximum benefits at minimum cost and to ensure 
public trust in the quality of the process. The fiscal year 2005 
investment in Organizational Excellence will streamline and update NSF 
operations and management by enhancing cutting edge business processes 
and tools. It will also fund the addition of 25 new permanent employees 
to address mounting workplace pressure, add new skills to the workforce 
and improve the quality and responsiveness of customer service.

                             PRIORITY AREAS

    Before providing a few highlights of the budget, it should be noted 
that the priority-setting process at NSF results from continual 
consultation with the research community. New programs are added or 
enhanced only after seeking the combined expertise and experience of 
the science and engineering community, NSF management and staff, and 
the National Science Board.
    Programs are initiated or enlarged based on considerations of their 
intellectual merit, broader impacts of the research, the importance to 
science and engineering, balance across fields and disciplines, and 
synergy with research in other agencies and nations. NSF coordinates 
its research with our sister research agencies both informally--by 
program officers being actively informed of other agencies' programs--
and formally, through interagency agreements that spell out the various 
agency roles in research activities. Moreover, through the Committee of 
Visitors process there is continuous evaluation and feedback of 
information about how NSF programs are performing.
    Producing the finest scientists and engineers in the world and 
encouraging new ideas to strengthen U.S. leadership across the 
frontiers of discovery are NSF's principal goals. NSF puts its money 
where it counts--94 percent of the budget goes directly to the research 
and education that keep our knowledge base strong, our economy humming 
and the benefits to society flowing.
    America's science and engineering workforce is the most productive 
in the world. To keep it that way, we have to attract more of the most 
promising students to graduate-level studies in science and 
engineering.
    Since its founding in 1950, NSF has supported 39,000 fellows. Next 
year NSF will increase Fellowships from 5,000 to 5,500 for NSF's 
prestigious graduate education programs: the Integrative Graduate 
Education and Research Traineeships (IGERT), Graduate Research 
Fellowships (GRF), and Graduate Teaching Fellows in K-12 Education (GK-
12).
    Attracting the Nation's best talent has been facilitated by 
increasing the level of graduate stipends from a base of $15,000 in 
1999 to $30,000 in fiscal year 2004. Stipend levels will remain at the 
$30,000 level in fiscal year 2005.
    Today's science and engineering challenges are more complex. 
Increasingly, they involve multi-investigator research, as well as a 
strong emphasis on interdisciplinary research. So, increasing award 
size and duration--across the board--remains one of NSF's top long-term 
priorities. In fiscal year 2005 the average annual award will increase 
by $3,000. That brings the total increase to 58 percent since 1998.
    Opportunities to advance knowledge have never been greater than 
they are today. NSF invests in emerging areas of research that hold 
exceptional potential to strengthen U.S. world leadership in areas of 
global economic and social importance. This year, NSF is requesting 
funding for five priority areas with very promising research horizons: 
biocomplexity, nanoscale science and engineering, mathematical 
sciences, human and social dynamics, and the 21st century workforce.
    Biocomplexity in the Environment explores the complex interactions 
among organisms and their environments at all scales, and through space 
and time. This fundamental research on the links between ecology, 
diversity, the evolution of biological systems, and many other factors 
will help us better understand and, in time, predict environmental 
change. In fiscal year 2005, Biocomplexity in the Environment will 
emphasize research on aquatic systems.
    The Human and Social Dynamics priority area will explore a wide 
range of topics. These include individual decision-making and risk, the 
dynamics of human behavior, and global agents of change--from 
democratization, to globalization, to war. Support will also be 
provided for methodological capabilities in spatial social science and 
for instrumentation and data resources infrastructure.
    Mathematics is the language of science, and is a powerful tool of 
discovery. The Mathematical Sciences priority areas will focus on 
fundamental research in the mathematical and statistical sciences, 
interdisciplinary research connecting math with other fields of science 
and engineering, and targeted investments in training.
    NSF's investment in Nanoscale Science and Engineering targets the 
fundamental research that underlies nanotechnology--which very likely 
will be the next ``transformational'' technology.
    Investments in this priority area will emphasize research on 
nanoscale structures and phenomena, and quantum control. NSF is the 
lead agency for the government-wide National Nanotechnology Initiative 
(NNI). NSF is requesting $305 million, an increase of nearly $52 
million or 20 percent. This is by far NSF's largest priority area 
investment.
    To operate in an increasingly complex world, we have to produce a 
general workforce that is scientifically and technologically capable, 
and a science and engineering workforce that is world class by any 
measure.
    The fiscal year 2005 request provides $20 million to initiate the 
Workforce for the 21st Century priority area. This investment will 
support innovations to integrate NSF's investments in education at all 
levels, from K-12 through postdoctoral, as well as attract more U.S. 
students to science and engineering fields and broaden participation.

                           BUDGET HIGHLIGHTS

    In fiscal year 2005, NSF will make significant investments in NSF's 
diverse Centers Programs. Centers bring people, ideas, and tools 
together on scales that are large enough to have a significant impact 
on important science and engineering challenges. They provide 
opportunities to integrate research and education, and to pursue 
innovative and risky research. An important goal beyond research 
results is developing leadership in the vision, strategy, and 
management of the research and education enterprise. The total 
investment for NSF's Centers Programs is $457 million, an increase of 
$44 million in fiscal year 2005. Here are some highlights of the 
Centers.
  --Thirty million dollars will initiate a new cohort of six Science 
        and Technology Centers. A key feature of these centers is the 
        development of partnerships linking industry, government, and 
        the educational community to improve the transfer of research 
        results, and provide students a full set of boundary-crossing 
        opportunities.
  --Twenty million dollars will continue support for multidisciplinary, 
        multi-institutional Science of Learning Centers. These centers 
        are intended to advance understanding of learning through 
        research on the learning process, the context of learning, and 
        learning technologies. The Centers will strengthen the 
        connections between science of learning research and 
        educational and workforce development.
  --The budget request provides for two new nanotechnology centers; two 
        or three centers that advance fundamental knowledge about 
        Environmental Social and Behavioral Science; three Information 
        Technology Centers, and additional funding for the NSF Long 
        Term Ecological Research network. An additional $6 million will 
        fund a number of mathematical and physical science centers, 
        including: Chemistry Centers, Materials Centers, Mathematical 
        Sciences Research Institutes, and Physics Frontiers Centers.
    Today, discoveries emerge from around the world. It is essential 
that American scientists and engineers have opportunities to engage 
with the world's top researchers, to lead major international 
collaborations, and to have access to the best research facilities 
throughout the world and across all the frontiers of science and 
engineering. The fiscal year 2005 budget to carry out these activities 
through NSF's Office of International Science and Engineering is $34 
million, an increase of $6 million, or 21 percent over the fiscal year 
2004 estimate.
    Finally, NSF will initiate an Innovation Fund at $5 million. The 
Fund provides an opportunity for the Foundation to respond quickly to 
rapidly emerging activities at the frontiers of learning and discovery.

                      TOOLS--OPENING UP NEW VISTAS

    Researchers need access to cutting-edge tools to tackle today's 
complex and radically different research tasks. If students are not 
trained in their use, they will be at a disadvantage in today's 
technology-intensive workplace. The fiscal year 2005 investment in 
Tools totals $1\1/2\ billion, an increase of $104 million. This 
continues an accelerated program to revitalize and upgrade the Nation's 
aging research infrastructure through investments in cutting-edge tools 
of every kind.
    Nearly $400 million of the fiscal year 2005 investment supports the 
expansion of state-of-the-art cyberinfrastructure. New information and 
communication technologies have transformed the way we do science and 
engineering. Providing access to moderate-cost computation, storage, 
analysis, visualization and communication for every researcher will 
make that work more productive and broaden research perspectives 
throughout the science and engineering community.
    In fiscal year 2005, there are three continuing and three new 
projects funded by the proposed $213 million investment in Major 
Research Equipment and Facilities Construction.
    NEON, the National Ecological Observatory Network, is a continental 
scale research instrument with geographically distributed 
infrastructure, linked by state-of-the-art networking and 
communications technology. NEON will facilitate studies that can help 
us address major environmental challenges and improve our ability to 
predict environmental change. Funding for NEON planning activities is 
included in the fiscal year 2004 estimate.
    The Scientific Ocean Drilling Vessel is a state-of-the-art drill 
ship that will be used by the Integrated Ocean Drilling Program (IODP), 
an international collaboration. Cores of sediment and rock collected 
from the ocean floor will enhance studies of the geologic processes 
that modify our planet. Investigators will explore the history of those 
changes in oceans and climate, and the extent and depth of the planet's 
biosphere.
    The Rare Symmetry Violating Processes (RSVP) includes two highly 
sensitive experiments to study fundamental symmetries of nature. RSVP 
will search for the particles or processes that explain the 
predominance of matter that makes up the observable universe. It will 
focus on questions ranging from the origins of our physical world to 
the nature of dark matter.
    NSF plans to invest in major research equipment and facilities 
construction projects over the next several years. We expect to start 
funding for two additional projects; Ocean Observatories and an Alaska 
Regional Research Vessel in fiscal year 2006.
    In making these critical investments, NSF continues to put a very 
strong emphasis on effective and efficient management.

                               CONCLUSION

    Mr. Chairman, the budget highlights presented above only begin to 
touch on the variety and richness of the NSF portfolio. NSF supports 
research programs to enhance homeland security. This includes the 
Ecology of Infectious Diseases program, jointly funded with NIH, and 
the Microbial Genome Sequencing program, jointly funded with the 
Department of Agriculture. NSF participates on the National Interagency 
Genome Sequencing Coordinating Committee, where programs have attracted 
a great deal of interest from the intelligence community, and have been 
touted as the best. The Critical Infrastructure Protection program, and 
cybersecurity research and education round out important contributions 
to enhancing homeland security.
    Additionally, as part of the Administration's Climate Change 
Research Initiative, NSF supports research to reduce uncertainty 
related to climate variability and change, with the objective of 
facilitating decision making and informing the policy process.
    Mr. Chairman and Members of the Committee, I hope that this brief 
overview conveys to you the extent of NSF's commitment to advancing 
science and technology in the national interest. I am aware and 
appreciative of this subcommittee's long-standing bipartisan support 
for NSF. I would be happy to respond to any questions that you have.

    Senator Bond. Thank you very much, Dr. Bement.
    Dr. Washington, welcome. It is good to have you back.

                   STATEMENT OF WARREN M. WASHINGTON

    Dr. Washington. Chairman Bond, Senator Mikulski, and 
Senator Johnson, I appreciate the opportunity to testify before 
you today in my capacity as Chair of the National Science 
Board.
    On behalf of the Board, I thank the subcommittee for its 
long-term commitment to a broad investment in science, 
engineering, math, and technology research and education.
    As part of the National Science Board's responsibilities, 
in December, the Board prepared a report to Congress with 
recommendations for the allocation of the steady and 
substantial increase in NSF's budget that was authorized as 
part of the NSF Authorization Act of 2002. The recommendations 
of this report were provided at a very broad level and assumed 
the implementation of authorized increase to $9.8 billion in 
fiscal year 2007. This funding level will significantly 
increase NSF's ability to address many unmet needs identified 
by the Board.
    For example, we have over 1,000 excellent rated proposals 
that cannot be funded, which results in lost opportunities for 
discovery. While the Board is aware of the current funding 
realities, we feel strongly that the current positive momentum 
for significant annual increases to NSF's budget should be 
maintained. The National Science Board approved the fiscal 2005 
budget request that was submitted to OMB and generally supports 
the budget request before you today. It is a step in the right 
direction for addressing important national interests 
identified by Congress.
    The Board fully supports the Foundation's integrated 
portfolio of investments in People, Ideas, Tools, and 
Organizational Excellence. The strategy, the vision embodied in 
these four broad areas, provides an effective roadmap for 
guiding NSF's future. It blends support for the core 
discipline, with encouragement for interdisciplinary 
initiatives.
    The National Science Board has carefully examined and 
endorsed five priority areas identified in the fiscal year 2005 
request: Biocomplexity in the Environment, Human and Social 
Dynamics, Mathematical Sciences, Nanoscale Science and 
Engineering, and Workforce for the Twenty-First Century.
    The Board has assessed the current state of the U.S. S&E 
academic research infrastructure. Our findings and 
recommendations are published in the ``Science and Engineering 
Infrastructure for the Twenty-First Century: The Role of the 
National Science Foundation'' report. The Board has identified 
a pressing need to address mid-sized infrastructure projects.
    The Board's recent report entitled, ``The Science and 
Engineering Workforce: Realizing America's Potential,'' 
underscores that the United States is in a long-distance race 
to retain its essential global advantage in S&E human resources 
and sustain our world leadership in science and technology. A 
high-quality, diverse, and adequately sized workforce that 
draws on the talents of all of the U.S. demographic groups and 
on talented international students and professionals, is 
crucial for maintaining our leadership.
    I should point out that there was an article that came out 
yesterday in the science magazine ``Nature'', reaffirming our 
views on this.

                           PREPARED STATEMENT

    Education is a core mission of NSF. The NSF shares in the 
responsibility for promoting quality math and science education 
as intertwining objectives in all levels of education across 
the United States. NSF has the mandate, depth of experience, 
and well-established relationships to build the partnerships 
for excellence in education. The Board, therefore, strongly 
urges continued full funding of the math and science 
partnerships at NSF. Mr. Chairman, I would like to submit for 
the record a written statement from the National Science Board 
``In Support of the Math and Science Partnership Program at 
NSF''. So you have that in your file.
    Senator Bond. Thank you very much, Dr. Washington.
    [The statement follows:]

               Prepared Statement of Warren M. Washington

    Chairman Bond, Senator Mikulski, and Members of the Committee, I 
appreciate the opportunity to testify before you. I am Warren 
Washington, Senior Scientist and Section Head of the Climate Change 
Research Section at the National Center for Atmospheric Research. My 
testimony today is in my capacity as the Chair of the National Science 
Board.
    On behalf of the National Science Board and the widespread and 
diverse research and education communities that we all serve, I thank 
this Committee for its long-term commitment to a broad portfolio of 
investments in science, mathematics, engineering, and technology 
research and education.
    The Congress established the National Science Board (NSB) in 1950 
and gave it dual responsibilities:
  --Oversee the activities of, and establish the policies for, the 
        National Science Foundation (NSF); and
  --Serve as an independent national science policy body to render 
        advice to the President and the Congress on policy issues 
        related to science and engineering research and education.
    As part of this latter responsibility, and as directed by the 
Congress, the Board prepared ``A Report to Congress on the Budgetary 
and Programmatic Expansion of the National Science Foundation''. The 
report received formal Board approval on December 4, 2003, and has been 
delivered to the Congress, as well as to the White House Office of 
Science and Technology Policy and Office of Management and Budget. The 
purpose of this report was to provide the Congress with recommendations 
for the allocation of the steady and substantial increase in NSF's 
budget that was authorized as part of the NSF Act of 2002.
    It is important to note that the recommendations of this report 
were provided at a very broad level and assumed full implementation of 
the authorized increase in NSF's budget to $9.8 billion in fiscal year 
2007. This funding level will significantly enhance NSF's ability to 
address many unmet needs identified by the Board. However, the Board is 
also cognizant of the current realities of the demands on a finite 
Federal budget. The present Federal budget realities will require the 
NSF and the Board to adjust the planned budget and programmatic 
expansion to fit actual yearly increments. Nevertheless, the Board 
feels strongly that the current positive momentum for annual increases 
to the NSF budget should be maintained in order to enhance NSF's 
ability to address these unmet needs, and ensure continued U.S. 
leadership in the international science, engineering and technology 
enterprise.
    I would like to provide some general comments regarding the NSF 
fiscal year 2005 budget request, then update you on National Science 
Board activities over the last year and some of our priorities for the 
coming year.

                          2005 BUDGET REQUEST

    The National Science Board has reviewed and approved NSF's fiscal 
year 2005 budget request that was submitted to OMB, and generally 
supports the budget request before you today. It is a step in the right 
direction for addressing the important national interests identified by 
Congress.
    The Board fully supports the Foundation's integrated portfolio of 
investments in People, Ideas, Tools, and Organizational Excellence. The 
strategic vision embodied in these four broad categories provides an 
effective roadmap for guiding NSF's future. It thoughtfully blends 
support for the core disciplines with encouragement for 
interdisciplinary initiatives, brings together people from diverse and 
complementary backgrounds, provides necessary infrastructure for 
research and science education, and strengthens the Foundation's 
management of the enterprise.
    The National Science Board has carefully examined the five priority 
areas identified in NSF's fiscal year 2005 budget request: Bio-
complexity in the Environment, Human and Social Dynamics, Mathematical 
Sciences, Nano-scale Science and Engineering, and Workforce for the 
21st Century. We wholeheartedly agree that these areas represent the 
frontier of science and engineering, and hold exceptional promise for 
new discoveries, educational opportunities, and practical applications.
    The Board has assessed the current state of the U.S. S&E academic 
research infrastructure, examined its role in enabling S&E advances, 
and identified requirements for a future infrastructure capability. Our 
findings and recommendations are published in ``Science and Engineering 
Infrastructure for the 21st Century: The Role of the National Science 
Foundation''. A key recommendation is to increase the share of the NSF 
budget devoted to S&E infrastructure from 22 percent to more like 27 
percent in order to provide adequate small- and medium-scale 
infrastructure and needed investment in cyber-infrastructure. The Board 
identified a pressing need to address mid-sized infrastructure projects 
and to develop new funding mechanisms to support them. Funding could 
potentially be in a number of programs, so that NSF program officers 
can make decisions between the mid-level infrastructure and next 
individual or center research grant, based on broader research 
community input through the merit review process.
    The Board's recent report entitled ``The Science and Engineering 
Workforce--Realizing America's Potential'' underscores that the United 
States is in a long-distance race to retain its essential global 
advantage in S&E human resources and sustain our world leadership in 
science and technology. A high quality, diverse and adequately sized 
workforce that draws on the talents of all U.S. demographic groups and 
talented international students and professionals is crucial to our 
continued leadership and is a vital Federal responsibility. The Board 
has concluded that it is a National Imperative for the Federal 
Government to step forward to ensure the adequacy of the U.S. science 
and engineering workforce. But the Federal Government cannot act alone. 
All stakeholders must participate in initiating and mobilizing efforts 
that increase the number of U.S. citizens pursuing science and 
engineering studies and careers. At the same time, however, Federal 
science officials should ensure that international researchers and 
students continue to feel welcome in the United States and continue 
their partnerships in the U.S. science and technology enterprise.
    Education is a core mission of NSF. NSF not only promotes research, 
but also shares in the responsibility for promoting quality math and 
science education as intertwining objectives at all levels of education 
across the United States. NSF's highly competitive peer-review process 
is second to none for openly and objectively identifying, reviewing, 
selecting, funding and providing stewardship for the very best science, 
technology, engineering and mathematics (STEM) proposals and programs 
in research and education. NSF has the mandate, depth of experience, 
and well-established relationships to build the partnerships for 
excellence in STEM education. The Board, therefore, strongly urges that 
continued, full funding of the Mathematics and Science Partnerships 
Program at NSF be sustained over the long term as an essential 
component of a coordinated Federal effort to promote national 
excellence in science, mathematics and engineering.

            OVERVIEW OF NSB ACTIVITIES DURING THE LAST YEAR

    During the last year, the Board has accomplished a great deal in 
terms of our mission to provide oversight and policy direction to the 
Foundation. In terms of providing oversight for the Foundation, the 
Board has:
  --Reviewed and endorsed the Office of Inspector General Semi-annual 
        Reports to Congress, and approved NSF management responses,
  --Approved the NSF fiscal year 2005 budget request for transmittal to 
        OMB,
  --Approved the NSF Major Facilities Management and Oversight Guide,
  --Approved the Foundation's Merit Review Report, and
  --Provided review and decisions on 12 major awards or proposal 
        funding requests.
    In terms of providing policy direction to the Foundation, the Board 
has:
  --Issued an official statement on role of NSF in supporting S&E 
        infrastructure (NSB-03-23),
  --Reviewed and approved the NSF Strategic Plan 2003-2008 (August), 
        and
  --Developed a broad set of recommendations for allocation of 
        authorized increases in funding resources to the Foundation.
    In terms of advice to the President and the Congress, the Board 
has:
  --Published the Infrastructure Report (NSB-02-190),
  --Published the Workforce Report (NSB-03-69),
  --Reported on Delegation of Authority in accordance with Section 14 
        of the NSF Act of 2002.
  --Developed and delivered a budget expansion report in accordance 
        with Section 22 of the NSF Act of 2002,
  --Prepared and approved the 2004 S&E Indicators Report,
  --Provided testimony to Congressional Hearings,
  --Interacted with OSTP in meetings and forums on S&E issues, and
  --Responded to specific questions and inquiries from Senators and 
        Representatives.
    In 2003 the Board meetings and deliberations became much more open 
in accord with the Sunshine Act. In an effort to facilitate more 
openness, we:
  --Approved new guidelines for attendance at NSB meetings,
  --Provided public notice of all our meetings in press releases, the 
        Federal Register and on the NSB website,
  --Treated tele-conferences of committees as open meetings,
  --Provided much more information to the public in a more timely 
        manner regarding meeting discussions and decisions, and
  --Encouraged public comment during the development of Board 
        publications.
    I am pleased to report that this new openness has been embraced by 
Board Members and well received by the press and other members for 
public. The Office of Inspector General has also just completed their 
audit of the Board's compliance with the Sunshine Act, and found us 
fully compliant. We look forward to working with both the Inspector 
General and the General Counsel to further enhance our procedures and 
policies in this regard.
    During the last year, and especially since August 2003, the Board 
has made a major effort to increase and improve our outreach and 
communications with the Congress, other agencies, various interest 
groups and the outside S&E research and education community.
    During 2003 the Board initiated examination of issues related to:
  --The process by which Major Research Equipment and Facilities 
        proposals are developed, prioritized and funded,
  --NSF policies for Long-lived Data Collections, and
  --The identification, development and funding of innovative or high-
        risk research.

                      FISCAL YEAR 2005 NSB BUDGET

    The administration's Fiscal Year 2005 Budget Request of $3.95 
million for the NSB will be adequate to support Board operations and 
activities during fiscal year 2005. The request seeks resources to 
carry out the Board's statutory authority and to strengthen its 
oversight responsibilities for the Foundation. We expect that the 
Foundation will continue to provide accounting, logistical and other 
necessary resources in support of the NSB and its missions, including 
expert senior S&E staff serving as a cadre of executive secretaries to 
Board committees and task forces.
    At the urging of Congress, in fiscal year 2003 the Board began 
examining options for augmenting its professional staffing levels. At 
its May 2003 meeting, the Board decided to begin a process to assess 
the feasibility of recruiting for positions that would broaden its 
policy support, provide additional legal advice, and enhance the 
Board's capabilities in advanced information technology. As an initial 
step in this process, in August 2003 the Board appointed a new NSB 
Executive Officer who also serves as the NSB Office Director. At the 
direction of the Congress, the NSB Executive Officer now reports 
directly to the NSB Chair. The Board is very pleased with this 
arrangement.
    In October 2003, I notified you, Senator Bond, that I had charged 
the NSB Executive Officer with identifying options for broadening the 
NSB Office staff capabilities to better support the broad mission of 
the NSB. The NSB Office staff provides the independent resources and 
capabilities for coordinating and implementing S&E policy analyses and 
development and provides operational support that are essential for the 
Board to fulfill its mission. By statute, the Board is authorized five 
professional positions and other clerical staff as necessary. In 
consultation with the Congress, the Board has defined these 
professional positions as NSB senior science and engineering policy 
staff, and the clerical positions as NSB staff that support Board 
operations and related activities. The full impact of increasing the 
number of professional positions closer to the statutory level is 
expected to occur in fiscal year 2005, with increased attention to 
addressing new skill requirements.
    In addition to the NSB Office's essential and independent resources 
and capabilities, external advisory and assistance services are 
especially critical to support production of NSB reports, and 
supplement the NSB staff's general research and administration services 
to the Board. These external services provide the Board and its Office 
with the flexibility to respond independently, accurately and quickly 
to requests from Congress and the President, and to address issues 
raised by the Board itself.
    Enhanced Board responsibilities established in the NSF 
Authorization Act of 2002 and directed by Congressional Report language 
include: an expanding role in prioritizing and approving Major Research 
Equipment and Facilities Construction projects; new requirements for 
meetings open to the public; and responsibilities for reporting on the 
Foundation's budgetary and programmatic expansion, with specific focus 
on the projected impact on the science and technology workforce, 
research infrastructure, size and duration of grants, and 
underrepresented populations and regions. The National Academies, in 
response to a Congressional request, recently released a report of 
their study examining how NSF sets priorities among multiple competing 
proposals for construction and operation of large-scale research 
facility projects to support a diverse array of disciplines. 
Recommendations from this study are being considered with due diligence 
by the Board as they develop and implement options for meeting their 
enhanced responsibilities.
    The Board will continue to review and approve NSF's actions for 
creating major NSF programs and funding large projects. Special 
attention will be paid to budget growth impacts on the S&T workforce, 
expanded participation in higher education, national S&T 
infrastructure, and the size and duration of NSF grants.
    This year the Board will expand its ongoing examination of its role 
and responsibilities regarding the NSF's Major Research Equipment and 
Facilities Construction (MREFC) program. We will factor into this 
examination the recommendations of the National Academies report on the 
MREFC program, and develop a process for implementing appropriate 
modifications to the Board's involvement with the MREFC program. The 
Board has just received the National Academies report and will comment 
on it directly to Congress after we have given it careful 
consideration.
    Effective communications and interactions with our constituencies 
contribute to the Board's work of identifying priority science and 
technology policy issues, and developing policy advice and 
recommendation to the President and Congress. To this end, the Board 
will increase communication and outreach with the university, industry 
and the broader science and engineering research and education 
community, Congress, Federal science and technology agencies, and the 
public. These activities will support U.S. global leadership in 
discovery and innovation based on a continually expanding and evolving 
S&T enterprise in this country, and will insure a principal role for 
NSF programs in providing a critical foundation for science and 
engineering research and education.

                            CLOSING REMARKS

    The horizon of scientific discovery and engineering achievements 
stretch far and wide, but are clouded by uncertainty and risk. 
Experience has shown us that as we reach out to the endless frontier we 
have realized benefits beyond our dreams. Together, we have confidently 
faced the uncertainties, boldly accepted the risks, and learned from 
both our victories and setbacks. But the journey is not short or cheap. 
It requires careful planning, wise investments, and a long-term 
commitment.

                                 ______
                                 
 A Statement of the National Science Board: In Support of the Math and 
     Science Partnership Program at the National Science Foundation

    Education is a core mission of the National Science Foundation 
(NSF). NSF not only promotes research, but also shares in the 
responsibility for promoting quality math and science education as 
intertwining objectives at all levels of education across the United 
States. NSF's highly competitive peer-review process is second to none 
for openly and objectively identifying, reviewing, selecting, funding 
and providing stewardship for the very best science, technology, 
engineering and mathematics (STEM) proposals and programs in research 
and education.
    Science and mathematics competency is becoming ever more essential 
to individuals and nations in an increasingly global workforce and 
economy. STEM education is a special challenge for the highly mobile 
U.S. population, because it demands a sequential, cumulative 
acquisition of knowledge and skills. To raise U.S. student performance 
to a world-class level, all components of the U.S. education system 
must achieve a consensus on a common core of mathematics and science 
knowledge and skills. These core competencies must be embedded 
consistently in instructional materials and practices everywhere and at 
all levels, without precluding locally held prerogatives about the 
content of curricula.\1\
---------------------------------------------------------------------------
    \1\ NSB 98-154, NSB 99-31, http://www.nsf.gov/nsb/documents.
---------------------------------------------------------------------------
    The NSF's Math and Science Partnerships (MSPs) are important tools 
for addressing a critical--but currently very weak--link between pre-
college and higher education. This major new national initiative, 
outlined in NSF's 2002 Authorization Act, has received strong and broad 
support from Congress and was signed into law by President Bush. It 
provides for the collaboration between pre-college and college to 
promote excellence in teaching and learning; therefore facilitating the 
transitions for students from kindergarten through the baccalaureate in 
STEM disciplines. The added benefit for our Nation is those students 
who do not choose STEM careers become the informed scientifically 
literate voting citizens we need for the 21st Century.
    We do not have the luxury of time for further political debate on 
how to bring our Nation's education system up to a world-class level in 
science and mathematics--much less to achieve world leadership in these 
critical competencies.\2\ NSF has the mandate, depth of experience, and 
well-established relationships to build the partnerships for excellence 
in STEM education. The Board, therefore, strongly urges that continued, 
full funding of the MSP Program at NSF be sustained over the long term 
as an essential component of a coordinated Federal effort to promote 
national excellence in science, mathematics and engineering.
---------------------------------------------------------------------------
    \2\ NSB 03-69, http://www.nsf.gov/nsb/documents.

    Senator Bond. All of the written statements will be 
included in the record as full. We are faced with a projected 
vote at 11 o'clock. I will keep my first round of questions 
short, and ask for short answers. If we have a vote at 11 
o'clock, we will come back, and I want to have an opportunity 
for Senator Mikulski and Senator Johnson to ask questions.

                CHALLENGE OF SERVING IN DUAL CAPACITIES

    First, let me talk about the dual hat you are wearing, Dr. 
Bement, with the Director of NIST and Acting Director of NSF. I 
would like to know how you intend to balance the roles in each 
and what your plans are during your time as Acting Director at 
NSF.
    Dr. Bement. Thank you, Senator. The only way anyone could 
carry on such a prodigious challenge is to have two outstanding 
deputy directors. And I do have two outstanding deputy 
directors, Dr. Bordogna at the National Science Foundation, and 
Dr. Semerjian. Both people are highly talented, highly 
experienced, and I have known them and worked with them for 
some time.
    You mentioned 40 hours a week. Well, I work more than 40 
hours a week, but so does everyone at the National Science 
Foundation. In fact, our recent study indicates that a large 
fraction of them work 50 or 60 hours a week, and that is a 
concern, because----
    Senator Bond. We work more than that up here, but you are 
doing important work.
    Dr. Bement. The other thing I would say is that I am trying 
to limit my travel and stick to my knitting. So I will stay 
very focused.

                       GOALS AS NEW NSF DIRECTOR

    Senator Bond. Yes, but what do you want to do at NSF? I 
know the time and all that, but do you have any specific 
objective or objectives?
    Dr. Bement. Well, I could give you a fuller answer if I had 
2 or 3 more days, but----
    Senator Bond. All right. I understand you have----
    Dr. Bement [continuing]. With the 4 days that I have, I do 
feel that one of my major priorities is to deal with the staff 
issues, not only in bringing on highly talented assistant 
directors, whose positions are being vacated, but also to deal 
with the internal workload, and furthermore, to facilitate more 
E-systems within the Foundation.
    Senator Bond. I understand that you have only been on board 
4 days. Maybe after you have been there for a week or so and 
some of the discussions we have today, if you would submit----
    Dr. Bement. I would be glad to. I will have more discussion 
with you later on, but I am developing an agenda.
    Senator Bond. Send us a memo basically on what you think 
you can do.
    [The information follows:]

                Agenda and Goals of Arden L. Bement, Jr.

    Since my appointment is acting and expected to be of relatively 
short duration, my agenda is to focus on the sustainability of current 
NSF priorities, goals, and research areas as reflected in the fiscal 
year 2005 budget submission and to address emerging needs of the 
science, technology, engineering, and mathematics (STEM) communities 
served by the NSF.
    I will also dedicate myself to being a good steward for NSF by 
focusing on near-term issues and priorities. In particular, I will work 
closely with the NSB, the Appropriations Committees, and the 
administration to achieve the following:
  --Greater transparency in MREFC management and oversight to include 
        pre-construction planning and assessment, life-cycle budgeting, 
        and cost and management oversight;
  --Long-term human-resource planning to assure efficiency and 
        effectiveness of operations, and the further building of a 
        learning organization through training and competence building;
  --Sustainable NSF budget levels to pursue the objectives of the NSF 
        Authorization Act of 2002, administration priorities, and the 
        needs and opportunities identified by the STEM communities 
        served by the NSF;
  --Continuing close cooperation with the Department of Education to 
        assure that resources flow to math and science teachers under 
        the Math and Science Partnership Initiative to achieve improved 
        student performance in math and science education; and
  --Pursuing programs that will increase minority STEM faculty by means 
        of the ``Workforce for the 21st Century'' priority area and 
        supporting EHR programs. This has been identified by the NSB as 
        being paramount for increasing the numbers of STEM minority 
        students who attain a degree.

             SELECTION AND APPOINTMENT OF NEW NSF DIRECTOR

    Senator Bond. Dr. Marburger, do you know what the time is 
for announcing a new director, to allow Dr. Bement to go back 
to NIST? Do you have any idea on when that is going to work?
    Dr. Marburger. An aggressive search is underway. 
Outstanding candidates have been identified and approached. I 
am very optimistic that we are not talking about very long 
periods of time. I hesitate to give a deadline, but months 
would be an appropriate scale.

         BALANCE BETWEEN FUNDING FOR PHYSICAL AND LIFE SCIENCES

    Senator Bond. That is very good. Maybe, Dr. Marburger, you 
can tell me, in light of the PCAST report, recommending 
substantial increases, and as the co-chair of the PCAST, you 
approved the recommendation. Can you explain why the NSF budget 
request from OMB is again so inconsistent with the PCAST 
report? Is there anything you can do to reestablish or to bring 
some balance between the funding for the life sciences and the 
physical sciences?
    Dr. Marburger. Yes, sir. I believe that funding for 
physical sciences should be a priority, and I believe it is a 
priority. We are facing a difficult budget situation, and I 
believe that the 3 percent increase, as meager as it may seem 
to those used to hearing much larger numbers, is, nevertheless, 
a very significant signal in this difficult budget period, of 
the intention and priority that this administration places on 
this area. If we could find a way to get more in there, I think 
it would be very good, but I believe this budget does permit 
the United States to sustain its leadership in these vital 
areas.
    Senator Bond. Thank you, Dr. Marburger.
    Senator Mikulski.
    Senator Mikulski. Thank you very much, Mr. Chairman. I 
think one of the things Senator Bond and I are concerned about, 
Dr. Bement, is that you do have two jobs, and because the 
National Institutes of Standards, NIST, is in my State, we know 
the extraordinary work that goes on there.
    Senator Bond, you might be interested to know, they are 
doing research on why the World Trade Center collapsed, and not 
necessarily for forensic purposes, but what will we need to do 
as we build higher to make sure that buildings are safe, its 
occupants are safe, that the people who come to do rescue 
missions would be safe, et cetera. This is a big job. And then 
for you now to be doing double duty, it is like being in the 
Marines and the infantry at the same time. It is a little hard.
    Dr. Bement. Well, at least I have a common mission, in some 
respects.
    Senator Mikulski. Yes. Well, we recognize the stress on 
you. Know that this Senator is very deeply disturbed by the 
administration's proposed budget of NSF. We believe that it is 
underfunded. We believe that it resorts to gimmicks, like on 
the education front, and does not recognize the need in certain 
key areas. We know that you have been at NSF for 4 days. Know 
that as I go through this, these are not in any way meant to be 
prickly in terms of our relationship here.
    First of all, I believe that research is short-funded. A 3 
percent increase doesn't even meet locality pay standards. 
Three percent is simply not enough. We could go into that, but 
one of the areas that is of very keen interest to me, of 
course, is the field of nanotechnology. That, as we talked 
about you being the lead agency, the PCAST system, and all that 
goes on. When I talk about strategic research, again, I am not 
talking industrial policy, the Euro model, et cetera. But that 
is what I meant, the best thinking, and then also out in the 
academic world and even the involvement of the private sector.

               ENGAGE PUBLIC IN EMERGING RESEARCH FIELDS

    This is not a question. It is a very strong recommendation 
to the people at NSF. There are those who are raising flashing 
yellow lights about nanotechnology. I agree with Senator Bond, 
which is before we get gripped into public controversy, that I 
would really encourage those working at the coordinating 
council level, engage with the critics, and not in a dismissive 
way. I am not saying that you are in any way like that, Doctor, 
but unless we understand the validity of their concerns, meet 
them head on, we get into the genome controversies. We do not 
want to go there with nanotech. I see it as a cornucopia for 
our country.
    I have lost my steel mills. Will one day we have nano mills 
making metals that are so strong and light for our automobiles, 
where we are building automobiles in our country, for whatever 
our military needs might be, for the trip that we will be 
taking into space? So let's deal with the critics head on.

                      MATH AND SCIENCE PARTNERSHIP

    We could go over the research money, but also what I am 
very troubled about is in the area of education. This is where 
I believe that the administration is really shortchanging us, 
and also resulting in the gimmicks. I was deeply disturbed 
about the fact that the administration proposes that this 
initiative, the Math and Science Partnership initiative, be 
transferred to the Department of Education.
    This was a $200 million initiative on our part, and the 
current proposal was to have $80 million in funds stay at NSF, 
but to go into research. I know you have been there for 4 days. 
What this committee would like to know is, and I do not know if 
you can answer it, but what was the thinking behind it? Was 
this a budget issue rather than an education issue, because it 
would be my intent for this year to keep this at NSF while we 
evaluate what the best way is to stimulate math and science. Do 
you have any comments on that?
    Dr. Bement. Senator, I have looked into this matter and I 
have tried to understand the rationale, but in 4 days, I have 
not really fully comprehended all the nuances behind the 
argument. I think the rationale was to take a more integrated 
approach to have the school districts integrate the types of 
activities carried under the Math and Science Partnership, and 
integrate it with some of the block grant support they get from 
the Department of Education, and for the Department of 
Education to carry this out on a competitive basis. That is 
about as far as my understanding goes at the present time.
    Senator Mikulski. Well, just know that I am very troubled 
by this, and the fact that the $80 million they leave behind 
does not stay in education. It goes into research accounts. 
That is not to acknowledge the need for the research account. 
That is my whole point, that the $80 million that stays behind 
ought to at least be used in education money, if it goes. I do 
not want it to go. No Child Left Behind is having a very 
troubled history now, as it is implemented.

 SCIENCE, TECHNOLOGY, ENGINEERING, MATHEMATICS TALENT EXPANSION (TECH 
                            TALENT) PROGRAM

    Let me go then to the issue of the undergraduate tech 
talent. This was a program created on a bipartisan basis with 
Senators Bond, Lieberman, Domenici, Dr. Frist, and myself. We 
understand that this program has been cut by $10 million. What 
would be the consequences to undergraduates with that cut?
    Dr. Bement. Senator, there were some painful cuts in 
several educational programs, but I have talked with presidents 
of degree-granting, Ph.D.-granting HBCU's. I have also had a 
long-time relationship with the Science and Engineering 
Alliance. And the understanding I have from them is that they 
want to build capacity and sustainability in their ability to 
not only build on the current Ph.D. programs and attract more 
students from undergraduate ranks into the graduate ranks, but 
also to expand the number of offerings they have at the Ph.D. 
level. To do that----
    Senator Mikulski. So what does the money do? I mean 
understand our goal here.
    Dr. Bement. Well, the answer to that is not necessarily in 
the Education and Human Resources account. It is in the 
Research and Related Activities account. The amount of funding 
that is now being provided to minority-serving institutions has 
been increasing, and it is quite substantial compared with the 
targeted programs.
    Senator Mikulski. Well, remember, sir, I am talking about 
two separate programs. I am concerned that historically black 
colleges funding has been cut by almost 15 percent. So you can 
talk about building capacity and all that, if it is cut by 15 
percent, regardless of what account it is in, it has been cut.
    Then there is the Tech Talent program. As you know, we were 
trying to get our undergraduates involved in science and math 
before we even get to the graduate level. That has been cut. 
That was the Tech Talent. Let us fund it.
    Dr. Bement. Okay.
    Senator Mikulski. Let us support it. At NSF, it is referred 
to as STEP. It was funded at a very modest amount, $15 million. 
It was cut to $10 million. I wonder what are the consequences--
--
    Dr. Bement. I understand.

                            WORKFORCE ISSUES

    Senator Mikulski [continuing]. To students, and, of course, 
our long-term national goals. I will go back to the Reagan 
Commission on Competitiveness. Control your deficits, invest in 
research and technology, and build the smartest workforce 
that--like our army, the best army that the military has ever 
seen, we need to have the best workforce.
    Dr. Bement. Yes.
    Senator Mikulski. I do not think we have a workforce 
shortage. I think we have a skill shortage. If we can meet 
that----
    Dr. Bement. Yes. I agree with that. It turns out that many 
of the jobs that are opening up in the manufacturing sector 
cannot be filled because there are not the skills.
    Senator Mikulski. What type of jobs are they, sir?
    Dr. Bement. Many of these would be operating jobs; with 
some involving more sophisticated manufacturing equipment, 
information technology, the ability to make measurements, and 
quality engineering on the shop floor. These are the types of 
jobs that require technical training.

                       ROLE OF COMMUNITY COLLEGES

    Senator Mikulski. That takes me to another issue, which is 
community colleges. What a great social invention.
    Dr. Bement. Yes. We are in violent agreement on that. They 
are very essential. Very essential.
    Senator Mikulski. How do you see community colleges fitting 
in this year's budget request, and in your world, what you 
would recommend? Dr. Washington, I know you are interested in 
this topic. For many people, it is the gateway. For some first-
time people, some of our new legal immigrants, for people of 
modest means, or people who are just trying to get started part 
time, the community college is it. For the mid-career person, 
the community college, it is the gateway to being able to make 
it in our society. Where----
    Dr. Bement. Senator, I know that the administration is very 
much interested in this issue and is developing a major effort 
in this area of workforce training, including the community 
colleges. NIST, for example, has a part to play through our 
Manufacturing Extension Partnership.
    If I were to look into the National Science Foundation 
budget, I would find that there is probably not as much as we 
could do. It is something we have to pay attention to.
    Senator Mikulski. Would you please, again, knowing that you 
have just been briefed, and we recognize the circumstances, 
would you please look at this whole focus on making use of not 
only our traditional academic centers, but of the unique 
institutions in our country. The community college is one. The 
historically black colleges are another as well as some of our 
women's colleges. Looking at them, they are also pools of 
talent. I hear back home, we have a nursing shortage. We have a 
lab technician shortage, a radiology technician shortage. I 
could elaborate, but a 2-year program at a community college 
could get you right into the marketplace in a very different 
way than retail sales----
    Dr. Bement. Yes.
    Senator Mikulski. I believe all work is honorable, but this 
could give you the opportunity to pursue a 4-year program later 
on.
    Dr. Bement. I think a partial answer to that may come 
through our Workforce for the Twenty-First Century priority 
area, which is one of our major initiatives this year. There 
are two elements of that program that are intended to 
accomplish much of what you are talking about. One is to better 
integrate the pipeline so that we can extend the pipeline all 
the way from K to 12, all the way up through post-doctorate 
training.
    Senator Mikulski. Well, I know the vote has started and 
there are many questions that we could ask. What I would like 
to know is, what are the consequences of some of these 
decisions, and then look at what we need to do. One is, of 
course, this whole transfer to the Department of Education, and 
$80 million going into research rather than staying in 
education.
    Second, what can we be doing to look out for our community 
colleges? This also presumes we are looking out for the land 
grant colleges, as well as the Ivy League-type schools that are 
so important. Dr. Washington, do----
    Dr. Washington. Well, I was just going to say----
    Senator Bond. Dr. Washington wanted to add something.
    Dr. Washington. Yes, sir.
    Senator Bond. I just wanted to join in here----
    Senator Mikulski. Good, please.
    Senator Bond [continuing]. With Senator Mikulski. I 
believe, No. 1, you had some questions, Dr. Washington, about 
the transfer of math and science, and I could not agree more 
with Senator Mikulski. Also, the emphasis on community 
colleges. We happen to have an advanced technical center in my 
home that trains nurses, and they have a new photonics optics 
laser lab for training people. They do some wonderful things 
there.
    We are going to have to go for a vote in a few minutes, but 
I wanted to have Dr. Washington have an opportunity to respond 
to several of these points. I think, Doctor, you had a number 
of things you might want to add.
    Senator Mikulski. Good. That is exactly where I was headed. 
Yes, sir.
    Dr. Washington. Okay. I know that you are very short on 
time. I will certainly bring your concerns to the full Board 
for us to take a look at some of the concerns that you have 
expressed, and especially those dealing with the community 
colleges. We understand already that we are not putting enough 
emphasis on the science and math in those schools, so that we 
will just sort of take a look at that and get back to you.
    Senator Bond. Senator Mikulski, do you have--I am going to 
come back, and----
    Senator Mikulski. No, Mr. Chairman. I think after the vote, 
I will try to come back, but I am not sure.
    Senator Bond. All right. Well, do you have any other 
questions that you wish to ask?

                       INFRASTRUCTURE INVESTMENTS

    Senator Mikulski. Right now, I have one more for Dr. 
Washington. This goes to the facilities and the whole size mid-
size recommendations. Could you elaborate on why you made that 
recommendation, so we could grasp that?
    Dr. Washington. Well, I think that we are seeing the 
investment in infrastructure, especially in terms of equipment, 
is going to be a more important part of NSF's future. In fact, 
we have already recommended that the investment be changed from 
essentially 22 percent up to a 27 percentage. We are also 
seeing----
    Senator Mikulski. Why mid-size?
    Dr. Washington. What?
    Senator Mikulski. Why mid-size?
    Dr. Washington. Well, we are seeing that in addition to the 
big things that we fund, the telescopes, and the airplanes, and 
so forth, that there is a great increase in interest by groups 
of scientists in the mid-range. In other words, things that may 
cost maybe a few million dollars, up to maybe $20 million.
    Senator Mikulski. What would be some examples of that, Dr. 
Washington?
    Dr. Washington. I think we are seeing augmentation of 
capability on existing facilities. We are also seeing smaller 
groups doing, for example, field studies, doing experiments 
in----
    Senator Mikulski. So are you talking about research, or are 
you talking about mid-sized projects and facilities?
    Dr. Washington. Yes. I am talking about research 
instruments and facilities. In other words, these are things 
that are not extremely expensive, but they are beyond what you 
can do----
    Senator Mikulski. Like Senator Bond talking about that 
advanced school in technology that is training nurses----
    Dr. Washington. Yes.
    Senator Mikulski [continuing]. Which would be a mid-size 
procurement, but for that school, was a pretty big buck 
investment, given its stresses, am I correct?
    Dr. Washington. They are scraping to try to get the----
    Senator Mikulski. Right, but in the scheme of things, that 
would be viewed as mid-size----
    Dr. Washington. Yes.
    Senator Mikulski [continuing]. But the consequences both to 
the school, its productivity, in terms of what it can do for 
students, and then nurses coming out with the latest training, 
that is the kind of thing you are talking about?
    Dr. Washington. Yes. But it is actually a very broad 
spectrum, but I think----
    Senator Mikulski. Oh. I got it.
    Dr. Washington [continuing]. That is an example.
    Senator Mikulski. I got it. Well, thank you.

             CONSOLIDATION OF MATH AND SCIENCE PARTNERSHIP

    Senator Bond. Dr. Washington, let me go back to the point 
that Senator Mikulski raised about the transfer of math and 
science. I understand the Board disagrees with that. Could you 
give us briefly the reasons they disagree?
    Dr. Washington. Well, I think it is fundamentally a program 
that is a partnership between school districts and academic 
institutions. In that partnership, we feel, through a peer-
review system, that we have built an excellent program. It has 
just gotten started, actually.
    The Board did have a lengthy discussion of this and has 
issued a statement essentially saying that we think it is best 
if it remains in the National Science Foundation.
    Senator Bond. I would wholeheartedly concur with that. I 
think there are many needs in education. I think it is going to 
be swallowed up, and it is going to disappear.
    Well, with that, I will be back with a number of questions. 
I am delighted to see Dr. Clutter is here. We will have, as you 
might guess, some biotechnology questions when I come back.
    The hearing will stand adjourned, I hope for no more than 
about 10 minutes. Thank you very much.

                             SOUND SCIENCE

    Dr. Marburger, I recently saw a group of scientists 
accusing the administration of systematically distorting 
scientific facts to manipulate policy goals. I was very 
concerned to hear these accusations. I believe very strongly 
that science should be based on facts, not political or 
partisan, and given the serious nature of these accusations, I 
think it would be appropriate if you would respond to those, 
please.
    Dr. Marburger. Thank you, Mr. Chairman. I am delighted to 
have an opportunity to address that issue. We did receive a 
letter statement signed by a number of prominent scientists 
that made a number of representations. I believe that the 
incidents that are listed in that document have alternative 
explanations, and they do not justify the sweeping conclusions 
of either the document that accompanied the statement, or the 
statement itself. I believe the document has methodological 
flaws that undermine its own conclusions, not least of which is 
the failure to reflect responses or explanations from 
responsible government officials.
    From my personal experience and direct knowledge of the 
incidents in question, I can state unequivocally that this 
administration does not have a policy of distorting, 
manipulating, or managing scientific processes or technical 
information to suit its policies. President Bush believes that 
policies should be made with the best and most complete 
information possible, and he expects his appointees to conduct 
their business in a way that fulfills that expectation.
    I would be glad to give more detail, which would be tedious 
to go into in this hearing, probably inappropriate, but I do 
appreciate the opportunity to get it on the record, and I would 
respond to questions regarding it.
    Senator Bond. Dr. Marburger, I think we have more important 
things to do in this hearing, but I think given the serious 
nature of the charges, I appreciate your personal affirmation 
and strong statement. I think that is very important. But for 
the record, it would be helpful if you would present us with a 
copy of whatever response you have made to the charges so that 
they will be available in a public record.
    Dr. Marburger. Thank you.
    [The information follows:]

  Statement by John Marburger on Allegations Contained in a Document 
             Released by the Union of Concerned Scientists

    ``I do not agree in any way with the statement or supporting 
document that were released by the Union of Concerned Scientists. I 
believe the discussion of the allegations in the document is 
incomplete, and does not justify the sweeping conclusions of either the 
document or the accompanying statement. I also believe the document has 
methodological flaws that undermine its own conclusions, not the least 
of which is the failure to reflect responses or explanations from 
responsible government officials.
    ``President Bush believes policies should be formed with the best 
and most complete information possible and expects his appointees to 
conduct their business in a way that fulfills that belief. From my 
personal experience and direct knowledge, I can state unequivocally 
that this Administration applies the highest scientific standards in 
decision-making.
    ``I look forward to discussing the issues directly with the 
signatories to help bridge any misunderstandings and disagreements.''

    Senator Bond. I thank you very much for that.
    Dr. Marburger. Thank you.

                         PLANT GENOME RESEARCH

    Senator Bond. Now, I want to turn to, not surprisingly, 
biotechnology. Dr. Marburger, I was pleased to read in the 
January 2004, National Plant Genome Initiative Progress Report 
that the Federal Government is expanding its research with 
scientists in developing countries. As you know, I have been 
interested in expanding the plant biotechnology, especially in 
places in Africa. And I have met with scientific, agricultural, 
and human health officials from African countries, as well as 
Southeast Asian countries, who look forward to the 
opportunities that plant biotechnology will provide them.
    We find that much of the opposition, and I believe it is 
unfounded, unscientific, and based on hysteria, comes in 
countries where they are well fed. Hungry countries in the 
world are looking for better technology to provide the food 
that they need, with less reliance on chemical pesticides. And 
I believe that the future is bright if we can continue to work 
with these countries.
    Would you give me an overview of the government's work in 
developing countries and how you plan to deal with the public 
perception problems that have plagued other countries? I have 
denoted it as Euro-Sclerosis, and I would appreciate how you 
may be responding to that particular affliction.
    Dr. Marburger. Thank you, Mr. Chairman. This is an area 
where I think the United States has considerable to offer other 
countries. It certainly comes up in ministerial meetings that I 
attend with other science ministers from other countries. 
Within the United States, my office coordinates a very large 
interagency process to make sure that the United States is 
effective in all of its interactions with other countries, as 
well as internally.
    There was an interagency working group that was established 
in 1987, due in large part to the interest of this 
subcommittee. Since then, we have coordinated the plant genome 
activities of the National Science Foundation, the U.S. 
Department of Agriculture, the Department of Energy, and 
recently expanded to include USAID, which is important to the 
international component, and NASA. NIH is also an active member 
of this group, providing member agencies with insights gained 
through the human genome program, which was also an 
international program.
    This group released its second 5-year plan in January of 
this year. We still are interested in obtaining additional 
sequences. It has been very successful, for example, with the 
rice genome, whose completion was celebrated more than a year 
ago. But other priorities related to the application of these, 
as to how do we use them, especially in these developing 
country situations, are now included in that plan, which I 
would be glad to make available as part of this record.
    This working group that we sponsor just published their 
annual report in January of this year, this past month, and we 
will make that part of the record as well.
    [Clerk's Note.--The annual report has been retained in 
committee files.]
    Senator Bond. Thank you. I might ask Dr. Clutter if she 
would come to join us at the table. I would like to ask her to 
share with us her thoughts and ideas on the National Science 
Foundation's efforts in expanding the plant genome program to 
developing countries.
    Welcome, Dr. Clutter.

                      STATEMENT OF MARY E. CLUTTER

    Dr. Clutter. Thank you very much, Senator Bond. It is 
always a pleasure to appear before this committee. I think that 
what I would like to bring up is just sort of a status report 
on where we are. Not just looking to 2005, but also to 2004. 
Dr. Marburger has told you about the interagency working group 
and their work, and it includes all the science agencies. So 
this year we were joined by NASA and USAID. So there is an 
opportunity there to put together a very powerful program that 
will be of benefit to the developing world.
    But thinking about 2004, we decided that we would take some 
of the money in the plant genome program and make it available 
to scientists at universities in this country who are working 
with that program, to work with scientists in developing 
nations. And the goal there is to bring the power of genomics 
and Twenty-First Century Science to the developing world. We 
would like to work with scientists there on crops that grow 
locally, not to introduce some crops that they are not 
interested in, but to improve the nutritional quality, the 
resistance to drought, the resistance to disease, to bring 
those traits to the local crops. So that is starting in 2004.
    In 2005, what we want to develop is a joint program, 
especially involving USAID, to cooperate with the developing 
world.
    Senator Bond. I trust that the cooperation is not limited 
to universities, that it might include science centers.
    Dr. Clutter. Absolutely.

                     DANFORTH PLANT SCIENCE CENTER

    Senator Bond. I raise that, because I know that the 
Danforth Plant Science Center is sending 120 genetically 
modified casava plants, I believe, to Kenya----
    Dr. Clutter. That is right.
    Senator Bond [continuing]. And they are on the way now to 
be field tested in a controlled circumstance, and I believe 
they are looking at other countries which have sought 
assistance. If we can genetically engineer the indigenous 
plants so that they are resistant to viruses, other diseases, 
pests, and in some instances, perhaps more drought tolerant----
    Dr. Clutter. Exactly.
    Senator Bond [continuing]. We will have an opportunity to 
grow for the people in those countries the vegetables and the 
other nutrition that they want. So I think that is very 
important, and I look forward to following that. Do you have 
any further thoughts on the----
    Dr. Clutter. I would just like to say that part of what we 
are doing in 2004 is to support some of the efforts of the 
Danforth Center. I think they are receiving some supplemental 
funds to carry out that program with cassava.
    Senator Bond. Thank you. That is your judgment, and I am 
delighted to hear about it. Any other comments on plant 
biotechnology, genomics?

                     MANAGEMENT OF LARGE FACILITIES

    Well, thank you again for your attention to it.
    I want to talk about large research facility management, 
and I would like to invite Dr. Boesz, NSF's Inspector General, 
to join us at the table.
    Dr. Boesz, your office has identified problems with NSF's 
large research facility management and other management issues. 
Could you give us an update on how NSF has responded to the 
problems, and in your opinion, has NSF made adequate progress 
in addressing the problems?

                    STATEMENT OF CHRISTINE C. BOESZ

    Dr. Boesz. Good morning, Senator.
    Senator Bond. Good morning.
    Dr. Boesz. It is good to see you again. I will be happy to 
give you an update. First, with respect to the management of 
large facilities, and the construction and operation of them. 
NSF has made some progress. Last June, they were able to bring 
on board a qualified individual to serve as the deputy in this 
position, to give some oversight and guidance to the general 
process. However, the progress has been, in my opinion, and the 
opinion of my staff, somewhat slow. We are still waiting to get 
the various modules that flesh out this general guidance that 
has been developed, and we have received two of these modules 
in draft, but there are at least maybe about a dozen total that 
need to be done.
    Now, the importance of this is that this is the how-to 
manual, so that people in the field as well as people within 
the Foundation will know exactly what to do. So while there has 
been some progress, there is still a lot of work that remains 
to be done.
    Senator Bond. Are the guidelines or criteria outlined by 
the NSF and are those good criteria?
    Dr. Boesz. For setting the priorities?
    Senator Bond. Yes.

                           PREPARED STATEMENT

    Dr. Boesz. We actually have--are only beginning to look at 
that with respect to the Board. We had focused more on the 
management, cost accounting----
    Senator Bond. I see.
    Dr. Boesz [continuing]. Life-cycle costs. I might add that 
we are waiting, also, from NSF to look at how they are going to 
track life-cycle costs for both construction and operation. 
That is a big piece that needs to be done. I think that is 
important information for the Board in order to help them set 
their priorities.
    [The statement follows:]

                Prepared Statement of Christine C. Boesz

    Chairman Bond, Senator Mikulski, and distinguished members of the 
subcommittee, I am Dr. Christine Boesz, Inspector General at the 
National Science Foundation (NSF). I appreciate the opportunity to 
present to you information as you consider NSF's fiscal year 2005 
budget request. NSF's work over the past 54 years has had an 
extraordinary impact on scientific and engineering knowledge, laying 
the groundwork for technological advances that have shaped our society 
and fostered the progress needed to secure the Nation's future. 
Throughout, NSF has maintained a high level of innovation and 
dedication to American leadership in the discovery and development of 
new technologies across the frontiers of science and engineering.
    Over the past few decades, however, the nature of the scientific 
enterprise has changed. Consequently, NSF is faced with new challenges 
to maintaining its leadership position. My office has and will continue 
to work closely with NSF management to identify and address issues that 
are important to the success of the National Science Board and NSF. 
Last year, I testified before this subcommittee on the most significant 
issues that pose the greatest challenges for NSF management. This year, 
you have asked me to provide an update, from my perspective as 
Inspector General, on the progress being made at NSF to address three 
of these challenges.

              MANAGEMENT OF LARGE INFRASTRUCTURE PROJECTS

    Throughout my tenure as Inspector General of NSF, we have 
considered management of large facility and infrastructure projects to 
be one of NSF's top management challenges.\1\ As you know, NSF has been 
increasing its investment in large infrastructure projects such as 
accelerators, telescopes, research vessels and aircraft, 
supercomputers, digital libraries, and earthquake simulators. Many of 
these projects are large in scale, require complex instrumentation, and 
involve partnerships with other Federal agencies, international science 
organizations, and foreign governments. Some, such as the new South 
Pole Station, present additional challenges because they are located in 
harsh and remote environments.
---------------------------------------------------------------------------
    \1\ Memorandum from Christine C. Boesz, Inspector General, National 
Science Foundation, to Warren Washington, Chairman, National Science 
Board, and Rita R. Colwell, Director, National Science Foundation (Oct. 
17, 2003) [hereinafter 2003 Management Challenges]; Memorandum from 
Christine C. Boesz, Inspector General, National Science Foundation, to 
Warren Washington, Chairman, National Science Board, and Rita R. 
Colwell, Director, National Science Foundation (Dec. 23, 2002) 
[hereinafter 2002 Management Challenges]; Memorandum from Christine C. 
Boesz, Inspector General, National Science Foundation, to Eamon M. 
Kelly, Chairman, National Science Board, and Rita R. Colwell, Director, 
National Science Foundation (Jan. 30, 2002) [hereinafter 2001 
Management Challenges]; Letter from Christine C. Boesz, Inspector 
General, National Science Foundation, to Senator Fred Thompson, 
Chairman, Senate Committee on Governmental Affairs (Nov. 30, 2000) 
[hereinafter 2000 Management Challenges].
---------------------------------------------------------------------------
    As I testified last year,\2\ the management of these awards is 
inherently different from the bulk of awards that NSF makes. While 
oversight of the construction and management of these large facility 
projects and programs must always be sensitive to the scientific 
endeavor, it also requires a different management approach. It requires 
disciplined project management including close attention to meeting 
deadlines and budget, and working hand-in-hand with scientists, 
engineers, project managers, and financial analysts. Although NSF does 
not directly operate or manage these facilities, it is NSF that is 
ultimately responsible and accountable for their success. Consequently, 
it is vital that NSF, through disciplined project management, exercise 
proper stewardship over the public funds invested in these large 
projects.
---------------------------------------------------------------------------
    \2\ Statement of Dr. Christine Boesz, Inspector General, National 
Science Foundation, before the U.S. Senate, Committee on 
Appropriations, Subcommittee on VA, HUD, and Independent Agencies (Apr. 
3, 2003).
---------------------------------------------------------------------------
    In fiscal years 2001 and 2002, my office issued two audit reports 
on large facilities with findings and recommendations aimed at 
improving NSF's management of these projects.\3\ Primarily, our 
recommendations were aimed at (1) increasing NSF's level of oversight 
of these projects with particular attention on updating and developing 
policies and procedures to assist NSF managers in project 
administration, and (2) ensuring that accurate and complete information 
on the total costs of major research equipment and facilities is 
available to decision makers, including the National Science Board, 
which is responsible for not only approving the funding for these large 
projects, but also setting the relative priorities for their funding. 
NSF responded that it would combine its efforts to respond to the 
recommendations made in these separate audit reports.
---------------------------------------------------------------------------
    \3\ Office of Inspector General, National Science Foundation, Audit 
of the Financial Management of the Gemini Project, Report No. 01-2001 
(Dec. 15, 2000); Office of Inspector General, National Science 
Foundation, Audit of Funding for Major Research Equipment and 
Facilities, Report No. 02-2007 (May 1, 2002).
---------------------------------------------------------------------------
    During the past year, NSF has made gradual progress towards 
completing the corrective action plans and has taken steps to address 
approximately half of the report recommendations. In June 2003, NSF 
took an important step when it hired a new Deputy Director for Large 
Facility Projects, and in July the agency issued a ``Facilities 
Management and Oversight Guide''.\4\ NSF has also begun to offer 
Project Management Certificate Programs through the NSF Academy to help 
program officers improve their skills in managing large facility 
projects.
---------------------------------------------------------------------------
    \4\ National Science Foundation, Facilities Management and 
Oversight Guide (July 2003) <http://www.nsf.gov/pubsys/ods/
getpub.cfm?nsf03049>.
---------------------------------------------------------------------------
    However, key recommendations from both of these reports on 
developing new project and financial management policies and procedures 
remain unresolved by NSF management. Although NSF has issued a 
``Facilities Management and Oversight Guide'', this Guide does not 
provide the detail necessary to provide practical guidance to staff 
that perform the day-to-day work, nor does it address the problem of 
recording and tracking the full cost of large facility projects. A 
systematic process for reporting and tracking both the operational 
milestones and the associated financial transactions that occur during 
a project's lifecycle, particularly those pertaining to changes in 
scope, is still needed. Finally, staff involved with large facility 
projects need to be trained on the revised policies and procedures that 
affect funding, accounting, and monitoring. NSF plans to address these 
outstanding audit recommendations by providing several additional 
modules to its ``Facilities Management and Oversight Guide'' that will 
address various topics such as risk management and financial 
accounting. My office was recently provided with drafts of two of these 
modules and is currently reviewing them to provide feedback to the 
Deputy Director for Large Facility Projects.
    While I am pleased to see that NSF is continuing to make progress 
toward addressing this important management challenge, I remain 
concerned with the level of attention afforded this issue by senior NSF 
management. The responsibility for continuing to make progress in this 
area has fallen to the Deputy Director for Large Facility Projects who 
may not have been afforded the necessary resources to complete the 
detailed modules to the ``Facilities Management and Oversight Guide'' 
in a timely manner. Currently, the Deputy needs additional staff to 
assist with completing these numerous and detailed modules. Also, a 
system to identify and account for life-cycle costs is needed to 
support management, as well as the prioritization of projects.

                          AWARD ADMINISTRATION

    In addition to its management of some of its very large awards, 
another ongoing management challenge at NSF involves general 
administration of all of its research and education grants and 
cooperative agreements.\5\ While NSF has a proven system for 
administering its peer review and award disbursement responsibilities, 
it still lacks a comprehensive, risk-based program for monitoring its 
grants and cooperative agreements once the money has been awarded. As a 
result, there is little assurance that NSF award funds are accurately 
protected from fraud, waste, abuse, and mismanagement. Recent audits 
conducted by my office of high-risk awardees, such as foreign 
organizations and recipients of Urban Systemic Initiative (USI) awards, 
confirm that in the absence of an effective post-award monitoring 
program, problems with certain types of grants tend to recur.
---------------------------------------------------------------------------
    \5\ 2003 Management Challenges; 2002 Management Challenges; 2001 
Management Challenges; 2000 Management Challenges, supra note 1.
---------------------------------------------------------------------------
    In a given year, NSF spends roughly 90 percent of its appropriated 
funds on awards for research and education activities. In fiscal year 
2003, NSF reviewed 40,075 proposals--an increase of 14 percent over 
fiscal year 2002--in order to fund 10,844 awards.\6\ Given the amount 
of work required to process an award, NSF is challenged to monitor its 
$18.7 billion award portfolio (including all active multi-year awards) 
for both scientific and educational accomplishment and financial 
compliance. During the past 3 years, weaknesses in NSF's internal 
controls over the financial, administrative, and compliance aspects of 
post-award management were cited as a reportable condition in the 
audits of NSF's financial statements.\7\ What this means is that the 
bulk of staff effort is placed on moving funds out the door with little 
attention paid to how those funds are used.
---------------------------------------------------------------------------
    \6\ National Science Foundation, Fiscal Year 2003 Performance and 
Accountability Report (Nov. 2003) <http://www.nsf.gov/pubs/2004/
nsf0410/new_pdf/nsf0410final.pdf>.
    \7\ Auditor's Report, Fiscal Year 2003 National Science Foundation 
Financial Statement Audit (Nov. 17, 2003); Auditor's Report, Fiscal 
Year 2002 National Science Foundation Financial Statement Audit (Jan. 
29, 2003); Auditor's Report, Fiscal Year 2001 National Science 
Foundation Financial Statement Audit (Jan. 18, 2002).
---------------------------------------------------------------------------
    NSF has recognized the need to create a risk-based award-monitoring 
program and has begun to address this issue. The agency has developed a 
``Risk Assessment and Award Monitoring Guide'' that includes post-award 
monitoring policies and procedures, a systematic risk assessment 
process for classifying high-risk grantees, and various grantee 
analysis techniques. During the past year, NSF has made some progress 
towards fully addressing this management challenge and responding to 
audit recommendations. For instance, NSF issued the ``Award Monitoring 
and Business Assistance Program Guide'', developed an annual grantee-
monitoring plan, conducted 32 site visits on selected grantees, and 
provided grant-monitoring training for its reviewers.
    While these efforts represent good first steps toward an effective 
award-monitoring program, weaknesses still exist and there are 
inconsistencies with its implementation. For example, the criteria 
developed for identifying high-risk grantees is not comprehensive and 
does not include all potential risk characteristics such as a history 
of poor programmatic or financial performance. Further, the program 
does not address medium and low-risk awards, for which NSF could 
implement a lesser degree of oversight at a minimal cost. Finally, the 
site visits that are being conducted do not necessarily follow 
consistent policies and protocols, are not adequately documented, and 
may not be followed-up on by NSF staff to ensure that corrective 
actions are taken in response to site visit recommendations.

                 STRATEGIC MANAGEMENT OF HUMAN CAPITAL

    While the previous two management challenges are of an urgent 
nature, they may be symptomatic of a larger more pressing need for 
improved strategic management of NSF's human capital. In order to fully 
address its award management challenges, NSF will need to devote more 
resources and attention to making business and process improvements, 
while at the same time, planning for its current and future workforce 
needs. Although advances in technology have enhanced the workforce's 
productivity, NSF's rapidly increasing workload has forced the agency 
to become increasingly dependent on temporary staff and contractors to 
handle the additional work. NSF's efforts in the past to justify an 
increase in staff have been impeded by the lack of a comprehensive 
workforce plan that identifies workforce gaps and outlines specific 
actions for addressing them. Without such a plan, NSF cannot determine 
whether it has the appropriate number of people and competencies to 
accomplish its strategic goals.
    NSF has recognized the seriousness of this challenge and has now 
identified investment in human capital and business processes, along 
with technologies and tools, as objectives underlying its new 
Organizational Excellence strategic goal.\8\ NSF also contracted in 
fiscal year 2002 for a comprehensive, $14.8 million, 3- to 4-year 
business analysis, which includes a component that includes a Human 
Capital Workforce Plan (HCMP). Preliminary assessments provided by the 
contractor confirm that NSF's current workforce planning activities 
have been limited and identify that specific opportunities for NSF 
exist in this area.
---------------------------------------------------------------------------
    \8\ National Science Foundation, Strategic Plan Fiscal Year 2003-
Fiscal Year 2008 (Sept. 30, 2003) <http://www.nsf.gov/od/gpra/
Strategic_Plan/FY2003-2008.pdf>.
---------------------------------------------------------------------------
    Currently, the HCMP is a preliminary effort to develop a process 
for identifying and managing human capital needs and contains few 
specific recommendations that will have a near-term impact. In 
addition, the HCMP provides little in the way of milestones and 
accountability for the accomplishment of these early steps. According 
to that project schedule, it will be more than a year before the HCMP 
will identify the specific gaps that NSF needs for justifying budget 
requests for additional staff resources. I believe NSF faces an urgency 
with its workforce issues. If not adequately addressed, these issues 
will undermine NSF's efforts to confront its other pressing management 
challenges and to achieve its strategic goal of Organizational 
Excellence.
    Chairman Bond, this concludes my written statement. I would be 
happy to answer any additional questions you or other members of the 
subcommittee may have, or to elaborate on any of the issues that I have 
addressed today.

    Senator Bond. Dr. Bement, obviously, with 4 days of 
experience, you were talking about responding. I will gather 
this is one of the areas you are going to be looking at. Would 
you care to respond any further on that?
    Dr. Bement. Well, you asked me previously what my agenda 
would be, and when you see my agenda, this will be high on the 
list.
    Senator Bond. Thank you.
    Dr. Bement. I have read the NRC report. I find that many of 
the high-level recommendations are sensible, and things that we 
have not really waited on to begin implementing. Mark Coles, 
who is the Deputy Director for Large Facilities, is already 
hard at work at that, but we are still developing our full 
response. And I intend to work with the National Science Board 
in responding to the NRC, and also to the Committee on how we 
are going to go forward with the recommendations.

                   NANOSCALE SCIENCE AND ENGINEERING

    Senator Bond. Thank you, sir. Thank you, Dr. Boesz. We 
talked about nanotechnology. As Senator Mikulski and I both 
noted, we think that nanotechnology is extremely important, and 
NSF has the unique role of being the lead agency in the 
initiative, with a funding request of $305 million. There is a 
lot of excitement about it because of the potential of far-
reaching benefits, but there is a growing public concern about 
this technology that has to be addressed. I would like to ask 
what are your plans for the funds, and how are you addressing 
educating the public about nanotechnology. Maybe I will start 
first with Dr. Marburger, because he has been on this case for 
a while.
    Dr. Marburger. Thank you, Mr. Chairman. In fact, the strong 
intention of the National Nanotechnology Initiative is to focus 
appropriately on social, environmental, and health impacts of 
nanotechnology. There was a workshop last winter, I believe it 
was in December, that focused on this issue and had many papers 
by people who had studied the issues. And I came away looking 
at the results of that workshop with the impression that this 
issue is being taken very seriously by the program.
    Appropriate levels of investments are being made to 
understand the social impacts of nanotechnology. But more 
importantly, I believe foundations for good framework for 
appropriate regulation and response to the potential hazards of 
nano materials exists and can be tuned up and modified to 
accommodate the needs of this emerging, exciting new 
technology.
    So I believe we are in a position to address in an 
appropriate way, with appropriate level of resources. I am very 
pleased at the visibility that social and environmental impacts 
have within the NSF's leadership of the program.
    Senator Bond. Dr. Bement, I would like you to comment on 
that, and then----
    Dr. Bement. Yes.
    Senator Bond. Obviously, you have to have the good science 
first, and how do you go about addressing the public concerns? 
That is what we would like to know, how do you intend to----
    Dr. Bement. Well, first of all, we are addressing this 
problem head on, as you recommended and as Senator Mikulski 
advocated, and we are taking it very seriously. We want to be 
ahead of the issue.
    We have a significant fraction of our investment in 
Nanoscale Science and Engineering, which is focused on societal 
and educational implications of nanotechnology. About $25 
million of our budget is focused in that area. But I think also 
in the new focused initiative of Human and Social Dynamics and 
how society copes with change, there are opportunities there 
also to try and understand what the social implications are. So 
we are going to give this very serious attention.
    Senator Bond. How do you intend to publicize your findings? 
How do you intend to reach the public with this good 
information?
    Dr. Bement. Well, I do not want to go into all the 
mechanics, but----
    Senator Bond. I just want the big picture. There are a lot 
of people who can do mechanics, and I do not do those well.
    Dr. Bement. Clearly, one way we communicate with the 
community at large is through our website. But we have many 
ways of doing op-ed pieces and communicating our science 
results, by putting it in context with the general public. We 
will use all those means.
    Senator Bond. Has anybody ever invited you to be on TV talk 
shows?
    Dr. Bement. Periodically, yes.
    Senator Bond. Dr. Marburger?
    Dr. Marburger. I would like to say a word about that. The 
fact that funds have been allocated and appropriated for the 
specific purpose of addressing this issue in a scholarly way 
really mobilizes the intellectual community in this country and 
kind of puts this issue out into the marketplace in a way that 
is guaranteed to generate interest and attention.
    I believe that engaging the science community and the 
intellectual community of the United States in a constructive 
way through programs, through the National Nanotechnology 
Initiative, and particularly through the National Science 
Foundation, will raise the visibility, not only of the issues, 
but of how we can go about addressing them and solving them. I 
think the investment in funded programs through the National 
Science Foundation particularly will help--will automatically 
generate a great deal of public interest.
    Senator Bond. I think you are going to have to be proactive 
on it. You have science education centers and partnerships, 
which I think, obviously, are going to have to be used. And you 
are going to have to look for opportunities to take on 
controversy. Controversy is not bad. That is how we focus. Take 
it on, get involved in the discussions. And if you do not get 
involved in the controversy, you are not going to get your 
point across, and controversy probably gives you an opportunity 
to get more coverage than you would. If it was plain vanilla 
and all good and low carbs, you would not have any action with 
it.
    Dr. Marburger, I am going to ask you a question, an OSTP 
question not related to the NSF. The Veterans Administration 
has expressed concerns about receiving a fair reimbursement 
from NIH for conducting NIH-sponsored research. We are 
concerned about this on this committee, because under current 
practice, research facility costs are paid out of VA's medical 
care account instead of receiving indirect cost reimbursement 
for NIH. We asked OSTP to review the issue, and I wondered if 
you could give us a status report on that review.
    Dr. Marburger. Yes, sir. We have reviewed the issue. I am 
just looking for my notes on that. I believe there is a 
reference to it in my written testimony. In my written 
testimony and even in my oral testimony, I did mention that the 
VA will soon begin to use increased funding from private 
companies for the indirect administration costs of conducting 
research in VA facilities.
    So once we started thinking about how to deal with the 
specific relationship between the National Institutes of Health 
and the Veterans Administration, we decided that we needed to 
look government-wide to understand the various relationships 
that exist between Federal intramural scientists and extramural 
funding programs. There is a generic issue here that affects 
more than the program in which you expressed interest.
    We have an arrangement with an FFRDC, Federally Financed 
Research and Development Corporation, to conduct studies for 
us. We commissioned the IDA Science and Technology Policy 
Institute to assist us in this effort. And they provided us 
with a preliminary analysis which I would be happy to provide 
to you, focusing on whether extramural funding agencies, 
including NIH, support Federal scientists in an appropriate 
way. There are lots of variations from agency to agency, and we 
are currently looking at details of how indirect costs are 
handled, how salaries are covered, and so forth.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Dr. Marburger. Our hope is that this analysis will be 
completed soon and that we will be able to approach this 
specific situation regarding NIH and VA in a context of an 
overall solution for all the agencies. This question stimulated 
a very important analysis that I think will help us to address 
these issues across government.
    Senator Bond. I appreciate that. I have looked at the 
comments in your written statement about funding from private 
companies and would appreciate it if your office could get back 
to us on the NIH funding, which I think definitely is a concern 
for us.
    Dr. Marburger. Will do.

                             HOMESTAKE MINE

    Senator Bond. I have a number of other questions for the 
record, but one thing that had been brought up earlier is the 
proposal for the NSF to invest in the transformation of 
Homestake Mine, in Lead, South Dakota, into a neutrino lab. I 
understand that there are already a number of world-class labs 
and that NSF is currently spending some $300 million on Ice 
Cube, a neutrino lab currently under construction, 
appropriately at the South Pole.
    I would ask Dr. Marburger, I do not know if Dr. Bement had 
an opportunity to look at it, but either Dr. Marburger or Dr. 
Washington to comment on the Homestake proposal.
    Dr. Marburger. My comment on this is going to be really to 
praise the National Science Foundation for taking steps to look 
carefully into the technical considerations associated with 
this site.
    We agree that the area of science involved is an important 
one, that the United States has shown leadership in this area 
in the past, that there are other major investments by other 
countries, particularly Japan, in this field of science, and 
that we hope that the United States continuing participation in 
this important field can be taken into context of international 
cooperation.
    That said, we believe that the course of the NSF management 
in this area is an appropriate one. We are aware that some 
actions have been taken in the recent past regarding the 
Homestake Mine, and we are watching that situation carefully. 
But we believe it is up to NSF to decide, using the best 
science available to it.
    Senator Bond. Dr. Bement, have you had an opportunity to 
look into this question?
    Dr. Bement. I have, but I do not have a complete answer for 
you. I do know, however, that there have been several 
proposals, Homestake being one of them. Many of these, well, 
all these proposals have been unsolicited, but they have not 
been fully evaluated by the science community. And there are 
science communities other than the neutrino--those interested 
in neutrino detection that are interested in a deep underground 
research facility.
    To go to your one question, ``Why a facility like 
Homestake, compared with other neutrino facilities around the 
world?'' The one capability that is needed is to have enough 
overburden, or to be deep enough, if you will, or to have 
enough mass above you that it will screen out cosmic rays so 
that it will enhance the opportunity to measure neutrinos. Each 
of the sites that have been proposed has different advantages 
and disadvantages, and those are going to be reviewed by the 
science community to develop their requirements for the 
facility.
    Senator Bond. Dr. Washington.
    Dr. Washington. Well, it has not been brought to the Board 
yet, and we are expecting that the Foundation will carry on its 
analysis of the various options, and then present them to the 
Board. It has not been brought to the Board yet.
    Senator Bond. I very much appreciate that. We will look 
forward to receiving the information when you have developed 
it. That will be very important for us.

                     ADDITIONAL COMMITTEE QUESTIONS

    I have, as I said, a number of other questions that I will 
submit for the record. We have already discussed some. We 
welcome you, Dr. Bement.
    Dr. Bement. Thank you very much.
    Senator Bond. There is nothing like jump-starting your 
service on the NSF.
    Dr. Bement. Well, it focuses the mind.
    Senator Bond. Senator Mikulski and I have some very strong 
views, and we are united in those views. I think you may have 
gathered that. Dr. Marburger, I always appreciate it. Dr. 
Washington.
    [The following questions were not asked at the hearing, but 
were submitted to the agencies for response subsequent to the 
hearing:]

   Questions Submitted to the Office of Science and Technology Policy
           Questions Submitted by Senator Christopher S. Bond

    Question. Due to the perceived subjectivity of NSF's priority-
setting process for large research facilities, there has been an 
increased effort by various scientific interest groups to lobby the 
Congress on their specific project. In response to this concern, we 
asked the National Academy of Sciences to develop criteria to rank and 
prioritize large research facilities and they have responded.
    Do you support the Academy study?
    Answer. Yes. The National Academies study on the criteria used to 
rank and prioritize large research facilities is well conceived and, 
when fully implemented, will bring a high level of transparency and 
integrity to the process.
    Question. When will you be able to provide the Committee with a 
prioritization of all the current, and proposed, activities in the 
MREFC account fiscal year 2005?
    Answer. It is unlikely that a new prioritization of the Major 
Research Equipment and Facilities Construction (MREFC) account 
proposals based upon the National Academies study could be completed in 
time to affect the fiscal year 2005 appropriations process. The 
National Academies report requires several elements to be in place that 
will take some time to complete. In particular, the report stresses 
that as its basis for its annual budget request, the National Science 
Foundation (NSF), with approval from the National Science Board, should 
use a facilities roadmap. The development of a roadmap for NSF 
facilities represents a significant undertaking that should not be 
rushed to completion for the purposes of a single budget year's 
request. The development of a credible scientific facilities roadmap 
will require broad input from the scientific community to serve as its 
intellectual basis.
    Question. How long will it take NSF and the National Science Board 
to implement the recommendations?
    Answer. The NSF has begun, in earnest, to look at the 
recommendations of the NAS and has begun to understand how this will 
impact its process, and there is much work to do. For example, the NSB 
will need to undertake the development of a facilities roadmap which is 
a significant undertaking. It is certainly possible that the new 
process will impact the fiscal year 2006 budget formulation process.
    Question. In the budget request for this year, there is a proposal 
to move Math and Science Partnerships to the Department of Education, 
and to take the current program obligations and move them into the 
research account. Can you please explain the rationale behind moving 
the program away from NSF as well as the transfer of the program into 
the integrative activities portion of the research account?
    Answer. The consolidation of the Math and Science Partnerships 
(MSP) program at the Department of Education is motivated by a desire 
to focus the program on integrating research-proven practices into 
classroom settings. The consolidated program will concentrate attention 
and resources in a single program for maximum benefit. The increase in 
the Department of Education's MSP program is a key component of the 
President's Jobs for the 21st Century Initiative. President Bush is 
committed to helping better prepare high school students to enter 
higher education or the workforce. This initiative is especially 
important at a time when 80 percent of the fastest-growing jobs in the 
United States require higher education and many require math and 
science skills. Moving the management of the ongoing awards to the NSF 
Director's office is intended to maximize the coordination of NSF-
funded MSP awards across NSF and with the consolidated program at 
Education. The Department of Education and the National Science 
Foundation will work together to focus ongoing NSF efforts in 
directions that will benefit the program's shift in emphasis.
    Question. As I mentioned in my statement, the program for Informal 
Science Education is nationally recognized, and exposes millions of 
children and adults to science and science education. This is an 
excellent tool for NSF to use to encourage science literacy within the 
country, and can inspire kids to pursue science in education and as 
careers. With this in mind, why is Informal Science Education receiving 
a decrease of 25 percent from the $62.5 million that we provided in 
fiscal year 2004?
    Answer. The funding for Informal Science Education (ISE) activities 
at NSF is at the same level as the fiscal year 2004 request. At a time 
of increasing budgetary pressures, difficult decisions and priorities 
must be set. It is important to note, however, that outreach and 
educational activities that occur outside of the classroom are not 
restricted to the ISE program. All of the major center activities 
funded by NSF have as part of their responsibilities, outreach 
activities and onsite educational efforts to explain the science to the 
public. The impact of informal educational activities is not completely 
captured by looking only at those supported under the ISE budget line, 
and NSF continues to emphasize the value of having the research 
community itself directly engaged in informal science educational 
activities.
    Question. An ongoing concern of Congress is the need for making 
sure that we have enough college students with majors in science, 
engineering, and technology fields. Congress has consistently shown 
support for this program, despite the annual cutting of the budget for 
this program by the administration. Why is NSF, once again, cutting 
Tech Talent by $10 million, a 66 percent decrease?
    What are your views of NSF, the National Science Board, and OSTP, 
on the benefits of the Tech Talent program? Do you believe, as Congress 
does, that there is a strong need for this program?
    Answer. The administration strongly supports expanded opportunities 
to obtain technical training and education. In fact, the President's 
fiscal year 2005 budget request proposes several new programs and 
expands others to better prepare workers for jobs in the new 
millennium, by strengthening secondary education and job training. The 
President's budget calls for increased access to post-secondary 
education and job training through community-based job training grants 
($250 million) and enhanced Pell Grants ($33 million) for certain low-
income students. In addition, the President's plan calls for increases 
in high school reading ($100 million), math ($120 million), and 
advanced placement ($28 million) programs. The budget request supports 
the establishment of an adjunct teacher corps ($40 million) to help get 
individuals with more subject-matter knowledge into the classroom, and 
an expansion ($12 million) of the State Scholars program to get more 
students taking stronger courses of study.
    The Science, Technology, Engineering and Mathematics Talent 
Expansion Program--STEP--was initiated in fiscal year 2002 to support 
initial planning and pilot efforts at colleges and universities to 
increase the number of U.S. citizens and permanent residents pursuing 
and receiving associate's or bachelor's degrees in established or 
emerging science, technology, engineering and mathematics fields. In 
fiscal year 2003 the requested funding level for the STEP program was 
$2 million, growing to a request of $7 million in fiscal year 2004 and 
a request of $15 million in fiscal year 2005. Although this pattern of 
support has been augmented by Congress in the appropriation process, 
the funding pattern reflected in the requests demonstrates steady 
growth and commitment to an important program at NSF.

                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd

    Question. In your testimony, you indicate that the administration 
is maintaining funding for the multi-agency climate change science 
program at approximately $2 billion for fiscal year 2005, much of which 
falls within the jurisdiction of the VA-HUD Subcommittee. You also 
state in your testimony that the new U.S. Climate Change Science 
Program Strategic Plan ``received high marks after a 6-month review'' 
by a committee convened by the National Academy of Sciences' National 
Research Council (NRC). However, because the new 10-year science plan 
is quite broad and ambitious, the NRC also urged the administration to 
increase funding commensurate with the expansion of the program's 
stated research goals. Does the administration now plan to ask for an 
increase in funding for this expanded research agenda that will match 
the ambitious nature of the recently released strategic plan?
    Answer. The NRC also advised that, given the current budget 
outlook, prioritization would be essential for meeting the goals of the 
strategic plan. The President's budget takes steps to identify 
priorities and reallocate funding accordingly. New resources are 
proposed to advance understanding of aerosols, better quantify carbon 
sources and sinks, and improve the technology and infrastructure used 
to observe and model climate variations.
    Question. If you are not going to receive the increased funding 
needed to provide sufficient resources for the new climate change 
science plan, how will you move forward to achieve the stated goals of 
this expanded program for climate change science research?
    Answer. Congress itself plays the primary role in appropriating 
Federal funding for climate change science, and the administration will 
continue to work closely with Congress to ensure that funding for this 
research is sustained and managed in alignment with the priorities set 
forth in the strategic plan.
    The strategic plan outlines scientific goals, objectives, and 
questions, and provides guidance on near-term priorities. The Climate 
Change Science Program conducts an annual review of the ongoing 
projects and must decide which ones to expand and which ones to reduce 
in scope with the intent to initiate new endeavors. Climate change 
science is very dynamic with information continually leading to new 
ideas and to new endeavors. Much new information is obtained from 
process studies, such as the North American Carbon Program, and from 
demonstration of a new measurement concept, such as the Orbiting Carbon 
Observatory, both of which have limited durations. At the conclusion of 
a process study or demonstration project, funds become available for 
new endeavors. In addition, climate science is an international 
enterprise, as outlined in a separate chapter in the strategic plan, 
and has been for half a century. The United States partners with others 
in climate change science to leverage its investments to achieve 
synergism. For example, the 40-country intergovernmental Group on Earth 
Observations, which was established at the Earth Observation Summit in 
Washington in July 2003, is developing an implementation plan for a 
comprehensive, coordinated, and sustained global Earth observation 
system, in which a climate observing system is a major component.
    Question. Further, given the fact that this initiative falls under 
several agencies, who specifically will be tasked to make the necessary 
decisions and set priorities?
    Answer. The Climate Change Science Program is provided direction by 
a group of senior-level career officials representing all 13 agencies 
and departments involved in the program. The Office of Science and 
Technology Policy, Office of Management and Budget, Council on 
Environmental Quality, and National Economic Council provide oversight 
of the Climate Change Science Program. The Climate Change Science 
Program works by consensus and reports its decisions to the Interagency 
Working Group on Climate Change Science and Technology on a regular 
basis, usually at 2-month intervals. When the Climate Change Science 
Program directors are unable to make a decision, guidance is requested 
from the Interagency Working Group, which is composed of Under or 
Deputy Secretaries and senior Executive Office of the President (EOP) 
officials. The Interagency Working Group reports to the cabinet-level 
Committee on Climate Change Science and Technology Integration, whose 
Chair and Co-Chair rotate annually between the Secretary of Energy and 
the Secretary of Commerce.
    Question. Last week an influential and renowned group of 
scientists, including 20 Nobel laureates, issued a statement raising 
serious concerns about the Bush Administration's distortion and 
sabotage of science. Many of these individuals have served with 
distinction in former Republican and Democratic administrations.
    Solid science is a critical underpinning of constructive policy 
making. Policymakers rely upon credible, peer reviewed, objective 
scientific analysis and advice in the pursuit of good decision making 
in such fields as food safety, health care, biomedical research, the 
environment, and national security. These scientists have asserted that 
the Bush Administration is advocating policies that are not 
scientifically sound, misrepresenting scientific knowledge, censoring 
and suppressing information, and misleading the public to pursue its 
ideological agenda.
    Your agencies are seen as leading voices within the Federal 
Government with regard to the application of good science, and, 
therefore, it is incumbent upon you to ensure that scientific integrity 
is maintained. I am concerned that there is now a contemptible lack of 
oversight and that the public's trust in the Federal Government's 
scientific credibility and integrity will be undermined in the long 
term.
    What steps will you take to ensure that science and the pursuit of 
scientific reviews in the service of policymaking does not become 
overly politicized?
    Answer. President Bush believes policies should be made with the 
best and most complete information possible, and expects his 
administration to conduct its business with integrity and in a way that 
fulfills that belief. I can attest from my personal experience and 
direct knowledge that this administration is implementing the 
President's policy of strongly supporting science and applying the 
highest scientific standards in decision-making.
    Question. Are you prepared to make any specific recommendations to 
restore scientific integrity to policymaking?
    Answer. The administration's strong commitment to science is 
evidenced by impressive increases devoted to Federal research and 
development (R&D) budgets. With the President's fiscal year 2005 budget 
request, total R&D investment during this administration's first term 
will have increased 44 percent, to a record $132 billion in fiscal year 
2005, as compared to $91 billion in fiscal year 2001. President Bush's 
fiscal year 2005 budget request commits 13.5 percent of total 
discretionary outlays to R&D--the highest level in 37 years.
    In addition to enabling a strong foundation of scientific research 
through unprecedented Federal funding, this administration also 
believes in tapping the best scientific minds--both inside and outside 
the government--for policy input and advice. My office establishes 
interagency working groups under the aegis of the National Science and 
Technology Council for this purpose. In addition, this administration 
has sought independent advice, most often through the National 
Academies, on many issues. Recent National Academies reviews of air 
pollution policy, fuel economy standards, the use of human tests for 
pesticide toxicity, and planned or ongoing reviews on dioxin and 
perchlorate in the environment are examples. The administration's 
climate change program is based on a National Academies report that was 
requested by the administration in the spring of 2001, and the National 
Academies continues to review our programs and strategic research 
planning in this field. The frequency of such referrals, and the high 
degree to which their advice has been incorporated into the policies of 
this administration, is consistent with a desire to strengthen 
technical input into decision-making.
    Question. According to news reports, the Bush Administration is 
said to ``stack'' panels with members whose scientific viewpoints agree 
only with the administration's positions. Even basic science classes 
teach the importance of a broad range of sampling when trying to find 
scientific truths. How can the public have any confidence that 
scientific positions taken by this administration have any basis in 
fact?
    Answer. Suggestions of a political litmus test for membership on 
technical advisory panels are contradicted by numerous cases of 
Democrats appointed to panels at all levels, including Presidentially 
appointed panels such as the President's Information Technology 
Advisory Council, the National Science Board, and the nominating panel 
for the President's Committee on the National Medal of Science. And, in 
fact, I am a lifelong Democrat.
    Every individual who serves on one of these advisory committees 
undergoes extensive review, background checks, and is recognized by 
peers for their contributions and expertise. Panels are viewed from a 
broad perspective to ensure diversity; this may include gender, 
ethnicity, professional affiliations, geographical location, and 
perspectives.
    Question. Will you press for changes to ensure that a range of 
scientific views are included on these panels?
    Answer. I have discussed the issue of advisory committees with the 
Federal agencies mentioned in the Union of Concerned Scientists (UCS) 
document and am satisfied with the processes agencies have in place to 
manage this important function. I can say that many of the cited 
instances in the UCS document involved panel members whose terms had 
expired and some were serving as much as 5 years past their termination 
dates. Some changes were associated with new issue areas for the panels 
or with an overall goal of achieving scientific diversity on the 
panels. Other candidates may have been rejected for any number of 
reasons--this is ordinary for any administration.
    My office is involved in recommending candidates for the 
President's Council of Advisors on Science and Technology, the 
President's Information Technology Advisory Committee, and the 
nominating panel for the President's Committee on the National Medal of 
Science. I have intimate knowledge of the selection process for these 
committees. This process results in the selection of qualified 
individuals who represent a wide range of expertise and experience--the 
right balance to yield quality advice for the President on critical S&T 
issues.

                                 ______
                                 
         Questions Submitted to the National Science Foundation

           Questions Submitted by Senator Christopher S. Bond

 NATIONAL ACADEMY OF SCIENCES REPORT ON NSF PRIORITY SETTING FOR MAJOR 
                          RESEARCH FACILITIES

    Question. Due to the perceived subjectivity of NSF's priority-
setting process for large research facilities, there has been an 
increased effort by various scientific interest groups to lobby the 
Congress on their specific project. In response to this concern, we 
asked the National Academy of Sciences to develop criteria to rank and 
prioritize large research facilities and they have responded.
    Do you support the Academy study?
    Answer. Yes. The report recommends that NSF provide greater 
transparency and formality to its process of selecting large facility 
projects for funding, followed by construction with effective 
oversight. The recommendations present significant opportunities for 
NSF to enhance its capabilities, to articulate its selection of large 
projects to others in government and to the research community, and to 
provide effective management and oversight of these projects during 
their construction and operations phases.
    Question. When will you be able to provide the committee with a 
prioritization of all the current, and proposed, activities in the 
MREFC account fiscal year 2005?
    Answer. The fiscal year 2005 budget contains a prioritization for 
the three new MREFC projects that are proposed. They are, in order of 
priority, the National Ecological Observatory Network, the Scientific 
Ocean Drilling Vessel, and Rare Symmetry Violating Processes. These 
projects have been extensively peer reviewed prior to selection, and 
then were subjected to further consideration and ranking by the NSF's 
MREFC Panel, followed by further consideration and approval by the NSB, 
followed by submission to OMB.
    Question. How long will it take NSF and the National Science Board 
to implement the recommendations?
    Answer. The overall recommendations are in the process of being 
implemented. The details of how these recommendations will be 
incorporated into NSF policies will require further time and are the 
subject of ongoing discussions between NSF and the NSB. This was on the 
agenda at the March NSB meeting and will continue at the May and August 
meetings with a goal of completion in early fall.

                     MINORITY-SERVING INSTITUTIONS

    Question. Last year, this subcommittee emphasized the need for NSF 
to pay more attention to funding at Minority-Serving Institutions. We 
even required NSF to identify an individual in senior-level management 
to assist Minority-Serving Institutions in interacting with NSF. 
However, I notice in this year's budget request NSF is cutting funding 
to the Historically Black Colleges and Universities by nearly 20 
percent.
    Why is NSF not paying attention to what is clearly a priority of 
Congress?
    Answer. NSF efforts in supporting science, technology, engineering, 
and mathematics (STEM) research and education capacity at Historically 
Black Colleges and Universities (HBCUs), and other Minority-Serving 
Institutions (MSIs), are not limited to EHR programs alone. There are 
numerous efforts across the agency promoting the advancement of women 
and racial/ethnic minority students to increase their participation in 
the STEM enterprise. Agency investments in MSIs in both research and 
education have increased from $97 million in fiscal year 1998 to $148 
million in fiscal year 2003.
    NSF is focusing its efforts on assisting (MSIs) by working to 
improve diversity efforts and initiatives throughout the Foundation's 
scientific and educational programs. In fiscal year 2005, NSF research 
directorates will continue with significant investments in the Science 
and Technology Centers (STCs) where MSIs participate as collaborating 
partners. Centers bring people, ideas, and tools together on scales 
that are large enough to have a significant impact on important science 
and engineering challenges. This approach reflects NSF's efforts to 
strengthen partnerships and collaborations between NSF research 
centers, HBCUs and other MSIs.
    Question. Can you provide us with details concerning the senior-
level position for assisting minorities called for in the conference 
report?
    Answer. NSF has filled the position. Dr. Thomas Windham took office 
on February 15, 2004, as Senior Advisor for Science and Engineering 
Workforce. Dr. Windham will serve as NSF's principal liaison to 
Minority-Serving Institutions.

                    INFORMATION TECHNOLOGY RESEARCH

    Question. Information Technology Research has been a priority for 
several years at NSF, yet it is not this year. We have provided 
significant resources in the past to ITR, but NSF has chosen to 
redistribute $40 million in funds from ITR to other computing research 
areas.
    Does this funding change signal that there is no longer support for 
ITR?
    Answer. Information Technology research continues to be a high 
priority at NSF. As a ``formal'' priority area, Information Technology 
Research (ITR) has transformed the investments NSF makes in IT, 
revealing new IT research and education challenges and opportunities. 
It has also encouraged the national science and engineering community 
to conduct research that crosses traditional boundaries between 
disciplines, universities and other sectors, thereby advancing IT 
research and applications. The agency's changes in ITR are not a sign 
of retreat, but a plan to use this knowledge and emerging IT 
opportunities to boldly address new challenges.
    To understand this next step for ITR, it helps to look back at the 
context in which ITR was begun, to consider how the ITR priority area 
fostered positive changes at NSF and in the university community, and 
how we intend to capitalize on those changes and new research and 
education opportunities.
    The most visible support for creating the ITR program came from the 
President's Information Technology Advisory Committee (PITAC). Their 
1999 report ``Information Technology Research: Investing in Our 
Future'' anticipated that information technology would be ``one of the 
key factors driving progress in the 21st century--it will transform the 
way we live, learn, work, and play.'' The committee went on to find 
that ``Federal support for research in information technology is 
seriously inadequate. The report recommended that research funding be 
increased by an additional $1.370 billion per year by fiscal year 2004 
with particular research emphasis on software and scalable information 
infrastructure''.
    The PITAC report recommended some specific strategies for best use 
of additional research funds including designating the NSF as lead 
agency for the Federal effort, diversifying the modes of research 
support to include projects of broader scope and longer duration, 
supporting research teams, and funding collaborations focused on 
application areas that drive fundamental IT research.
    NSF had also been focusing on the provision of more diverse modes 
of funding support and promoting interdisciplinary research, so these 
recommendations were used to shape a ``formal'' ITR priority area as 
well as to influence planning for NSF's other priority areas. With 
generous funding of $90.0 million for research and education and $26.0 
million for a new terascale computing system in fiscal year 2000, NSF 
launched the ITR priority area. Funding has grown to approximately $313 
million for research in fiscal year 2004.
    NSF is poised now to institutionalize the advances made in response 
to the PITAC recommendations, particularly the capability developed for 
multi-disciplinary research that addresses applications and the new 
ability of the research community to work as collaborative teams.
    The Computer and Information Science and Engineering (CISE) 
directorate has received about two-thirds of the research funds of ITR. 
Driven both by changes in the computer and information science and 
engineering disciplines as well as by the impact of the ITR priority 
area investments, CISE has reorganized to take advantage of both. CISE 
will incorporate ITR funds closely into its new divisions; the 
divisions will operate with clusters of programs that are positioned to 
operate much as ITR has operated--and will be fully capable of managing 
interdisciplinary projects, able to support multi-investigator teams as 
well as individual investigator awards, and able to work effectively 
with other disciplines. The core programs are being transformed by ITR 
as much as ITR is becoming part of the new core of CISE.
    For the science and engineering disciplines outside of CISE, ITR 
has led investigators to a much greater appreciation for the increase 
of data due to new instruments and sensors, the demands to store and 
analyze these data and the need for research to create new methods and 
capabilities for their research. ITR has supported many 
interdisciplinary projects that address the research problems ensuing 
from these trends.
    Through all of these efforts, ITR has been a successful force for 
change. The changes in how we fund IT research are not any diminution 
of effort, but are the next step in an evolution that responds to a 
changing environment, changing capabilities, new opportunities, and 
evolving national priorities.

                      MATH AND SCIENCE PARTNERSHIP

    Question. In the budget request for this year, there is a proposal 
to move the Math and Science Partnership to the Department of 
Education, and to take the current program obligations and move them 
into the research account.
    Can you please explain the rationale behind moving the program away 
from NSF as well as the transfer of the program into the Integrative 
Activities portion of the research account?
    Answer. The consolidation of the Math and Science Partnership (MSP) 
reflects the administration's desire to focus the program on 
integrating research-proven practices into classroom settings. In 
addition, it will allow the program to concentrate attention and 
resources in a single program for maximum impact.
    The President's Budget requests $269 million at the Department of 
Education for the MSP program in 2005, a $120 million increase over the 
Department's 2004 level. This additional funding will support 
competitive grants targeted at improving math skills of disadvantaged 
high school students.
    This increase in the Department of Education's MSP program is a key 
component of the President's Jobs for the 21st Century initiative. 
President Bush is committed to helping better prepare high school 
students to enter higher education or the workforce. This initiative is 
especially important at a time when 80 percent of the fastest-growing 
jobs in the United States require higher education and many require 
math and science skills.
    The fiscal year 2005 budget would begin the process of phasing out 
the NSF program, while continuing support for out-year commitments for 
awards made in the first and second grants competitions, data 
collection, and program evaluation. NSF has requested $80 million in 
fiscal year 2005 to honor outyear-funding commitments for past awards. 
Moving the management of the ongoing awards to the NSF Director's 
office is intended to maximize the coordination of NSF-funded MSP 
awards across NSF.

                       INFORMAL SCIENCE EDUCATION

    Question. As I mentioned in my statement, the program for Informal 
Science Education is nationally recognized, and exposes millions of 
children and adults to science and science education. This is an 
excellent tool for NSF to use to encourage science literacy within the 
country, and can inspire kids to pursue science in education and as 
careers.
    With this in mind, why is Informal Science Education receiving a 
decrease of 25 percent from the $62.5 million that we provided in 
fiscal year 2004?
    Answer. Through its Informal Science Education (ISE) program, NSF 
has served the Nation by providing increased opportunities for public 
understanding of science, technology, engineering, and mathematics 
(STEM). The proposed reduction in ISE funding reflects priority setting 
in a tight budget environment. Notwithstanding, NSF is committed to 
promoting informal science education not only through the ISE program, 
but also through outreach emphases in programs throughout the agency.

 SCIENCE, TECHNOLOGY, ENGINEERING, MATHEMATICS TALENT EXPANSION (TECH 
                            TALENT) PROGRAM

    Question. An ongoing concern of Congress is the need for making 
sure that we have enough college students with majors in science, 
engineering, and technology fields. Congress has consistently shown 
support for this program, despite the annual cutting of the budget for 
this program by the administration.
    Why is NSF, once again, cutting Tech Talent by $10 million, a 66 
percent decrease?
    Answer. The funding requested for the Tech Talent program was $2 
million in fiscal year 2003 and $7 million in fiscal year 2004. In 
fiscal year 2005 NSF is requesting $15 million. Within this funding 
level, the Tech Talent program will improve the ability of academic 
institutions to increase the number of college students who major in 
science, engineering, and technology fields.
    Question. What are the views of NSF, the National Science Board, 
and OSTP, on the benefits of the Tech Talent program? Do you believe, 
as Congress does, that there is a strong need for this program?
    Answer. Proposal pressure to the Tech Talent program continues to 
be overwhelming and serves as an indicator of the popularity of this 
program. Although all proposals are expected to focus on efforts to 
increase the number of STEM majors, the range of activities seen in the 
proposals is extremely broad. For example, institutions are proposing 
to focus on the recruitment and retention of students from populations 
underrepresented in STEM fields; to increase exposure of students to 
academic or industrial research experiences starting during the 
students' first year of college; to make more effective linkages 
between community college courses and those at the 4-year institutions 
to which community college students transfer; to create bridge programs 
for at risk students between high school and college or between 2-year 
and 4-year institutions; to strengthen mentoring and tutoring between 
faculty and students and between students; to redesign courses that 
have proved to be major barriers to student success in STEM fields; and 
others. The NSF and the National Science Board have long advocated all 
of these efforts. The proposed reduction in budget for the Tech Talent 
program is a result of priority setting in a tight budget environment. 
Nevertheless, Tech Talent is an excellent program to help ensure the 
Nation has enough college students with majors in science, engineering, 
and technology fields.

    EXPERIMENTAL PROGRAM TO STIMULATE COMPETITIVE RESEARCH (EPSCOR)

    Question. One program that is very important to a number of 
Senators, particularly from less populous States, is the EPSCoR 
program, which provides a mechanism for those States to develop 
strategies to become more competitive at the National Science 
Foundation.
    Can you please explain why NSF chose to cut funding for EPSCoR by 
more than 10 percent from the $95 million provided in fiscal year 2004?
    Answer. The funding requested for the EPSCoR program was $75 
million in both fiscal year 2003 and fiscal year 2004. In fiscal year 
2005 the requested level increased to $84 million. This funding level 
will allow the program to meet its current obligations. In addition, 
this level of funding will allow continuation of EPSCoR's successful 
outreach program to acquaint EPSCoR researchers with NSF programs and 
policies. This amount is supplemented by approximately $30 million in 
co-funding from the Research and Related Activities account, a 
mechanism to leverage other NSF programs to EPSCoR States that has 
accounted for over 1,100 awards to EPSCoR States totaling $392 million 
for the 5-year period ending in fiscal year 2003.
    Question. What system does NSF have in place to track the progress 
of these smaller States in becoming more competitive for NSF grants? 
Are there any States that could soon graduate from the program?
    Answer. NSF's databases permit tracking of the numbers of proposals 
submitted, awards made, and funds obligated. The EPSCoR Office uses 
these data to track the progress of individual States and their 
competitiveness for NSF research awards. In addition, these systems 
help EPSCoR staff in their review of progress reports and results from 
site visits. NSF EPSCoR also uses these data in establishing 
eligibility for its programs and posts them on the EPSCoR website. 
Currently, eligibility for EPSCoR's Research Infrastructure Improvement 
(RII) program, as established in Public Law 107-368, is met when a 
State's institutions receive less than 0.70 percent of NSF research 
funding averaged over the 3 most recent fiscal years.
    NSF has named Dr. Sherry O. Farwell to head the Foundation's 
Experimental Program to Stimulate Competitive Research. He will serve 
in a consulting capacity immediately and assume the position full-time 
at NSF headquarters in July. One of his first tasks will be to look at 
the EPSCoR program and how well it is meeting the original goals set 
forth over two decades ago. Among the issues he will be considering is 
that of eligibility and the impact that the growth in the number of 
eligible States has had on the program.

                    INTERGOVERNMENTAL PERSONNEL ACT

    Question. NSF's budget again requests for 170 employees through the 
Intergovernmental Personnel Act (IPA). These people come from other 
agencies to work at NSF for up to 4 years, but typically 18 to 24 
months and then return to the private sector for employment.
    Can you please explain the significance of having almost 10 percent 
of the NSF workforce as temporary staff, and how this affects the 
continuity of operations at NSF?
    Answer. NSF aims to employ a mixture of permanent staff, IPAs, and 
visiting scientists, engineers, and educators throughout the agency. 
NSF's permanent staff provides the stable base of knowledge and 
expertise needed to operate efficient and productive programs within 
the Federal structure. Rotators represent nearly 10 percent of NSF's 
total staffing, and they help provide a continuous inflow of up-to-date 
information and fresh, invigorating viewpoints on needs and 
opportunities across all of research and education. NSF will continue 
to foster close ties to the research and education community through 
the use of rotators from academic and other nongovernmental 
institutions who work at NSF for 1-2 years on average and then return 
to their institutions.
    Question. Is NSF in need of more regular FTEs, beyond the 25 
additional asked for in fiscal year 2005, or is there a benefit that 
can only be achieved through IPAs?
    Answer. The Fiscal Year 2005 Request seeks funding for an 
additional 25 new permanent employees to address mounting pressures, 
and the IPA staffing level remains equal to the fiscal year 2004 
Current Plan Level of 170 FTE. We anticipate that the agency will seek 
further staffing increases in the future to address the past 20 years 
of static employment levels as well as future workload pressures. 
Additionally, it is our plan to maintain the required level of rotators 
needed to bring state-of-the-art knowledge to the agency.
    These issues are addressed in the forthcoming report from the 
National Academy of Public Administration, which committee staff has 
received in draft form. NSF expects that this report will provide an 
invaluable framework for future discussions of these issues, 
particularly since NAPA has recognized both the importance of rotators 
to NSF's mission and also the need for NSF to continue to balance the 
number of rotators and permanent employees based on the agency's past 
experience and the specific requirements of individual positions.

                                 ______
                                 
               Questions Submitted by Senator Larry Craig

    EXPERIMENTAL PROGRAM TO STIMULATE COMPETITIVE RESEARCH (EPSCOR)

    Question. For fiscal year 2004, Congress appropriated $95 million 
for the NSF EPSCoR program. Another $30 million is expected from co-
funding by the research directorates. How are you allocating these 
funds among the various EPSCoR activities?
    Answer. EPSCoR expects to allocate the fiscal year 2004 $95 million 
appropriation at approximately the following levels: $57 million for 
Research Infrastructure Improvement awards (fulfilling commitments on 
current awards and initiating four new awards), $33 million for co-
funding, $200,000 for outreach activities, and $4.8 million for NSF 
Small Business Innovation Research (SBIR) and other activities. EPSCoR 
works closely with directorate representatives in determining annual 
co-funding priorities. For instance, first-time awardees typically have 
priority over investigators who have had previous NSF funding. As 
another example, potential awards from the NSF Faculty Early Career 
Development Program (CAREER) have high priority across NSF because of 
strong potential to influence the integration of research and education 
on EPSCoR campuses.

               EPSCOR RESEARCH INFRASTRUCTURE INITIATIVE

    Question. Idaho is applying for a new Research Infrastructure 
Initiative (RII) award this year. Under normal circumstances, the 
solicitation would be available by now. I understand that more than 15 
States including Idaho are waiting for the solicitation. Please provide 
your schedule for issuing the solicitation as expeditiously as 
possible.
    Answer. The solicitation was issued on March 17, 2004.

                                 ______
                                 
               Question Submitted by Senator Ted Stevens

         BARROW ARCTIC GLOBAL CLIMATE CHANGE RESEARCH FACILITY

    Question. In fiscal year 2004, $5.4 million was appropriated to the 
National Science Foundation to be used for the Barrow Arctic Global 
Climate Change Research Facility, along with additional funding from 
NOAA. This facility will help NSF and the research community better 
accomplish their mission, but to date, the NSF money has not been made 
available.
    Please explain how and when these funds will be made available to 
the project.
    Answer. The plan for SEARCH infrastructure needs, including Barrow 
research support is as follows:
Background
    Senate Report 108-143, accompanying S. 1584, the Senate VA/HUD 
Appropriations for fiscal year 2004, contained the following provision:

    ``The Committee fully supports the Foundation's fiscal year 2004 
priority for Arctic research under its Study of Environmental Arctic 
Change [SEARCH] program. Accordingly, the Committee has provided 
$5,800,000 within NSF's Office of Polar Programs to support SEARCH 
infrastructure needs, including research support for the Barrow Arctic 
Research facility.''
Plan for SEARCH Infrastructure Needs Including Barrow Research Support
    The general framework for these investments was set forth in the 
2002 report to the Senate entitled, ``The Feasibility of a Barrow 
Arctic Research Center.''

            Barrow Arctic Science Consortium (BASC) Information 
                    Technology
    NSF is funding a significant improvement to the Barrow IT 
infrastructure to support science conducted in the Barrow area. BASC 
established an IT capability last year, and this year NSF will continue 
to support its development, operation and maintenance. Specifically, 
wireless LAN capability will be added with a 10-mile radius to support 
connectivity to tundra, sea-ice and ocean science field teams. (Cost 
estimate for fiscal year 2004: $500,000)

            North Slope Coastal Current Radar System
    NSF and the Department of the Interior's Minerals Management 
Service are considering joint funding for the acquisition and 
deployment of coastal radar systems along the North Slope, most likely 
located in or close to Barrow. The initial investment could be a high 
frequency radar for surface current mapping. This technology is well 
advanced and would provide surface current maps of high reliability. In 
addition, plans will be developed for the deployment of microwave 
radars for mapping of surface ice fields. Such radars have been 
employed along the northern coast of Hokkaido (Sea of Okhotsk) for many 
years; their use in Alaska will be discussed at a multi-agency meeting 
in Anchorage, Alaska, on March 31 and April 1, 2004. (Cost estimate for 
fiscal year 2004: $600,000)

            Study of the Northern Alaska Coastal System (SNACS): An 
                    Arctic System Science and SEARCH Program
    A program announcement is currently active with a mid-April 
deadline. This solicitation seeks proposals focused on the Arctic 
coastal zone of Alaska (see below for details) addressing one or more 
aspects of two coupled themes:
  --How vulnerable are the natural, human, and living systems of the 
        coastal zone to current and future environmental changes in the 
        Arctic?
  --How do biogeochemical and biogeophysical feedbacks in the coastal 
        zone amplify or dampen change locally and at the pan-arctic and 
        global levels?
    Up to $8.0 million is expected to be used to support the 
competition and $2.0 million is set aside from the fiscal year 2004 
SEARCH infrastructure funding to support needs identified in the 
proposals; half of the infrastructure funds will likely be used to 
address Barrow infrastructure needs. These may include new laboratory, 
instrumentation and connectivity capabilities. Funding recommendations 
based on external merit review are expected to be made by July 2004.

            Toolik Field Station Winter Facilities Upgrade
    The broad nature of SEARCH requires a variety of infrastructure 
throughout the Arctic including a network of stations that can support 
scientific campaigns and long-term observation. One site identified in 
the Search implementation plan (http:
//psc.apl.washington.edu/search/Library/ImplementOctober_R1.pdf) is 
Barrow, but Toolik also is noted as it provides the necessary 
infrastructure for terrestrial research and affords access to three 
major physiographic provinces including the Brooks Range, the Arctic 
Foothills, and the Arctic Coastal Plain. The station also serves as a 
base camp for researchers working along the ecological transect from 
tundra to taiga to boreal forest along the Dalton Highway, from Prudhoe 
Bay to Fairbanks, Alaska. The Institute of Arctic Biology at the 
University of Alaska, Fairbanks has developed a sound long-range 
development plan for Toolik Field Station that has guided development 
of the North Slope research facility over the last 4 years. The next 
significant increment is to build a winter support building that would 
significantly improve the capability to support year-round science and 
winter campaigns. (Cost estimate for fiscal year 2004: $1.0 million)

            North Pole Environmental Observatory (NPEO)
    The NPEO is in its fifth year of operation, supported mostly by the 
Arctic System Sciences program and has submitted a proposal for another 
5 years of operation. As was originally planned, the observatory has 
become a base for multiple projects in the Arctic Ocean, many of which 
are supporting the SEARCH goals. Part of the SEARCH infrastructure 
funds will be used to help continue the observations. (Cost estimate 
for fiscal year 2004: $700,000)

            Russian Meteorology Stations
    For scientists to meet the SEARCH goals they will require the 
ability to make measurements and observations throughout the Arctic, 
including areas of the vast coastal and continental shelf system of 
Arctic Russia. NSF has been working with the Russian Federal Service 
for Hydrometeorology and Environment Monitoring and a Russian non-
profit organization, Polar Foundation, to facilitate the 
reestablishment and improvement of manned and unmanned meteorological 
observatories in the high Russian Arctic. These measurements will be 
critical to improved modeling and understanding of the changing Arctic 
environment at the broadest scales. (Cost estimate for fiscal year 
2004: $600,000)

            Summit, Greenland Observatory
    Last year NSF funded a proposal to make a basic set of 
environmental observations at the Summit, Greenland research facility. 
The site is in a unique position to make direct observations of the 
free-troposphere in a SEARCH observing network. Although this project 
requires that the facility operate on a year-round basis, the current 
power and fuel systems are not ideal for this use; SEARCH 
infrastructure funds will be used to improve the environmental systems 
related to power generation. (Cost estimate: $400,000)

            National Oceanographic and Atmospheric Administration 
                    (NOAA) Collaboration
    NOAA received $8.5 million in its fiscal year 2004 appropriation 
for construction funds for ``Barrow Arctic Research Center.'' NSF has 
responded to NOAA's call for agency input on research needs in the 
Barrow area and will continue to work collaboratively with NOAA on this 
issue.

                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd

                             SOUND SCIENCE

    Question. Last week an influential and renowned group of 
scientists, including twenty Nobel laureates, issued a statement 
raising serious concerns about the Bush Administration's distortion and 
sabotage of science. Many of these individuals have served with 
distinction in former Republican and Democratic Administrations.
    Solid science is a critical underpinning of constructive policy 
making. Policymakers rely upon credible, peer reviewed, objective 
scientific analysis and advice in the pursuit of good decision-making 
in such fields as food safety, health care, biomedical research, the 
environment, and national security. These scientists have asserted that 
the Bush Administration is advocating policies that are not 
scientifically sound, misrepresenting scientific knowledge, censoring 
and suppressing information, and misleading the public to pursue its 
ideological agenda.
    Your agencies are seen as leading voices within the Federal 
Government with regard to the application of good science, and, 
therefore, it is incumbent upon you to ensure that scientific integrity 
is maintained. I am concerned that there is now a contemptible lack of 
oversight and that the public's trust in the Federal Government's 
scientific credibility and integrity will be undermined in the long-
term.
    What steps will you take to ensure that science and the pursuit of 
scientific reviews in the service of policymaking does not become 
overly politicized?
    Answer. NSF leads Federal agencies in funding research and 
education activities based upon merit review. In fiscal year 2003 for 
example, NSF made roughly 11,000 new awards from more than 40,000 
competitive proposals submitted, and over 96 percent of these awards 
were selected through NSF's competitive merit review process. All 
proposals for research and education projects are evaluated using two 
criteria: the intellectual merit of the proposed activity and its 
broader impacts, such as impacts on teaching, training and learning. 
Reviewers also consider how well the proposed activity fosters the 
integration of research and education and broadens opportunities to 
include a diversity of participants, particularly from underrepresented 
groups. The merit review system is at the very heart of NSF's selection 
of the projects through which its mission is achieved.
    Question. Are you prepared to make any specific recommendations to 
restore scientific integrity to policymaking?
    Answer. This administration is committed to working with the 
science and higher education communities to increase understanding on 
issues of mutual concern, but the sweeping accusations of the UCS 
statement go far beyond reasonable interpretations of the issues it 
raises and only provides partial or distorted accounts of events. The 
President believes policies should be formed with the best and most 
complete information possible and expects his appointees to conduct 
their business with integrity and in a way that fulfills that belief. 
This administration has strongly incorporated science in its policy-
making processes, and encourages the highest standards be applied 
through independent review bodies such as the National Academy of 
Sciences. A recent example is the National Academy of Science (NAS) 
report on the Climate Change Science Program (CCSP) Strategic Plan, 
just released, that found:

    ``In fact, the approaches taken by the CCSP to receive and respond 
to comments from a large and broad group of scientists and 
stakeholders, including a two-stage independent review of the plan, set 
a high standard for government research programs.''

    Question. According to news reports, the Bush Administration is 
said to ``stack'' panels with members whose scientific viewpoints agree 
only with the administration's positions. Even basic science classes 
teach the importance of a broad range of sampling when trying to find 
scientific truths. How can the public have any confidence that 
scientific positions taken by this administration have any basis in 
fact?
    Answer. Many of these instances raised involved panel members whose 
terms had expired; some even were serving as much as 5 years past their 
termination dates. Some involved a new direction in focus for that 
particular slot with the overall goal of achieving scientific diversity 
on the panels. Other candidates may have been rejected for any number 
of reasons--this is ordinary for any administration. This process 
results in the selection of qualified individuals who represent a wide 
range of expertise and experience--the right balance to yield quality 
advice for the President on critical S&T issues.
    Question. Will you press for changes to ensure that a range of 
scientific views are included on these panels?
    Answer. In accordance with the Federal Advisory Committee Act and 
its associated regulations (CFR Parts 101-6 and 102-3), all external 
advisory committees established by NSF, including review panels, 
Committees of Visitors, and advisory committees, seek a balanced 
membership in terms of the points of view represented. This requirement 
receives special mention in each committee's annual report, since the 
reporting template includes the question, ``How does the committee 
balance its membership?''
    Beyond these formal requirements, NSF has a longstanding tradition 
of seeking a range of views and perspectives from the external 
community to inform its decision-making processes. With hundreds of 
proposal competitions, meetings with experts, formal workshops, and 
reports from commissions throughout the year, NSF is constantly 
listening, analyzing and responding to thoughts from the research and 
education community.

                                 ______
                                 
               Question Submitted by Senator Tim Johnson

    EXPERIMENTAL PROGRAM TO STIMULATE COMPETITIVE RESEARCH (EPSCOR)

    Question. Dr. Sherry Farwell from South Dakota was announced last 
week as the new EPSCoR Office Director. We in South Dakota are very 
pleased that Dr. Farwell is taking on this assignment, as EPSCoR is 
very important to our State. One matter of particular interest to us is 
how EPSCoR can be utilized as a conduit to ensure that more of the 
researchers and leaders from smaller States are included on national 
panels and committees.
    What mechanisms or approaches might be used to implement broader 
representation of EPSCoR States throughout the NSF?
    Answer. NSF and the EPSCoR Office in particular have focused 
significant efforts in broadening the participation of institutions and 
individuals from EPSCoR States in NSF's activities. EPSCoR works with 
the NSF directorates in nominating individuals from EPSCoR States to 
serve on NSF advisory committees, Committees of Visitors, etc. EPSCoR 
also makes recommendations of EPSCoR investigators to serve as 
reviewers and panelists for NSF grant competitions.
    NSF and the EPSCoR Office have used a number of other approaches to 
stimulate increased participation of EPSCoR institutions and 
individuals in NSF programs. For instance, NSF's Office of Legislative 
and Public Affairs coordinated ``NSF Days'' conferences in three EPSCoR 
States in fiscal year 2003. The purpose of these workshops is to 
highlight NSF programs, familiarize university officials and 
investigators with successful proposal writing techniques and provide 
the opportunity for one-on-one discussions between NSF Program Officers 
and interested individuals from EPSCoR institutions.
    In addition, the NSF Small Business Innovation Research (SBIR) 
office frequently hosts annual meetings in EPSCoR States, providing a 
venue for increased visibility of NSF and other agency funding for 
small businesses in EPSCoR States. NSF also conducts Regional Grants 
Conferences in EPSCoR States. These conferences draw several hundred 
participants from various regions of the country for 2 days of in-depth 
discussions of all aspects of NSF programs, funding, merit-review 
processes and grant administration. EPSCoR will continue to seek 
opportunities for involving greater numbers of individuals and 
institutions from EPSCoR States in NSF's programs and activities.

                                 ______
                                 
           Questions Submitted to the National Science Board

           Questions Submitted by Senator Christopher S. Bond

    Question. Due to the perceived subjectivity of NSF's priority-
setting process for large research facilities, there has been an 
increased effort by various scientific interest groups to lobby the 
Congress on their specific project. In response to this concern, we 
asked the National Academy of Sciences to develop criteria to rank and 
prioritize large research facilities and they have responded.
    Do you support the Academy study?
    Answer. This year the Board will expand its ongoing examination of 
its role and responsibilities regarding the NSF's Major Research 
Equipment and Facilities Construction (MREFC) program. The National 
Academies report of their study examining how NSF sets priorities among 
multiple competing proposals for construction and operation of large-
scale research facility projects to support a diverse array of 
disciplines has, in general, been very well received by the Board. In 
particular, we support the concept and value for developing a roadmap 
and making the MREFC priority setting process clear or transparent. 
While a roadmap would be very useful to assist in strategic planning 
and prioritization, it must be carefully structured to allow the 
flexibility required of an agency such as NSF that serves many 
disparate disciplines whose needs and opportunities change with new 
discoveries.
    Recommendations from this study are being considered with due 
diligence by the Board as we develop and implement options for meeting 
our enhanced responsibilities, as directed by the NSF Act of 2002. We 
will factor the recommendations of the National Academies report on the 
MREFC program into our examination, and develop a process for 
implementing appropriate modifications to the Board's involvement with 
the MREFC program. The Board is in the initial phase of reviewing and 
addressing the National Academies recommendation, and will provide our 
comment directly to Congress after we have given it careful 
consideration.
    Question. When will you be able to provide the Committee with a 
prioritization of all the current, and proposed, activities in the 
MREFC account for fiscal year 2005?
    Answer. The Board approved the fiscal year 2005 submission to OMB 
at its August meeting. The highest priority is assigned to ongoing 
projects (ALMA, EarthScope, and IceCube). Recommended new starts are in 
the following priority order: National Ecological Observatory Network 
(NEON), Scientific Ocean Drilling Vessel, and Rare Symmetry Violating 
Processes (RSVP).
    Question. How long will it take NSF and the National Science Board 
to implement the recommendations?
    Answer. The Board is currently working with our staff and NSF 
senior management to develop a draft document containing an overview of 
the fundamental issues surrounding the process of setting priorities 
for MREFC projects. NSF senior management is also providing the Board 
with a summary of the process and activities that NSF feels already 
address the NRC recommendations, to varying degrees. The eventual 
report that the Board will approve and send to Congress will focus on 
making the priority setting process clear or transparent to the 
communities that need to know about it, making the process more 
effective, and clearly elucidating the role of the Board in reviewing, 
prioritizing and approving facilities that address the highest priority 
research challenges and/or provide a great opportunity to move the 
frontier of research forward. Such a Board report to the Congress will 
likely take some months to complete. In the interim, however, we expect 
to be able to meet routinely with appropriate Members of the Congress 
and their Staff to provide updates on our progress.

                          SUBCOMMITTEE RECESS

    Senator Bond. There will be no further business to come 
before the subcommittee today. The hearing is recessed.
    [Whereupon, at 11:56 a.m., Thursday, February 26, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
